<html>
<title> - THE NEXT STEP IN THE INVESTIGATION OF THE USE OF INFORMANTS BY THE DEPARTMENT OF JUSTICE: THE TESTIMONY OF WILLIAM BULGER</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
  THE NEXT STEP IN THE INVESTIGATION OF THE USE OF INFORMANTS BY THE 
         DEPARTMENT OF JUSTICE: THE TESTIMONY OF WILLIAM BULGER
=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 19, 2003

                               __________

                           Serial No. 108-41

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform





                        U.S. GOVERNMENT PRINTING OFFICE
89-018                         wASHINGTON  : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001












                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director
















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 19, 2003....................................     1
Statement of:
    Bulger, William, president, University of Massachusetts......    33
Letters, statements, etc., submitted for the record by:
    Bulger, William, president, University of Massachusetts, 
      prepared statement of......................................    36
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................    12
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................    25
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia:
        David Davis affidavit....................................    46
        Harold Brown affidavit...................................    43
        Michael Barnicle affidavit...............................   116
        Peter Agnes affidavit....................................    49
        Prepared statement of....................................     4
        William Bulger subpoena..................................    30
        William Nally affidavit..................................    50
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts:
        Carl Gustin affidavit....................................    65
        Information concerning James Stover and J. Michael Doyle.    62
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................     8















  THE NEXT STEP IN THE INVESTIGATION OF THE USE OF INFORMANTS BY THE 
         DEPARTMENT OF JUSTICE: THE TESTIMONY OF WILLIAM BULGER

                              ----------                              


                        THURSDAY, JUNE 19, 2003

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:56 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Tom Davis of Virginia, Shays, 
Burton, LaTourette, Mrs. Davis of Virginia, Platts, Schrock, 
Duncan, Murphy, Mr. Turner of Ohio, Carter, Janklow, Blackburn, 
Waxman, Maloney, Cummings, Kucinich, Tierney, Clay, Watson, 
Lynch, Van Hollen, Sanchez, Norton, Bell, Delahunt and Meehan.
    Staff present: Peter Sirh, staff director; Melissa Wojciak, 
deputy staff director; Keith Ausbrook, chief counsel; Ellen 
Brown, legislative director and senior policy counsel; Robert 
Borden, counsel/parliamentarian; Anne Marie Turner, counsel; 
David Marin, director of communications; Scott Kopple, deputy 
director of communications; Teresa Austin, chief clerk; Joshua 
E. Gillespie, deputy clerk; Corinne Zaccagnini, chief 
information officer; Brien Beattie, staff assistant; Phil 
Barnett, minority chief counsel; Kristin Amerling and Michael 
Yeager, minority deputy chief counsels; Karen Lightfoot, 
minority senior policy advisor and communications director; 
Anna Laitin, minority communications and policy assistant; Tony 
Haywood and Althea Gregory, minority counsels; David McMillen 
and Denise Wilson, minority professional staff members; Earley 
Green, minority chief clerk; Cecelia Morton, minority office 
manager; and Christopher Davis, minority staff assistant.
    Chairman Tom Davis. The Committee on Government Reform will 
come to order.
    We are here today to receive testimony from William Bulger. 
During the 107th Congress, the committee conducted an 
investigation of the FBI's misuse of informants in New England 
from 1964 until the present. The committee held a number of 
hearings and conducted hundreds of interviews under the 
leadership of then Chairman Dan Burton. Mr. Bulger's testimony 
is the next step in the committee's investigation into the use 
of informants by the Department of Justice.
    James Whitey Bulger was an informant for the FBI in Boston. 
Whitey Bulger was repeatedly able to avoid arrest due to 
information illegally leaked to him by his FBI handler, John 
Connolly. When Whitey Bulger was finally indicated in 1995, he 
received advance warning from Connolly and fled. Federal and 
State authorities continued to look for him. Whitey Bulger is 
currently wanted on 18 counts of murder, as well as other 
racketeering offenses, some of which were committed during his 
tenure as an FBI informant. He is currently listed on the FBI's 
10 most wanted list. As a result of John Connolly's improper 
relationship with James Bulger, Connolly was convicted of 
racketeering and obstruction of Justice and is now serving a 
10-year prison sentence.
    I don't believe it is a coincidence that current FBI 
Director, Bob Mueller, recently asked former Attorney General 
Griffin Bell to conduct a review of the FBI's Office of 
Professional Responsibility. The revelations about John 
Connolly's conduct call into serious question the deterrent 
value of the FBI's internal review process.
    Connolly grew up in the same south Boston neighborhood as 
the Bulger family. As an adult, John Connolly was a friend of 
James Bulger's brother, William. William Bulger served as 
president of the Massachusetts Senate from 1978 to 1996 and is 
currently the president of the University of Massachusetts.
    Pursuant to subpoena, William Bulger appeared before this 
committee on December 6, 2002. At that time, Mr. Bulger 
exercised his fifth amendment privilege and refused to testify. 
On April 9, 2003, this committee voted to grant William Bulger 
immunity to obtain information concerning Whitey's whereabouts 
and the FBI's misuse of informants.
    The purpose of this hearing is to get to the truth about 
the impact the misconduct of John Connolly had on the proper 
functioning of State government in Massachusetts. The record of 
this committee's investigation plainly establishes that the 
FBI's improper relationship with its informants corrupted and 
distorted the efforts of State law enforcement. Joseph Salvati 
went to prison for 30 years for the Deegan murder when the FBI 
had evidence that Salvati was not the killer.
    This hearing, however, will focus on whether the 
relationship between John Connolly and Whitey Bulger benefited 
Whitey Bulger's brother William Bulger while he was a high 
ranking, elected official in Massachusetts. The issues include; 
whether as a result of that relationship the FBI improperly 
protected or advanced Mr. Bulger's career during his tenure in 
the Massachusetts legislature; whether Mr. Bulger used his 
position of power to retaliate against those who investigated 
Whitey's crimes; whether Mr. Bulger knew of the relationship 
and sought or at least knew that he received favorable 
treatment as a result of the relationship; and finally, whether 
Mr. Bulger has knowledge of James' whereabouts and the efforts 
of the FBI to locate his brother.
    Getting to the truth about these issues will reassure the 
public that these matters have been thoroughly and fairly 
investigated and contribute to the restoration of public 
confidence in government. The disclosure of the improper 
relationship between John Connolly and James Bulger has cast a 
new light on events involving William Bulger. The committee 
will examine whether the investigation and prosecution of 
former Massachusetts State Senate majority leader, Joseph 
DeCarlo, on Federal corruption charges was intended to benefit 
Mr. Bulger who became Senate president following that scandal.
    The committee will also examine whether Mr. Bulger has any 
information regarding allegations that John Connolly sought to 
terminate prematurely an investigation of possible corruption 
in connection with the 75 State Street matter, a real estate 
development project in the 1980's.
    The committee will ask whether Mr. William Bulger had any 
connection in the demotion of a Massachusetts State police 
officer who in September 1987 filed an incident report 
regarding an attempt to stop Whitey Bulger at Logan Airport 
after $500,000 was discovered in his bag. The officer, Billy 
Johnson, later committed suicide. Mr. Johnson claimed his 
superior requested a copy of this incident report regarding 
James Bulger on behalf of William Bulger.
    The committee will also examine whether Mr. Bulger was 
aware of an amendment to the State budget that would have 
required State police officers 50 or older to take a reduction 
in pay, rank or to retire. The amendment, which was later 
vetoed by the Governor, would only have affected five officers 
in Boston. Two of the five officers participated in the 
Lancaster Street garage investigation involving Whitey Bulger 
and other leaders of the Boston mob.
    The misuse of informants in Boston has left an indelible 
mark on the public's perception of the FBI. The Department of 
Justice was supposed to enlist the use of informants to 
apprehend and prosecute high ranking members of the mob. 
Instead, certain FBI special agent handlers in Boston, 
including John Connolly, chose to break the law by 
participating in corrupt relationships with their informants. 
The agents turned a blind eye to the crimes committed by their 
informants and participated in dismantling State and Federal 
investigations of the New England mob by tipping off their 
informants to wiretaps, surveillance and pending indictments. 
The agents chose personal gain over ethics by forming social 
relationships with their informants that exceeded the 
boundaries established by FBI guidelines. The agents accepted 
personal and monetary gifts from their informants.
    This committee will examine all of these issues to gain a 
full understanding of the serious impact of FBI's misconduct in 
the case. Only by having a full understanding can we take steps 
to make sure that it never happens.
    I would now recognize our ranking member, Mr. Waxman, for 
his opening statement.
    [The prepared statement of Chairman Tom Davis follows:]
    [GRAPHIC] [TIFF OMITTED] T9004.001
    
    [GRAPHIC] [TIFF OMITTED] T9004.002
    
    [GRAPHIC] [TIFF OMITTED] T9004.003
    
    Mr. Waxman. Thank you, Mr. Chairman.
    I welcome this opportunity to hear from William Bulger and 
to give him a chance to answer the committee's questions in a 
public session.
    This is the 10th day of hearings on law enforcement abuses 
related to the Boston office of the FBI. During the committee's 
hearings, we have learned that the FBI profoundly abused the 
public trust. It is now beyond dispute that agents in the 
Boston office of the FBI protected organized crime figures who 
committed murders and other violent crimes, helped send 
innocent people to jail, warned suspected criminals of pending 
indictments, accepted bribes and committed other illegal acts.
    The person alleged to be at the center of much of this 
illegal conduct is James Whitey Bulger, who is now 1 of the 10 
most wanted fugitives in the United States. Whitey Bulger is 
accused of committing multiple murders and running a brutal, 
criminal organization in New England. Almost like the biblical 
parable of Cain and Abel, his brother, William Bulger, took a 
completely different path. He became a major political figure 
in Massachusetts and the president of its public university. 
William Bulger is here today to answer questions about whether 
he has information on the whereabouts of his brother, Whitey; 
whether he was involved in or knew about the corrupt 
relationship between his brother, Whitey, and the former FBI 
special agent, John Connolly; and whether he used his public 
office to protect his brother or to protect himself from 
various law enforcement investigations.
    I welcome the opportunity to explore these questions with 
Mr. Bulger, but I would add one final point before we proceed. 
When the committee considered granting Mr. Bulger immunity in 
April, I gave my support reluctantly because I was concerned 
that Mr. Bulger not be singled out for political purposes. I 
still have some of those concerns given the ongoing political 
disputes brewing in Massachusetts, but I am guided by Justice 
Brandeis' oft quoted statement, ``Sunshine is the best 
disinfectant.''
    Questions have been raised about what Mr. Bulger knows. It 
is in everyone's interest, even Mr. Bulger's, for these 
questions to be answered in public. And perhaps most important, 
the families of the victims of Whitey Bulger need to know that 
no effort has been spared to find the truth.
    I look forward to hearing Mr. Bulger's testimony today.
    [The prepared statement of Hon. Henry A. Waxman follows:]
    [GRAPHIC] [TIFF OMITTED] T9004.004
    
    [GRAPHIC] [TIFF OMITTED] T9004.005
    
    Chairman Tom Davis. Thank you very much.
    The gentleman from Indiana who started these investigations 
and has played a very active role, Mr. Burton.
    Mr. Burton. Thank you, Mr. Chairman. I am glad we finally 
are able to get on with this.
    Two years ago, Joe Salvati and his wife sat at that table 
and he spent 30 some years in prison for a crime he didn't 
commit. We found that all the way up to J. Edgar Hoover, it was 
pretty apparent he was innocent and they were protecting 
informants. That is because our government let them down. The 
FBI was protecting a killer named Jimmy Flemmi and it didn't 
matter to even the people at the highest levels of the FBI that 
innocent people were going to prison and possibly going to die 
in prison.
    We have learned a lot since Joe and Marie Salvati were 
here. When we started, we had a suspicion that terrible things 
had happened; now we have some more facts, facts about innocent 
men who were left to die in prison so that government 
informants could go free; facts about Joe ``the Animal'' 
Barboza who lied for the government and who was protected while 
he committed crimes including murder, after he went into the 
witness protection program; facts about Paul Rico and his 
sordid conduct as an FBI agent and his subsequent career as an 
organized crime facilitator at World Jai Alai where some have 
testified he helped murder Roger Wheeler; facts about John 
Connolly and some of his corrupt FBI cronies in Boston who 
didn't seem to care that their informants were out killing 
people; and finally, facts about Steven ``The Rifleman'' Flemmi 
and James Whitey Bulger who were allowed to murder with 
impunity.
    The story is so sickening it is easy to lose sight of the 
forest for the trees. Today, however, we have an opportunity to 
step back and look at the big picture. It is my sincere hope 
this will be a positive step in the committee's investigation. 
I have called what happened in Boston one of the greatest 
failures or the great failure in the history of Federal law 
enforcement. In 2 years, no one has come up with an example 
that is half as bad as what happened in Boston. I think the 
Government owes the people of New England an apology.
    The fault cannot be put exclusively on the Federal 
Government. Perhaps as important, there was a climate in Boston 
that permitted Joe Barboza, Jimmy and Stevie Flemmi and Whitey 
Bulger to get away with murder, multiple murders literally. To 
understand this climate, we have to talk to people like Whitey 
Bulger's brother, Billy who was president of the Senate.
    For over 30 years, Boston was living the fable of the 
Emperor's New Clothes. I am sure we all know that fable. 
Remember the story about an arrogant leader who spent his money 
on new clothes and then 1 day, two rogues came to him and 
commissioned a new suit. He was told that the clothes would be 
invisible to all who were unfit for his office or simple of 
character.
    When the Emperor finally was presented with nothing, he 
could not admit that he could not see the suit and his 
followers were too scared to admit they saw nothing, so the 
Emperor paraded through the streets wearing no clothes. Finally 
a little child said, but the Emperor has nothing on at all.
    In Boston, two of the rogues were Stevie Flemmi and Whitey 
Bulger. The appearance of being the Emperor was William Bulger 
and the question is, did he know what the rogues were doing? 
Was he protecting in any way what the rogues were doing? It is 
hard to conclude after the investigations we have conducted 
over the last couple of years that he did not. People knew that 
Bulger and Flemmi were criminals. They knew about the 
bookmaking and the loan sharking. They knew about drug dealing 
and gun running and some even knew about the murders. For some 
reason, nothing seemed to happen. People could not bring 
themselves to speak the truth.
    Now we know why. They were scared, they were terrified and 
many still are. They were terrified because the local 
establishment tolerated Whitey Bulger and Stevie Flemmi. It 
facilitated their conduct, it enabled them and no one seems to 
doubt that William Bulger, through the example he set, played a 
major role in helping his brother stay on the streets.
    William Bulger did not describe his brother in front of 
hundreds of people at his cherished St. Patrick's Day 
festivities as ``The Reverend'' because he thought he was a 
good man. He did it because he knew that no one would question 
him. He knew they would laugh with him. Everyone was in on the 
joke but it wasn't a joke.
    Ask Debbie Davis's family. Ask Joe and Marie Salvati. Ask 
David Wheeler, who told this committee about how his Dad was 
killed. Making light of ``The Reverend'' speaks volumes about 
why we are here today. Now people are coming forward and years 
of silence is being broken but we are far from finished. We 
have a lot of work to do and I hope that Chairman Davis will 
devote the time and energy to going forward with this 
investigation. We still have not seen the Bulger or Flemmi 
informant files and we need the chairman's help to get that 
done.
    It has taken several months but we have Mr. Bulger with us 
and I, as well as my colleagues, look forward to asking him 
about many things today, I hope Mr. Bulger will be concise with 
his answers and not ramble on because we have a lot of 
questions and we would like to get them answered. We would like 
them to be as concise and direct to the questions posed as 
possible.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    [The prepared statement of Hon. Dan Burton follows:]
    [GRAPHIC] [TIFF OMITTED] T9004.006
    
    [GRAPHIC] [TIFF OMITTED] T9004.007
    
    [GRAPHIC] [TIFF OMITTED] T9004.008
    
    [GRAPHIC] [TIFF OMITTED] T9004.009
    
    [GRAPHIC] [TIFF OMITTED] T9004.010
    
    [GRAPHIC] [TIFF OMITTED] T9004.011
    
    [GRAPHIC] [TIFF OMITTED] T9004.012
    
    Chairman Tom Davis. Thank you very much.
    Do any other Members wish to give opening statements? Mr. 
Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    I want to thank you and the preceding Chairman, Mr. Burton, 
for having these hearings on the FBI misconduct.
    For nearly 40 years, the FBI agents in Boston recruited 
members of organized crime to act as Bureau informants. Some of 
the same agents may have been recruited by organized crime or 
in some odd zealousness pursued information from criminal 
informants against other criminals, some law enforcement FBI 
agents appear to have ignored or covered up criminal conduct of 
their informants to preserve cases against other targets.
    The result has been a corrupt system where FBI agents 
protected informants at the expense of innocent citizens. The 
FBI and possibly other Department of Justice people are now 
alleged to have been complicit in miscarriages of justice where 
some went to jail on tainted evidence, where discretion about 
whether or not to investigate and prosecute certain cases was 
improperly exercised.
    This oversight committee has particular responsibility to 
determine the exact nature of these corrupt relationships to 
identify all participants however wide or deep or high up the 
chain it went, to ensure that victims see justice done and to 
implement any necessary guidelines at the Department of Justice 
or laws or rules and regulations that will be necessary to 
prevent any repeat in Boston or elsewhere.
    We are confronted with the new security dynamic where many 
are pressing for expanded law enforcement powers and less 
Constitutional constraint on trespass against individual 
rights. Many people are concerned and the facts such as those 
in this investigation give rise and voice to that concern. Is 
the FBI reliable enough to properly use any large powers? Is 
the Department of Justice and ultimately Congress acting to 
ensure citizens' Constitutional rights are protected? People 
need to know that the FBI agents will enforce the law and not 
undermine it.
    Already we have had hearings disclosing outrageous 
injustices and law enforcement's transgressions. We heard 
expert testimony about possible recourse to prevent future 
transgressions from U.S. Attorney General Reno's Task Force 
Guidelines for Prosecutors and Law Enforcement Personnel to 
expert witnesses recommending a broadening of the obstruction 
of justice law to include suppression of evidence as a 
punishable act and extend beyond 5 years the statute of 
limitations relative to such offenses. One witness provoked 
thought with the recommendation that Congress should Federalize 
far fewer criminal laws.
    This committee is charged with evaluating the effectiveness 
of current standards of determining which of the above 
recommendations or others, if any, should be incorporated into 
new standards and issuing a full report on the extent and exact 
nature of the conduct forming the basis of this investigation. 
The latter aspect is where today's witness testimony may be 
relevant.
    To the extent that this witness has information bearing on 
the FBI or other law enforcement personnel misconduct, 
especially concerning the handling of confidential informants 
or information of other misconduct including cover-ups or 
inappropriate exercise of discretion in present cases, the 
testimony will be of interest and helpful to this 
investigation.
    Insofar as the witness now testifies under a grant of 
immunity, we have every right to expect that he will share any 
and all relevant information, that he will be direct, 
forthright and honest and if he does that, then we can all 
perform our responsibilities.
    I yield the balance of my time.
    Chairman Tom Davis. Thank you very much.
    Let me just say, every Member's statement will be include 
in the record. I also ask unanimous consent that Mr. Meehan and 
Mr. Delahunt who are not members of the committee be allowed to 
participate in today's hearing. Hearing no objection, so 
ordered.
    Do other Members wish to make opening statements? 
Everything will be included in the record. Mr. Lynch.
    Mr. Delahunt. Mr. Chairman.
    Chairman Tom Davis. Yes, Mr. Delahunt.
    Mr. Delahunt. If I may, first, I have a need to disclose 
the fact that Mr. Bulger's counsel, Mr. Kiley, has represented 
myself on a variety of election issues and is currently the 
treasurer of my own campaign committee. I have not heard from 
Mr. Kiley on the subject and I clearly have not had any 
conversations with Mr. Bulger, but if there is any objection to 
me participating in this hearing on behalf of Mr. Bulger, I 
would like to know that now.
    Mr. Lynch. If I may, Mr. Davis, proceed with a statement.
    Chairman Tom Davis. You may. I was going to get Mr. Lynch 
first because he is a member of the committee but there is no 
objection to you participating. We are happy to have you and 
you are here at our invitation.
    Mr. Lynch. Thank you, Mr. Chairman.
    Chairman Davis, Mr. Waxman and my colleagues on this 
committee, and invited members, Mr. Delahunt and Mr. Meehan of 
the Judiciary Committee, I would like to begin by offering my 
thanks to the leadership of this committee both past and 
present for the enormous effort that has been put forward to 
investigate and address what must be described as one of the 
most shameful and troubling chapters in the history of the U.S. 
Justice Department and the FBI.
    As a result of the good work of Federal District Judge Mark 
Wolfe, which this committee has continued under the able 
leadership of Chairman Burton and also Jim Wilson, our able 
counsel who served this committee very well, and also now 
Chairman Davis and able counsel, Keith Ausbrook and Mike 
Yeager, we have elicited and cataloged a 40 year history of 
unspeakable crimes and atrocities which were condoned, 
conducted or materially assisted by the Boston office of the 
FBI. These atrocities include the murders of at least 19 
individuals, 17 men and 2 women, some of whom have been 
retrieved from hastily dug graves, others who have yet to be 
found.
    The trial of law enforcement misconduct also includes the 
wrongful imprisonment of innocent men who spent 30 or more 
years in prison for crimes they did not commit. While the 
Government had evidence that would exonerate them, they were 
allowed to remain in prison because to expose the false 
testimony of government informants like Joe Barboza and others 
would have jeopardized the convictions of La Cosa Nostra in New 
England but I think more importantly, it would have jeopardized 
the careers of those law enforcement officials who advanced 
themselves as a result of the prosecution of La Cosa Nostra to 
the use of these same informants.
    The FBI, in league with their Government informants, set 
forth a chain of events that spans 40 years. This crime spree 
saw the case of Brian Halloran who had turned to the FBI for 
protection in fear of his own life. He was turned away by the 
FBI and only a short time later, he and his friend, Michael 
Donohue who as an innocent bystander and had merely given Mr. 
Halloran a ride, were gunned down in cold blood in my own 
neighborhood of south Boston. Two other victims, Debra Davis 
and Debra Hussey, were only 26 years old when they were 
murdered by the very men the FBI had chosen to protect.
    The record is replete with examples, documented, to obtain 
evidence against Whitey Bulger by law enforcement officials and 
also against Stephen Flemmi and their cohorts but time and 
again wire tap locations and surveillance attempts were 
thwarted by Agent John Connolly and other agents of the FBI who 
gave notice to their Government informants of these attempts to 
bring them to justice and so the killings continued.
    The reach of this group was extensive reaching to Florida 
and Oklahoma where businessman Roger Wheeler was shot in the 
face at point blank range in a parking lot leaving behind a 
wife and young children.
    The families of these victims have come to these hearings 
regularly. Seeking justice where justice can be done. Others 
are merely hoping for the chance to give their loved ones a 
decent burial. For most of these families, especially for those 
members who were merely children when their family members were 
taken, justice under any fair description of that term is 
simply beyond reach. Lives have been destroyed and in some 
cases, stolen. This is especially true for Mr. Joseph Salvati 
and his wife, Marie, and their children, as well as the Limone 
and the Greco family and the Tameleo family. These families had 
to look on while their loved ones were sent to jail for a crime 
the FBI knew they did not commit.
    I would be remiss if I did not note the good work of 
Vincent Garo, legal counsel to the Salvati family who for these 
many years has maintained the highest standards of 
professionalism and vigilant legal advocacy on behalf of a man 
who was wrongly convicted.
    In the reams and reams of testimony that we have received 
over the past 2 years, there is one conversation that sticks 
out in my mind and it sort of captures the scope and the depth 
of the wrongdoing that we investigate here. It is a 
conversation between Mr. Garo and Joseph Salvati's youngest son 
who I think was 2 years old when his dad went to prison. Some 
30 years later when Joseph Salvati was a young man, Mr. Garo 
had a conversation with Mr. Salvati's son and he said, ``You 
know you were only 2 years old when your dad went to prison and 
you have sort of been the man in the family for all these 
years. Now it looks as though your dad is going to get out of 
jail and when he gets out, he is going to want to be the man of 
this house.'' It was a light moment in a history of darkness. 
And Joseph's reply was this, ``Mr. Garo, I want you to know 
that I have never sat down and had breakfast with my father, I 
have never gone for a walk with my father, I have never gone to 
a baseball game with my father. If when my father gets out of 
prison, he wishes to exercise his right to be the man of this 
house, then I will be happy to allow him to do that.''
    That conversation probably for me solidified the sense of 
wrongness that has been done here as well as the special nature 
of the FBI wrongdoing that has gone on here. The American 
public I think is probably just beginning to grasp the breadth 
and depth of what really went on during the course of FBI 
misconduct. In fact, it is perhaps hard to grasp because the 
facts are so unbelievable.
    I was disappointed recently to read a court decision that 
prevented the Wheeler family from bringing suit against the FBI 
and law enforcement officials that law enforcement was culpable 
in the death of their father. They were told by the court that 
they should have brought their claims previously, that they 
should have known. They should have known that the FBI was in 
league with organized crime? That is unbelievable. That defies 
the wildest imagination and yet these people are being 
precluded from justice, precluded from any recovery because 
they did not know the FBI was in league with organized crime. 
Yet we in Government have empowered the FBI through our laws 
and through Government regulations to operate in secrecy. I 
hope at some point we will revisit the cases of these victims.
    Nevertheless, we only compound injustice when we seek to 
avoid the conflict of these offenses with the highest 
expectations of American democracy when we simply wish it all 
to go away, to be over with because some of these events 
happened so long ago and have been concealed for so long.
    It remains essential to the highest ideals of our system of 
justice and to the fabric of Constitutional democracy that the 
Congress and this committee fulfill its responsibility to the 
victims in this case and also to the institutions of government 
that have been so maligned. We must continue to address this 
outrage honestly and in a spirit of justice that has been for 
so long denied.
    It is an admitted fact that certain agents and supervisors 
of the FBI recruited and employed criminal informants in order 
to undermine the New England La Cosa Nostra and that in the 
course of cultivating and employing these informants, these FBI 
agents became corrupted themselves. This corruption included 
agents who took cash, bribes totaling thousands of dollars from 
the same criminals who have been indicted in at least 19 
murders.
    I think it is very important for the members of this 
committee to be mindful that the Justice Department itself is 
charged with upholding and enforcing the laws and that we as 
lawmakers have passed those laws and supported regulations 
which give the FBI an enhanced ability to operate in secrecy. 
Moreover, we have so empowered the FBI and the Justice 
Department that local and State law enforcement authorities 
have been and can be in the future intimidated and obstructed 
in the pursuit of justice when, as in this case, the FBI 
asserts jurisdiction.
    In the course of this investigation, we have seen citizens 
murdered because they turned to the FBI for protection. If we 
were examining actions of the KGB in the Soviet Union during 
the cold war or if we were condemning the butchery of secret 
police in some struggling Third World country, we would 
instinctively, when we read about those atrocities, take 
comfort in the protections of our Constitutional government.
    I think it is generally the case when we read about things 
like that, we say to ourselves, thank God that couldn't happen 
here. Well, it happened here. It happened here. We have to wake 
up to that fact. The American public has yet to wake up to the 
fact but we have witnessed in these committee hearings a 
collapse of certain Constitutional protections. In 
Constitutional terms, this is like a 40 year sink hole, a 
period where the underpinnings of democracy were allowed to 
decay in which the individual protections guaranteed by our 
Constitution were subverted in the interest of pursuing La Cosa 
Nostra.
    Ultimately, this investigation is about the actions taken 
by the Justice Department and the FBI. It is not about the 
particular witness before us.
    By way of my own disclosure, today's witness and I each 
have the pleasure and honor of living in south Boston, a solid, 
patriotic, close knit community where we all know each other. 
Mr. Bulger and I each shared the high honor of representing the 
good people of south Boston and Dorchester in the Massachusetts 
House of Representatives. Similarly, we both served in the 
Senate and actually briefly served together in the 
Massachusetts Legislature. I have had the unique opportunity to 
witness Mr. Bulger's distinguished career of public service, 
one that in my opinion has met the highest professional 
standards of excellence.
    At the same time, growing up in the housing projects of 
south Boston, I also had an opportunity, ample opportunity, to 
see families that were greatly harmed by the influence of 
organized crime and indirectly by the effects of the misdeeds 
by the FBI agents who protected those criminals.
    In the end we have an overriding responsibility and a 
sacred task to protect those families and answer to those 
families as well. It may very well be in the end that this 
hearing is only marginally productive. Indeed some of the areas 
of inquiry that we will hear about today occurred some 35 or 40 
years ago. However, it is the abiding principle of justice that 
now compels this committee to exercise due diligence and 
requires us to ask for every assistance in exploring to the 
fullest extent the FBI wrongdoing that is the core focus of 
these hearings.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you.
    The gentleman from Connecticut, Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman.
    Not a long statement but just to say that I am truly 
stunned that the president of a major university system would 
feel it necessary to exercise his fifth amendment rights and 
say he is only going to tell the truth if he is able to come 
before us with immunity.
    Also, to thank Chairman Burton for his extraordinary work 
previous to your very fine work, Mr. Chairman, and to thank you 
for following up. To thank Mr. Waxman and the Democratic 
colleagues for our work on this committee on a very bipartisan 
basis and to welcome our colleagues from Massachusetts who are 
not on this committee.
    To say to you that I have still not gotten over how Mr. 
Salvati and his beautiful wife and family had to deal with this 
issue and the failure of our Government to right this wrong and 
to say in conclusion that I am going to defer questions of Mr. 
Bulger to others and listen to what he says to them under oath 
and with immunity but I believe without any hesitation to say 
to you that this is a story about corrupt law enforcement on 
the Federal, State and local level but particularly the FBI. It 
is a story of political corruption, deep and serious and it is 
a story of organized crime and they are all mixed together in 
this incredible cocktail that resulted in the Salvatis spending 
30 years of their lives without each other.
    I am grateful you had this hearing, Mr. Chairman, and thank 
you for the opportunity to make that statement.
    Chairman Tom Davis. Thank you very much.
    Again, members will have 5 legislative days to get their 
remarks in the record but Members who feel compelled to speak 
will be allowed to speak.
    Mr. Clay.
    Mr. Clay. A very short statement. I welcome the 
continuation of this hearing from the 107th Congress. I would 
also like to applaud the committee for its in-depth work in 
helping to uncover important facts concerning the FBI's tactics 
and its previous use of informants in the Boston area.
    The use of informants by law enforcement is as old as law 
enforcement itself. Today's hearing hopefully will play a part 
in the restoration of public confidence in law enforcement 
matters. We know a few facts surrounding the investigation of 
Whitey Bulger and one of them is that John Connolly, Whitey 
Bulger and today's witness, William Bulger, lived close to each 
other as children in south Boston. On April 9, 2003, this 
committee voted to grant today's witness, William Bulger, 
immunity to obtain information concerning the whereabouts of 
his brother, Whitey.
    Mr. Chairman, this is some of what we know so far. However, 
after we have had an opportunity to formally question today's 
witness, I am certain this committee will learn much more and 
move closer to uncovering the rest of the truth about Whitey 
Bulger.
    Finally, I would encourage this committee to remember that 
William Bulger is not on trial and should not be treated as 
such. He is only guilty of being the brother of a man that does 
not have the same respect for the law as he does. Hopefully, he 
will share with us what he knows about his brother's former 
associates' illegal activities and whereabouts.
    I ask unanimous consent to submit my entire statement in 
its entirety in the record.
    Chairman Tom Davis. Without objection, so ordered.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]
    [GRAPHIC] [TIFF OMITTED] T9004.026
    
    [GRAPHIC] [TIFF OMITTED] T9004.027
    
    Chairman Tom Davis. Do any other members of the committee 
wish to be recognized? If not, let me get to Mr. Delahunt and 
then to Mr. Meehan. I know this is of great concern to both of 
you.
    Mr. Delahunt. Thank you for the invitation.
    As others have indicated, the committee has focused now for 
many months on the operation of the Boston office of the FBI. 
As others have indicated, there have been a number of 
profoundly disturbing revelations as to the misconduct and 
questionable practices that span decades in that particular 
office.
    It has been established clearly that information in the 
possession of the FBI could have exonerated innocent men who 
did serve more than 30 years each for crimes that the FBI knew 
they did not commit. Yet, the Bureau never felt the need to 
come forward with that information.
    As important, information was withheld from State and local 
law enforcement as well as other Federal agencies that put 
individuals and communities at risk from some of the most 
violent criminals in this country's history. Some murders might 
not have occurred if the Bureau had fulfilled its 
responsibilities to be more forthcoming.
    It is important to remember that Joe Barboza was relocated 
to California and there was testimony taken by this committee 
from State and local authorities that established that they had 
never received any notification of Mr. Barboza's presence in 
their community. While there, Mr. Barboza committed a murder 
and then while serving time for that particular homicide, 
Federal authorities intervened in his behalf before the parole 
board. I think we can all agree that is unacceptable and 
unconscionable.
    That is why the work of this committee over the course of 
10 public hearings now has been so essential. I really want to 
commend the former Chair, Mr. Burton. He has been accused in 
the past of being a partisan but it was Dan Burton that took on 
his own administration, that threatened the Attorney General of 
the United States with contempt unless the documents that this 
particular committee was seeking were provided to the 
committee. I know he can speak for himself but again, I don't 
believe we have received the kind of cooperation from the 
Department of Justice that this committee should have and the 
American people deserve.
    My concern isn't limited to the conduct of the FBI simply 
in Boston. It goes beyond that. As Senator Grassley of Iowa has 
said a culture of concealment that has eroded the confidence of 
the American people in the FBI and in the Department of Justice 
reflects what the FBI is about. Unfortunately at the moment in 
history when the American people yearn for confidence in their 
justice department given the events of September 11, it does go 
far beyond just the office in Boston.
    All we have to do is remember that back in the 1960's, 
information that would have assisted in the prosecution of 
those responsible for the church bombings in Alabama was not 
disclosed. Questions surrounding the work done in the FBI 
laboratory, the so-called Jewel matter where individuals 
identified as responsible for the bombing during the course of 
the Atlanta Olympics and the case was never moved forward and 
to the recent prosecution of Win Ho Lee where a Federal 
District Court judge apologized to Mr. Lee on behalf of the 
American people because of the work of the FBI. So this is not 
just about the Boston office of the FBI.
    In the four terms that I have been here, the most 
astounding testimony I have heard from any witness was 
presented last December in Boston during the course of a field 
hearing and in response to a question from my friend and 
colleague to my left, Mr. Meehan, Jeremiah O'Sullivan, former 
U.S. Attorney, former head of the Organized Crime Strike Force, 
who knows the FBI well, made this statement, ``If you go 
against the FBI, they will try to get you. They will wage war 
on you.'' Please reflect on that statement, my colleagues. This 
is a culture that requires radical surgery. It can't stand and 
what is necessary, as others have suggested, is transparency 
where appropriate and accountability.
    With that, I yield and I thank the Chair for the 
invitation.
    Chairman Tom Davis. Mr. Meehan.
    Mr. Meehan. Thank you, Mr. Chairman.
    I too want to thank the Chair and the former Chair for 
their work in this matter. Congressman Delahunt and I way back 
as early as 1998 had requested that the House Judiciary 
Committee conduct hearings given our jurisdiction over the 
Justice Department. Frankly, it took courage and perseverance 
to hold these hearings. No one likes to have a hearing on the 
FBI, knowing the FBI is not going to be too happy about the 
outcome of it but I am going to tell you something. The results 
of this hearing and the misconduct at the Boston FBI office is 
just absolutely incredible.
    I know as a former prosecutor from personal experience that 
informants make a significant and indeed an essential 
contribution to Federal, State and local law enforcement 
efforts. Informants have been extremely useful in organized 
crime cases in that it is a way to infiltrate, a way you get 
rats within the organization to provide information.
    That having been said, the events in Boston certainly 
demand that this Congress needs greater scrutiny. The Attorney 
General of the United States testified before the Judiciary 
Committee 10 days or so ago looking for broader powers under 
the Patriot II Act, more secrecy under the guise that we have 
to protect the United States from terrorism.
    We had better not give anymore authority to the FBI or any 
law enforcement agency until we clear up the culture that is so 
evident in the case before us. Whitey Bulger was a government 
informant and is alleged to have committed eight murders while 
a government informant, and there is evidence to suggest that 
the FBI either knew about it or looked the other way. If 
anybody needs more evidence of why we need to make sure we keep 
a focus on the FBI, just look at this morning's Boston Herald 
where apparently there are two individual employees of a hotel 
in the Caribbean who say they have seen Whitey Bulger. No one 
in St. Vincent has been interviewed by the FBI, none of the 
witnesses have been interviewed by the FBI. I have no idea why 
they haven't but it makes me wonder how aggressive this pursuit 
is in the case.
    I don't know if the witness before us has any information 
or can shed any light on this but I just want to thank the 
chairman and the former chairman because the work we are doing 
in terms of oversight of the FBI is important. Remember, J. 
Edgar Hoover was bugging Martin Luther King, not because he 
thought he may have committed a crime but he wanted to 
embarrass him. There is all kinds of evidence to demonstrate 
that this Congress has a responsibility to make sure this never 
happens again.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. I thank the gentleman.
    If there are no further statements, I would remind Members 
they will have until the end of the day to submit any 
statements for the record.
    Mr. Bulger, it is the policy of the committee that all 
witnesses be sworn before they testify.
    [Witness sworn.]
    Chairman Tom Davis. I would note for the record that Mr. 
Bulger is appearing before the committee pursuant to a subpoena 
issued by this committee and duly served by agreement by 
facsimile on Mr. Bulger's lawyer on Tuesday. A copy of that 
subpoena will be placed in the record.
    Mr. Kiley, would you please introduce yourself?
    Mr. Kiley. I am Thomas Kiley.
    Chairman Tom Davis. Thank you for being with us.
    In order to allow more time for questions and discussions, 
Mr. Bulger, we are going to give you an opportunity to make 
your opening statement. We won't hold you to any time limit. I 
think this is an important statement for you and for the 
committee.
    Thank you for being here.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T9004.013
    
    [GRAPHIC] [TIFF OMITTED] T9004.014
    
    [GRAPHIC] [TIFF OMITTED] T9004.015
    
     STATEMENT OF WILLIAM BULGER, PRESIDENT, UNIVERSITY OF 
                         MASSACHUSETTS

    Mr. Bulger. Thank you, Mr. Chairman. I appreciate the 
courtesies that you, the members of this committee and the 
committee staff have extended to me. I know this committee 
seeks to ensure that our law enforcement and criminal justice 
system functions in an effective and appropriate manner and I 
certainly applaud this effort.
    One of the most basic duties government faces is to provide 
for the public safety. Government's efforts must be unwavering. 
Public confidence when it is shaken must be restored. People 
must feel secure about their lives and people must be able to 
trust their government.
    I understand that you have a specific interest in the 
activities of Federal law enforcement officials in 
Massachusetts and I will be happy to assist in any way. I know 
you have questions about my brother, James Bulger, and I will 
answer those questions. With the chairman's indulgence, I would 
like to offer a few words about my brother. Many words have 
been written about him but few have been spoken by me.
    There are reasons why I have maintained a reticence on what 
for me is a difficult and painful subject. I realize my 
reluctance to comment has been vexing for some and I also 
believe it is responsible for some significant 
misunderstandings and misperceptions. So please allow me to 
speak plainly. I do not know where my brother is. I do not know 
where he has been over the past 8 years. I have not aided James 
Bulger in any way while he has been a fugitive. Do I possess 
information that could lead to my brother's arrest? The honest 
answer is no.
    I had one very brief telephone conversation with my 
brother. It occurred in 1995 and has long since been disclosed 
to law enforcement officials. Truth to tell, over the years I 
was unable to penetrate the secretive life of my older brother. 
He marched to his own drummer and traveled a path very 
different from mine. Jim had his own ways I could not possibly 
influence. The realities of the situation were such that his 
activities were in fact shrouded in secrecy. They were never 
shared with me. It would be unfair to impute to me knowledge of 
my brother's associations, knowledge that I did not have, do 
not have.
    Much has been made of that brief telephone call that I have 
mentioned, a call that has become a topic of discussion because 
my grand jury testimony was released to a Boston newspaper in 
violation of Federal law. Many people, including elected public 
officials, have offered opinions about what was said and what 
was not said but few if any have spoken about the illegal 
leaking that underlies the discussion. Very few have questioned 
a system that allows a transcript of my grand jury testimony to 
be released to the Boston Globe but not to me.
    This call occurred in 1995, 6 years before my grand jury 
appearance. The subject of my brother turning himself in never 
came up in that conversation. I never recommended that my 
brother remain at large. In 1995 and in subsequent years, I 
believed the FBI wanted James Bulger killed. It has been 
established that an FBI agent, John Morris, in 1988 met with 
Boston Globe Spotlight Team editor Gerard O'Neill and told him 
that my brother was an informant, information that was 
summarily published in the Boston Globe. Morris' leak had one 
purpose, pure and simple, bringing about the death of James 
Bulger. This is not just my hunch. This is the finding of U.S. 
District Court Judge Mark Wolfe after extensive hearings.
    I know my brother stands accused of many things, serious 
crimes, brutal crimes. I do still live in the hope that the 
worst of the charges against him will prove groundless. It is 
my hope. I am particularly sorry to think that he may have been 
guilty of some of the horrible things of which he is accused. 
He has heard me speak often enough of society's right to 
protect itself and to impose severe penalties on anyone guilty 
of such deeds.
    I am mindful of the victims in this matter and I do not 
have the words that are adequate to let them know of my own 
sympathy and anguish but I am ever mindful of the Good Shepherd 
story and its lesson that no one is to be abandoned. I care 
deeply for my brother but no one should construe my expression 
of concern as in any way condoning any illegal acts. Nor should 
anyone ever think that I take lightly this entire matter.
    One political foe has made the claim that I have somehow 
made a choice of my brother over my civic duties and my public 
responsibilities. There is no basis in fact for such an 
assertion. I had in fact been concerned about the direction of 
my brother's life for many years. In truth, my efforts with Jim 
span the decades. My attempts to change my brother's life were 
unsuccessful. I wish that I could have achieved success but I 
must tell you that reforming Jim Bulger was not my sole, 24-
hour a day focus during the 30 year period spanning his release 
from prison during the 1960's through his departure in 1995. 
During that entire period, I served in the Massachusetts 
Legislature, I was honored to serve in the Massachusetts House 
of Representatives for 10 years, and subsequently in the Senate 
for 25 years, elected by my Senate colleagues for nine terms as 
president of the Senate.
    Legislative duties as the members of this committee can 
fully appreciate exact heavy demands. I met those demands. I 
made contributions during 35 years of legislative service, 
authoring the first bill to require the reporting of child 
abuse, championing the cause of public education, public 
libraries, and advocating the health and safety of my urban 
constituents. I kept faith with my constituents and with my 
colleagues.
    My wife and I were blessed with nine children and early on 
I recognized this was a place where my energies must be 
focused. It was a responsibility I embraced. Our efforts have 
had a happy result. Those nine children have successfully 
completed and graduated from college and six of them also 
completed graduate studies in the law and business and 
education. Our children are the parents of 24 grandchildren, 
some of whom are in my house on a daily basis.
    While I never abandoned hope or abandoned my efforts with 
respect to my brother, the truth is that other important things 
were happening in my life. I never wrote off my brother, or 
walled him off, but public service and my own immediate family 
placed very large claims on me. It is natural to focus our 
efforts on those matters that we can affect and while I worried 
about my brother, I now recognize that I didn't fully grasp the 
dimensions of his life. Few people probably did. By definition, 
his was a secretive life. His actions were covert, hidden even 
from or perhaps especially from those who loved and cared about 
him.
    The subject that interests so many, the life and activities 
of my brother, James, is painful and difficult for me but it is 
a subject I have lived with for a long time. For years, my 
political opponents, my detractors in the press and my 
adversaries in public debate have tried to use my brother in a 
cynical and calculated way in order to gain advantage. I first 
sought political office in the year 1960. Be assured the 
subject of my brother was contentious from the start. On the 
occasion of my first speech, a political foe told me that I 
``should be in jail'' with my brother and it has been a refrain 
for 40 years. Among the constituents in my legislative district 
and in the Massachusetts Senate there was always an awareness 
of my brother. It was never a secret but people understood that 
we were different people who lived different lives and should 
be judged separately.
    When I was elected president of the educational institution 
I am privileged to lead, the University of Massachusetts, the 
members of the board of trustees knew of this circumstance in 
my life, yet they judged me on my own merits and they have my 
lasting gratitude. Now I am in a much larger arena where the 
audience is so vast that I cannot rely on its members having 
personal impressions of me as a basis for their judgments. I 
know that in some quarters I will no longer be seen or judged 
as an individual. I doubt that happier times will ever return 
for me but there is reason to believe that a fairer perspective 
will surface again for those other family members who have 
shown great strength in the face of the onslaught by the media 
and by overzealous government authority.
    Thank you.
    [The prepared statement of Mr. Bulger follows:]
    [GRAPHIC] [TIFF OMITTED] T9004.016
    
    [GRAPHIC] [TIFF OMITTED] T9004.017
    
    [GRAPHIC] [TIFF OMITTED] T9004.018
    
    [GRAPHIC] [TIFF OMITTED] T9004.019
    
    Chairman Tom Davis. Thank you, Mr. Bulger.
    With concurrence of the ranking minority member and 
pursuant to committee Rule 14, I will recognize the ranking 
minority and myself to control 30 minutes each. After this 
time, the committee will proceed under the 5-minute rule. I 
recognize myself for 30 minutes.
    Mr. Bulger, your brother is accused of more than 20 
murders. He led a life of crime for 30 years without being 
caught. One murder may have occurred at the house next door to 
yours. FBI agents apparently sat down for dinner there with 
mobsters, including one dinner at which you allegedly appeared. 
When Stevie ``the Rifleman'' Flemmi was arrested and a shed 
next door was searched, a large stash of weapons was 
discovered.
    You became Senate president following the Federal 
prosecution of other Senate leaders. Former FBI agent John 
Morris, one of Whitey's handlers, had admitted that he took 
money from Whitey during the 75 State Street investigation. A 
former Assistant U.S. Attorney has testified that John 
Connolly, now serving 10 years in jail for protecting Whitey 
tried to terminate that investigation prematurely.
    My question is, did there come a time when you came to 
believe that the FBI had protected your brother and that John 
Connolly may have used his authority to protect you or advance 
your political career?
    Mr. Bulger. My counsel informs me that I am supposed to 
make a statement at this time, Mr. Chairman. I understand from 
your staff that your procedures require me to reassert my 
privilege under the fifth amendment in order to effectuate the 
order of Chief Judge Hogan and I do so at this time.
    Chairman Tom Davis. Because you have refused to answer, 
under your statement, we have to communicate to you an order 
issued by the court for the District of Columbia. The order 
provides in substance, you may not refuse to provide evidence 
to this committee on the basis of your privilege against self 
incrimination. It provides that evidence obtained from you 
under the order may not be used against you in any criminal 
proceeding. A copy of the order is at the witness table and 
without objection, will be placed in the record.
    Pursuant to the order, now you are directed to answer the 
questions put to you. We have previously scripted this. Mr. 
Bulger, the immunity procedure is complete.
    I will repeat my question. Did there come a time when you 
came to believe that the FBI had protected your brother and 
that John Connolly may have used his authority to protect you 
or to advance your political career?
    Mr. Bulger. There are a couple of questions, Mr. Chairman. 
On the question of whether I came to a conclusion that there 
was in fact a relationship between the FBI and my brother. That 
is so. I already alluded to the time that first came to my 
attention. It was when Mr. Morris told the newspaper and the 
newspaper printed it. That was later construed by Judge Wolfe 
as an attempt by Mr. Morris to have my brother killed.
    On the second question of John Connolly seeking to help me, 
I don't know of it, especially the instance that you referenced 
but John was a friend of mine and I assure you I never asked 
him to interfere in any such procedures. Never.
    Chairman Tom Davis. Were you aware at the time that he may 
have done that even though you didn't ask him?
    Mr. Bulger. No.
    Chairman Tom Davis. You became president of the 
Massachusetts State Senate following the prosecution of former 
Senate majority leader, Joseph DiCarlo on Federal corruption 
charges. Did you have any knowledge of the DiCarlo 
investigation before it became public?
    Mr. Bulger. No. I knew there was an investigation going on 
because it was in the press and in the general rumor mill.
    Chairman Tom Davis. Did you ever discuss the DiCarlo 
investigation with John Connolly?
    Mr. Bulger. I don't believe I ever did. I have no 
recollection of ever speaking to John Connolly about that 
matter.
    Chairman Tom Davis. But he was your friend at the time that 
was going on?
    Mr. Bulger. He was.
    Chairman Tom Davis. In 1985, you received $240,000 from a 
trust fund established by Tom Finnerty, your law associate. The 
money came out of the same account into which Tom Finnerty had 
deposited $500,000 he received from Harold Brown, a Boston real 
estate developer. Brown alleged that Finnerty extorted the 
$500,000 as part of the real estate venture for 75 State 
Street. As you are aware, we are here today to uncover as much 
information as possible about FBI misconduct in Boston and the 
effect it may have had on State politics. You were cleared by 
both the Federal and Massachusetts State Government of any 
wrongdoing concerning 75 State Street. If you did not 
participate in extorting money from Harold Brown, there is 
still the underlying question of how the FBI agents who were 
your brothers handlers influenced the 75 State Street matter.
    Boston FBI Special Agent John Morris was the supervisor of 
the Public Corruption Crimes Unit during the time of the 75 
State Street investigation. Morris formerly served as the 
supervisor of the Boston Organized Crime Squad. Morris 
testified under oath of taking gifts and money from your 
brother, Whitey, including $5,000 in 1985. What did you know of 
that relationship between your brother, Whitey, and Special 
Agent Morris?
    Mr. Bulger. I knew nothing of that relationship.
    Chairman Tom Davis. Did you know Special Agent Morris?
    Mr. Bulger. I don't think I ever met him but I have seen 
someplace that he claims I met him but I do not recall such a 
meeting. May I make one further reference?
    Chairman Tom Davis. Certainly.
    Mr. Bulger. John Morris was disciplined back in 1988 or 
1989 because I had volunteered to speak to the U.S. Attorney 
about this whole matter of that investigation. I was anxious to 
tell them my side of the story. My attorney at the time asked 
the U.S. Attorney people to please treat this with great 
confidentiality because I am a public figure and it would be 
harmful to me. It was the U.S. Attorney's Office, a couple of 
counsel from that office, and also an FBI agent was seated at 
the table as I told my story.
    The next morning my phone rang and it was the Boston Globe 
and they wanted to know how the interview had gone. My attorney 
was indignant about that and so he called for some kind of an 
investigation of this episode at the FBI. The FBI did exactly 
that and the conclusion was that John Morris had called the 
Globe about my interview and John Morris was then disciplined 
for this behavior. I have written about that myself in some 
little political writings about the idea that I had gone 
through all this with these people and the only one who seems 
to be in trouble as a result of it is an FBI agent and he was 
suspended for several weeks for his behavior.
    Unless I met him at some point, which could be true, that 
is my experience with John Morris.
    Chairman Tom Davis. Did you ever discuss the 75 State 
Street investigation with Whitey?
    Mr. Bulger. I don't think so.
    Chairman Tom Davis. What about with John Connolly? A former 
Assistant U.S. Attorney testified at John Connolly's trial that 
Connolly sought to prematurely terminate that investigation of 
75 State Street. Did you ever discuss that with him?
    Mr. Bulger. I don't think I ever spoke on that subject to 
John. I was very confident about my position with respect to 
that. I didn't feel as though there was anything for me to 
answer for and I hoped for it to end. It went through three I 
think Federal investigations and two State investigations, all 
of which concluded by saying there was no accuser for me, No. 
1, and this was not a close call. That was the State Attorney 
General also. I have an affidavit which my attorney has 
provided for the staff.
    Chairman Tom Davis. Without objection, we will enter that 
into the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T9004.028
    
    [GRAPHIC] [TIFF OMITTED] T9004.029
    
    Mr. Kiley. It will be the Brown affidavit.
    Chairman Tom Davis. Without objection that will be put in 
the record.
    Let me ask another question. In September 1987, your 
brother, Whitey, was stopped by Logan Airport personnel for 
attempting to carry $500,000 onto an airplane. State Police 
Trooper Billy Johnson detained and questioned Whitey at the 
airport with regard to that incident. Billy Johnson later wrote 
an incident report. Johnson claimed that soon after the 
incident, David Davis, the executive director of the 
Massachusetts Port Authority came to Johnson's office and 
requested a copy of his report. Johnson stated Dave Davis told 
him that you had asked Davis to obtain a copy of the incident 
report. Johnson was demoted after this incident and he later 
committed suicide.
    Mr. Bulger, when did you first learn of the incident 
between Whitey and Billy Johnson at Logan Airport?
    Mr. Bulger. I think the first I ever saw of it was when it 
was reported in the newspaper. I wish to assure you, Mr. 
Chairman, although you haven't asked, that I have never made 
any call, I never sought to seek sanctions against that State 
trooper who was doing his job. I have another affidavit which 
my counsel has provided for your committee and that affidavit 
is a recent one from David W. Davis, himself. He was and is a 
very respected individual in Massachusetts and he was head of 
the Massachusetts Port Authority and he maintains exactly what 
I am saying, that there was no such communication from me. It 
has been reported 100 times that there was but there is no 
truth to it, none.
    Chairman Tom Davis. Mr. Davis' affidavit only says that no 
one interceded with him for Bulger and no one else at Mass Port 
told him that Bulger had contacted them. We didn't ask all the 
staff at Mass Port and does Mr. Davis know whether Mr. Bulger 
ever received an incident report from another source within 
Mass Port? We will verify that.
    Mr. Bulger. Excuse me, sir?
    Chairman Tom Davis. I said we will go back and try to 
verify the affidavit we have just been presented today. Yes?
    Mr. Kiley. Will that affidavit be placed on the record, 
please?
    Chairman Tom Davis. Without objection, it will be put in 
the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T9004.020
    
    Chairman Tom Davis. Did you have a professional 
relationship with David Davis?
    Mr. Bulger. Only that I was president of the Senate and he 
would be in touch from the Port Authority, almost the same 
relationship I had with most agencies in the Commonwealth.
    Chairman Tom Davis. Was it a close personal relationship?
    Mr. Bulger. No, we were not close.
    Chairman Tom Davis. Not a social relationship?
    Mr. Bulger. No, not at all.
    Chairman Tom Davis. Did you tell David Davis to acquire 
Billy Johnson's incident report?
    Mr. Bulger. Never.
    Chairman Tom Davis. Did you tell anyone else who worked for 
Mass Port to acquire Billy Johnson's incident report regarding 
Whitey?
    Mr. Bulger. No.
    Chairman Tom Davis. Finally, my last question before I 
yield to Mr. Burton, and we have a vote going so we may end up 
at this point, Mr. Burton, after this line and then turn it 
over to you when we get back.
    The Lancaster Street investigation was conducted by the 
Massachusetts State Police and targeted the leaders of the 
Boston mob which would have included your brother, Whitey. 
After the investigation was closed, an amendment was added to 
the State budget for fiscal year 1982 which would have required 
officers aged 50 or older to take a reduction in pay and rank 
or retire. The amendment only affected five officers, two of 
which, John O'Donovan and John Regan, were involved in 
investigating Whitey. Were you aware of the Lancaster Street 
investigation before it was revealed to the public?
    Mr. Bulger. No, I was not.
    Chairman Tom Davis. Did you ever discuss the Lancaster 
Street investigation with John Connolly?
    Mr. Bulger. I don't think so. In fact, I just recently 
started to ask where the Lancaster Street site is. I don't know 
for certain where it is.
    Chairman Tom Davis. Did you ever discuss the Lancaster 
Street investigation with your brother, Whitey?
    Mr. Bulger. Never.
    Chairman Tom Davis. Did you know John O'Donovan?
    Mr. Bulger. Pardon me?
    Chairman Tom Davis. Did you know John O'Donovan, one of the 
officers?
    Mr. Bulger. Oh, yes.
    Chairman Tom Davis. Did you know John Regan?
    Mr. Bulger. I don't think I knew John Regan.
    Chairman Tom Davis. Did you sponsor the amendment in 
question?
    Mr. Bulger. No, I can tell you I have no memory of the 
amendment, none whatsoever.
    Chairman Tom Davis. You don't remember discussing the 
amendment with anyone?
    Mr. Bulger. Never.
    Chairman Tom Davis. Never before? How about after the fact 
because there was press on it later on?
    Mr. Bulger. I don't recall. The press came much later from 
what I understand. I have two affidavits from State police.
    Chairman Tom Davis. Would you like those entered into the 
record?
    Mr. Bulger. If I may.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T9004.021
    
    [GRAPHIC] [TIFF OMITTED] T9004.022
    
    Mr. Kiley. Those are the affidavits of Messrs. Agnes and 
Nally, two of the other affected officers.
    Chairman Tom Davis. Those will be entered in the record 
without objection.
    Mr. Bulger. They offer a different take on the amendment.
    Chairman Tom Davis. Mr. Kiley, I wonder if you can take a 
second to tell us what the affidavits say that are going to be 
entered into the record.
    Mr. Kiley. Both affidavits state that the individuals were 
among the five affected officers. Both offer the observation 
that they do not believe that Mr. Bulger was the sponsor and 
offer the observation that they had nothing to do with 
Lancaster Street and there were other things going on in law 
enforcement in Massachusetts that may well have contributed to 
the filing of this particular amendment. That is a paraphrase, 
Mr. Chairman.
    Chairman Tom Davis. They wouldn't necessarily have known 
who put it in though, isn't that fair to say?
    Mr. Kiley. Yes.
    Chairman Tom Davis. Do you remember if you voted for the 
amendment, Mr. Bulger?
    Mr. Bulger. I don't.
    Chairman Tom Davis. Were you aware of the specific 
individuals that would be affected by the amendment? You are 
now obviously.
    Mr. Bulger. Oh, no. It was, I think, one of hundreds of 
amendments at budget time and I never knew of it until long 
afterwards.
    Chairman Tom Davis. I think this would be a good time for 
the committee to break. We have 10 minutes left on a vote on 
the floor. We will probably reconvene in about 15 minutes.
    Mr. Burton. Mr. Chairman, before we leave, can I ask one 
real quick question?
    Chairman Tom Davis. The gentleman is recognized.
    Mr. Burton. You said you don't recall talking to Connolly 
or anybody about the Lancaster Street investigation. Is that 
what you said?
    Mr. Bulger. I don't believe I ever spoke to John Connolly 
about Lancaster Street.
    Mr. Burton. Did you talk to anybody about that 
investigation?
    Mr. Bulger. I don't think so.
    Mr. Burton. I know but the point is you are saying I don't 
think so and we have had a lot of people testify before the 
committee who had what I call convenient memory loss. What I 
want to know is can you categorically say you did not talk to 
anybody about that investigation? Can you categorically say you 
did not talk to anybody about that?
    Mr. Bulger. Mr. Congressman can I just ask when this 
Lancaster Street event occurred?
    Mr. Burton. 1982.
    Mr. Bulger. 1982. My preference is to say that I 
categorically cannot recall ever talking with anyone but I 
think it is hazardous over 20 years, something that seems to 
have appeared in the newspaper from time to time, to suggest 
that is absolutely so.
    Mr. Burton. The reason I asked the question is it is pretty 
significant because only five people were affected. They were 
people causing your brother some heartburn. You were the 
president of the Senate and now you are saying you can't 
remember. That would be pretty significant if you were trying 
to punish these people who were after your brother. You say you 
can't recall?
    Mr. Bulger. I have never sought to punish anyone who was in 
law enforcement and was in pursuit of my brother.
    Mr. Burton. But you can't categorically say that you didn't 
talk to anybody about that?
    Mr. Bulger. During these 20 years?
    Mr. Burton. No, during the time the amendment was going to 
be pending and it was going to be passed.
    Mr. Bulger. No, I don't believe so.
    Mr. Burton. You don't believe so. Categorically, can you 
say you didn't?
    Mr. Bulger. Again may I explain the reason for my caution 
with my answer? It is this. There was some kind of struggle 
between the uniformed police and, this I think is the basis for 
the amendment, and the people in this category of officers who 
had officer status. The uniformed people thought it was against 
their interests that people would be frozen into their jobs 
after having become the officers because then they could no 
longer aspire to those offices. I don't recall any 
conversations with any of the State police at that time, but it 
could very well be that someone or some of them may have talked 
to me and I thought the amendment had a different purpose. I 
don't remember it. I just don't remember it. It was of no great 
significance to me. I am confident people who are in the 
legislature, you must know that amendments and measures that 
are coming before you by the hundreds or dozens are things that 
the tendency is to forget.
    Mr. Burton. I know we have to go but this affected people 
that were after your brother and you don't remember these 
people being demoted?
    Mr. Bulger. The amendment? Never. I never asked anyone to 
do any such thing.
    Mr. Burton. I know you said that but you don't remember.
    Chairman Tom Davis. He said that categorically, right?
    Mr. Bulger. Never. No.
    Chairman Tom Davis. Mr. Burton, we will recognize you when 
we come back.
    Mr. Bulger, we will break for probably close to a half 
hour.
    [Recess.]
    Chairman Tom Davis. The meeting will come back to order.
    The gentleman from Massachusetts, Mr. Meehan, you have a 
followup question?
    Mr. Meehan. I just wanted to ask Mr. Bulger on the 
amendment, my understanding was it wasn't an amendment but 
rather was an outside section of the budget and was actually in 
the Senate Ways and Means proposal which presumably would mean 
it was approved by the leadership.
    Mr. Bulger. It could very well be the case.
    Mr. Meehan. My point is that if an outside section is 
proposed and included in the Senate Ways and Means budget, it 
is not like it was just some amendment, there were hundreds of 
amendments that are filed during the budget process. This was 
actually in the Senate Ways and Means budget proposal presented 
to the Senate. At least that was my understanding.
    Mr. Bulger. It could very well be the case.
    Mr. Meehan. Thanks, Mr. Chairman.
    Chairman Tom Davis. We can do subsequent research to see if 
there is any other.
    The gentleman from Indiana is recognized.
    Mr. Burton. Thank you.
    The bottom line is you just don't remember?
    Mr. Bulger. That is right.
    Mr. Burton. Five people that were after your brother were 
penalized financially when you were president of the Senate, 
you had nothing to do with it and you don't remember?
    Mr. Bulger. The premise is not true that such people were 
penalized.
    Mr. Burton. What did the amendment do?
    Mr. Bulger. The amendment only becomes effective when it is 
signed by the Governor.
    Mr. Burton. What did the amendment do?
    Mr. Bulger. I am uncertain of that.
    Mr. Burton. To say it wasn't penalizing them, you must know 
what it did.
    Mr. Bulger. But it never became law, Congressman.
    Mr. Burton. But you just said it didn't penalize them.
    Mr. Bulger. Because it never became law. There are 
proposals, we have about 5,000 proposals a year at the 
legislative level. They only achieve their purpose, whatever it 
might be, when they are passed into law.
    Mr. Burton. The thing that is very interesting is you said 
you didn't remember anything about it but now you are saying it 
didn't become law. How do you recall that?
    Mr. Bulger. I don't think it is inconsistent.
    Mr. Burton. Tell me why it is not inconsistent?
    Mr. Bulger. I am trying to tell you that if it doesn't 
become law, it doesn't achieve its purpose, whatever the 
purpose might be. Let us say we have an amendment or measure 
which would.
    Mr. Burton. You are thinking. I am a legislator too. You 
said you didn't recall the amendment, that you had thousands of 
amendments going on and you were the leader of the Senate, but 
you just said, it didn't become law. How do you know that if 
you don't remember?
    Mr. Bulger. Because subsequent to that, it has been written 
about.
    Mr. Burton. I see, you picked it up from the newspapers? 
Did you check to see if it became law when you read it in the 
newspapers?
    Mr. Bulger. I don't believe so. May I just acquaint you 
with what Mr. Agnes says of it and he is one of those people 
who was affected. If you will give me a chance, I would like to 
give you his affidavit.
    Mr. Burton. I am only concerned about the amendment.
    Mr. Bulger. And he is speaking to the amendment. Mr. Agnes 
is a retired Lieutenant Colonel in the Massachusetts State 
Police. He says, ``I am one of five former senior officers.''
    Mr. Burton. Mr. Bulger, I simply don't have the time for 
you to read that into the record. You can submit it for the 
record.
    Mr. Bulger. It would be enlightening, I think.
    Mr. Burton. I would rather your answers be as concise as 
possible.
    Chairman Tom Davis. The gentleman controls the time.
    Mr. Burton. You grew up with John Connolly, didn't you?
    Mr. Bulger. I did.
    Mr. Burton. And you and your brothers were buddies of John 
Connolly throughout your childhood and into adulthood?
    Mr. Bulger. I didn't know that. That is news.
    Mr. Burton. Were you or weren't you?
    Mr. Bulger. No. I know when I went into the Army when I was 
19 years of age, John Connolly was 12 years of age, so it is 
highly unlikely in the course of normal relationships.
    Mr. Burton. He was very close to Whitey, though? He was 
closer to Whitey?
    Mr. Bulger. I don't think so.
    Mr. Burton. How did he and Whitey get to know each other?
    Mr. Bulger. I think it all came years later.
    Mr. Burton. But they came from the same neighborhood?
    Mr. Bulger. Yes.
    Mr. Burton. Did Mr. Connolly assist you in any of your 
political endeavors?
    Mr. Bulger. I believe so.
    Mr. Burton. In what endeavors did he help you?
    Mr. Bulger. When I would be involved in campaigns in the 
district.
    Mr. Burton. Did he help you in your campaign to become 
president of the Senate?
    Mr. Bulger. No, that was within the body and he did not.
    Mr. Burton. One of your opponents was indicted, wasn't he, 
and convicted?
    Mr. Bulger. No.
    Mr. Burton. You didn't have a potential opponent?
    Mr. Bulger. The majority leader was indicted and that paved 
the way for upward mobility.
    Mr. Burton. That was one of your potential opponents. 
Wasn't he indicted about that time?
    Mr. Bulger. He is still, I hope, a friend of mine and he 
was indicted, yes.
    Mr. Burton. And that paved the way for you to become the 
president of the Senate?
    Mr. Bulger. It was still within the power of the president 
to decide who would be named majority leader, so it was nothing 
definite about my ascendancy into that position.
    Mr. Burton. Do you know of any threats made by your 
brother, Whitey, to people that were giving you political 
difficulty, creating difficulty for you?
    Mr. Bulger. I don't know. I don't know but nothing 
authorized by me, I assure you, Congressman.
    Mr. Burton. There are people who said that Whitey came up 
to them and said, hey, you know who I am, you SOB. If you don't 
leave my brother alone, you are going to regret it. You don't 
know anything about that?
    Mr. Bulger. I don't know much about it, no.
    Mr. Burton. Do you know who the people were who were 
threatened?
    Mr. Bulger. No.
    Mr. Burton. You had no connection?
    Mr. Bulger. I assure you, I would never ask for or 
authorize such a madcap kind of conduct on his part or on 
anyone's part.
    Mr. Burton. Other than the property we talked about a while 
ago, did you ever use any of your authority to chastise or 
threaten people that were after your brother?
    Mr. Bulger. No, never.
    Mr. Burton. Never did. Did you talk to your brother about 
rumors that he was an informant?
    Mr. Bulger. I don't recall such conversation, but I might 
have asked the question, what is this all about. I am 
speculating, but his answer would be very swiftly, oh, that is 
just not true.
    Mr. Burton. Did you talk to Connolly about whether or not 
your brother was a Government informant?
    Mr. Bulger. No. I don't believe so. I have to say I don't 
believe so because these things are 15 years ago.
    Mr. Burton. But that is pretty significant. You cannot 
categorically say you didn't talk to Connolly?
    Mr. Bulger. No, I cannot categorically say I did not talk 
to Connolly.
    Mr. Burton. So you might have talked to Connolly about it?
    Mr. Bulger. Of course.
    Mr. Burton. In retrospect given your power and prestige, 
did you ever discourage law enforcement from doing everything 
it could to go after your brother?
    Mr. Bulger. Never.
    Mr. Burton. Never. You referred to your brother as Reverend 
at a St. Patrick's Day function. Just as an aside, I would like 
to know why you did that?
    Mr. Bulger. I would like to know myself. I don't believe I 
ever did but I can assure you those things are on tapes all 
over the place and we could find out. I never, in my 
experience, used that expression to describe my brother.
    Mr. Burton. You had a long-time aide, Mr. Joyce. I believe 
he was working at the Convention Center?
    Mr. Bulger. Right.
    Mr. Burton. He hired people like Theresa Stanley who was 
one of the people that fled with your brother when she came 
back. Did you have anything to do with that?
    Mr. Bulger. No. I am reminded by counsel that it may turn 
out that he, Mr. Joyce, never did hire Theresa Stanley.
    Mr. Burton. He did not hire her?
    Mr. Bulger. That is what I believe.
    Mr. Burton. Then we have an error in the information we 
have. We will check that out but you say she was not hired by 
him?
    Mr. Bulger. Right.
    Mr. Burton. Was anybody else hired by him that had a 
connection with you and your brother?
    Mr. Bulger. I don't know. I am sure there were people in 
south Boston. My problem with the question, if I may, is that 
if I recommended someone, and it was rare that I did because 
when Joyce got the job, I said, please just do the very best 
job and you won't be imposed upon by me. If I recommended 
someone, Congressman, it might very well be that he or she is 
known by both of us but that is not because of it.
    Mr. Burton. Did you have anything to do with the efforts to 
get the Billy Johnson police report? I think you answered that 
to some degree earlier.
    Mr. Bulger. Did I what?
    Mr. Burton. Were you involved in the efforts to get the 
Billy Johnson police report?
    Mr. Bulger. No.
    Mr. Burton. What about the money at the airport?
    Mr. Bulger. Never. It comes from the tabloid, talk show 
stuff in Boston and it was concocted there and there is not 
even an accusation that I can fight on that. When Mr. David 
Davis who is the one named by them as having been asked by me, 
his affidavit says, ``At no time did William Bulger or any 
person purporting to act on his behalf intercede with me to 
effect our handling of the incident or how we dealt with 
information about it. I never provided copies of reports 
written by Trooper Johnson to Senate president Bulger. No one 
at Mass Port Authority ever indicated to me they were contacted 
in those matters by William Bulger.'' This is I think 
important.
    Mr. Burton. I think you have made the point. You don't need 
to read it.
    Mr. Bulger. There is a larger point to be made. May I 
respectfully, it is just one sentence?
    Mr. Burton. All right.
    Mr. Bulger. ``Whenever I have been asked about what I have 
described as the incident, which did occur, of William Bulger 
interceding in any way in connection with it or Trooper 
Johnson, which did not occur, I have attempted to make clear 
that the former Senate president did not, to my knowledge, 
involve himself in the matter in any way. Nevertheless, the 
insinuation that he did persists in some circles. The 
insinuation is false.''
    Mr. Burton. You indicated in your opening statement that 
you knew your brother was involved in some nefarious activities 
but you didn't know a great deal about it. Is that correct?
    Mr. Bulger. That is correct.
    Mr. Burton. Did you know he was involved in murder?
    Mr. Bulger. No, I do not. I did not.
    Mr. Burton. Did you know he was involved in narcotics 
trafficking?
    Mr. Bulger. No.
    Mr. Burton. You didn't know anything about that. Did you 
know anything about the Winter Hill Mob?
    Mr. Bulger. The what?
    Mr. Burton. The gang he was connected to?
    Mr. Bulger. No, I didn't. I don't think I met anybody from 
that.
    Mr. Burton. You didn't know Flemmi?
    Mr. Bulger. I did know Steve Flemmi, yes.
    Mr. Burton. He was part of that gang. You didn't know he 
was part of that gang?
    Mr. Bulger. No.
    Mr. Burton. Or his brother?
    Mr. Bulger. I didn't know his brother.
    Mr. Burton. Do you know a gentleman named Martorano?
    Mr. Bulger. No, I don't. I have read of him.
    Mr. Burton. Let me see what Mr. Martorano said here. Mr. 
Martorano, who was a hit man for the Mafia testified at 
Connolly's Federal racketeering trial that Connolly protected 
James at your urging. Did you ask Connolly to protect James 
saying something like, keep my brother out of trouble?
    Mr. Bulger. Whatever was done by Connolly would not have 
been done at my urging and there was no urging on my part along 
those lines. There was something about the quote itself which 
seemed to be kind of innocent, depending on the circumstances 
and if I ever said such a thing, it would mean I am saying 
please steer him clear of getting into trouble or keeping his 
nose clean or following the straight and narrow, the kind of 
thing we might be inclined to say.
    Mr. Burton. Did you ever ask any law enforcement officer, 
State, local, Federal, Mr. Connolly, anybody, to assist your 
brother in any way?
    Mr. Bulger. Never.
    Mr. Burton. None?
    Mr. Bulger. I don't believe ever in my life, never.
    Mr. Burton. I don't want you to say ``I don't believe.''
    Mr. Bulger. I have to say that because I have some mileage 
on me, so who knows but I don't believe there is anything 
anywhere that was done nefariously or any kind of request for 
anyone not to do his duty, ever.
    Mr. Burton. Did you ever express gratitude for law 
enforcement efforts to keep your brother out of jail?
    Mr. Bulger. No.
    Mr. Burton. Never did?
    Mr. Bulger. No, I don't believe so, ever. I have to say I 
don't believe so because who knows what you might have said in 
jest or whatever, and you know that, Mr. Congressman. I have 
never expressed gratitude to anyone on any serious note for 
their having failed to do their job, ever.
    Mr. Burton. You are a very good attorney and you qualify 
your statements very well.
    Chairman Tom Davis. The gentleman's time has expired. If he 
would ask for an additional 10 minutes.
    Mr. Burton. I believe my colleagues have some questions.
    Chairman Tom Davis. I think we would be willing to do that 
and then break.
    Mr. Waxman. Mr. Chairman.
    Chairman Tom Davis. Yes?
    Mr. Waxman. Our side has 30 minutes to inquire of this 
witness and many of us have conflicts. I have another committee 
hearing going on and I wondered if we could start off with 5 
minutes on our side.
    Chairman Tom Davis. That is fine.
    Mr. Burton. I think these colleagues of ours deserve the 
same amount of time so that is fine with me.
    Chairman Tom Davis. We will flip it to your side.
    Mr. Tierney. That is fine.
    Chairman Tom Davis. Mr. Waxman for 5 minutes.
    Mr. Waxman. Mr. Bulger, you have just stated unequivocally 
that you have never used your office, you have never intervened 
in any way to aid your brother in any of his activities or to 
aid him in avoiding arrest, is that your testimony?
    Mr. Bulger. That is my testimony, yes, sir.
    Mr. Waxman. Then it comes down really to a question about a 
conversation you had with your brother. I want to ask you about 
that last contact with your brother. You testified you spoke 
with him by telephone in January 1995?
    Mr. Bulger. Right.
    Mr. Waxman. Is that the only contact you have had with him?
    Mr. Bulger. That was the contact.
    Mr. Waxman. For how long a period of time? Since he fled?
    Mr. Bulger. Yes, since he fled.
    Mr. Waxman. What was the substance of your conversation?
    Mr. Bulger. It was a conversation of about 3 or 4 minutes 
duration. It was he calling me, like the first 4 or 5 weeks 
after his indictment, and I never thought there would not have 
been a resolution of it. So the tone of it was something like, 
he told me don't believe everything that is being said about 
me, it is not true. I think he was trying to give me some 
comfort on that level. I think he asked me to tell everybody he 
is OK and then I told him, we care very much for you and we are 
very hopeful. I think I said I hope this will have a happy 
ending. At that time, there was no talk of the more terrible 
crimes.
    Mr. Waxman. Did he ask you to do anything other than to 
tell people he was OK?
    Mr. Bulger. No.
    Mr. Waxman. Did you ask that he do anything?
    Mr. Bulger. No.
    Mr. Waxman. Did you provide him with any advice such as 
advice to surrender to the authorities?
    Mr. Bulger. No. I have said this before in my grand jury, 
``That subject never came up.''
    Mr. Waxman. It has been alleged that you and your brother 
made arrangements for the call to evade surveillance of your 
telephones by law enforcement authorities. Where were you when 
you received the telephone call from James Bulger?
    Mr. Bulger. I was in a friend and employee's home. I was 
asked the question before. Did I have a desire to avoid 
electronic surveillance in connection with that call? I 
answered ``no.'' I was asked where I would be and I received 
the call there.
    Mr. Waxman. Who asked you where you would be?
    Mr. Bulger. I don't have a specific recollection but the 
only person it possibly could have been would be his friend, 
Kevin Weeks.
    Mr. Waxman. You have been criticized for not contacting law 
enforcement officials about your call with your brother. Did 
you contact the authorities before or after receiving the call?
    Mr. Bulger. No. I told my lawyer immediately after it. In 
Massachusetts, we had the benefit of a statute which allows for 
a sibling to talk to a brother or sister under these 
circumstances and I think now that was somewhat protective.
    Mr. Waxman. There was a law.
    Mr. Bulger. Chapter 274, Section 4 is one that is 
protective of the family relationship. It seeks to encourage 
the family relationship and be protective of it.
    Mr. Waxman. Many people have written about your actions and 
they said you had a basic choice. You had to choose between 
loyalty to your brother and your civic duty to assist in his 
arrest, and you chose your brother. How do you respond to that 
criticism?
    Mr. Bulger. They are wrong on that. I am his brother, he 
called me or he sought to call me and I told his friend where I 
would be and I received the call. It seems to me that it is in 
no way inconsistent with my devotion to my own 
responsibilities, my public responsibilities as, at that time, 
president of the Senate. I believe I have always taken those as 
my first obligation.
    Chairman Tom Davis. The gentleman's 5 minutes has expired.
    Mr. Waxman. If I might ask for one clarification for the 
record. One of my colleagues made the statement that you 
requested immunity before testifying, implying that you were in 
essence fishing for an immunity deal. Was that the 
circumstance?
    Mr. Bulger. No, it was not. The immunity request came on a 
couple of bases. This is the immunity I sought recently in 
December. At that time, my grand jury notes minutes had been 
leaked to the Boston Globe. I felt as though I was going to be 
involved in a huge memory test about what had been my testimony 
a couple of years before at the grand jury. I would like to 
have seen my grand jury minutes but they were denied to me. The 
judge had no problem apparently with the fact that the Globe 
had my grand jury minutes but he nevertheless denied them to 
me. So it made me concerned about it.
    When you are going into a grand jury, others have written 
about this but innocent people are more likely to plead the 
privilege in secret proceedings. In a secret proceeding, you 
are all alone and the prosecutor knows and the prosecutors in 
this case, know what they are doing. It is a time I think for 
great caution.
    It is an exercise, to my belief, of a Constitutional right 
that is for the innocent, so I exercised it and I thought there 
should be no punishment for it and no one should question it as 
it being something bad. That is my understanding of it as an 
attorney. In fact, the cases in the Supreme Court of the United 
States insist that it is a law for innocent men who find 
themselves in ambiguous circumstances and it should not be a 
method of punishment or persecution for anyone who exercises 
that right.
    Mr. Waxman. Before you get into some of the details on the 
privilege, you took the privilege before this committee 
previously. This committee has granted you immunity which means 
we can compel you to testify because you will not be 
incriminating yourself since you have been granted immunity. 
Did that grant of immunity come at your request or the 
committee?
    Mr. Bulger. The grant of immunity?
    Mr. Waxman. Yes.
    Mr. Bulger. The committee did what I would have expected, 
it would grant the immunity once I declined to testify but I 
guess it is not at my request so much as at the request of the 
committee with concurrence of the Justice Department.
    Mr. Waxman. There was an offer by the committee. That 
clarifies it for the record because I think there was an 
impression that was not a fully thought out one. I appreciate 
your elaborating on it.
    Chairman Tom Davis. I appreciate the gentleman clarifying 
that it came from the committee. This was the committee's 
reaction to his pleading.
    Mr. Waxman. Mr. Chairman, I am compelled to go to another 
committee. Mr. Tierney is going to manage the time on our side 
and I appreciate the courtesy you and he have extended to me.
    Chairman Tom Davis. The gentleman from Massachusetts.
    Mr. Tierney. This is a difficult format for you, Mr. 
Bulger, as well as for the committee members. We have a limited 
time. I am going to do 5 minutes and then ask Mr. Lynch, 
followed by Mr. Meehan and Mr. Delahunt to do the same. Then we 
will collectively deal with whatever time we have left.
    Mr. Waxman. Would the gentleman yield? Weren't other 
Members expecting a break at this point?
    Mr. Tierney. They were.
    Chairman Tom Davis. I think at this point if we recognize 
people in 5 minute intervals we can move through a little 
quicker because we have a vote expected at 1 p.m.
    Mr. Waxman. I understood there was going to be a break and 
I had my opportunity now so others might have been expecting a 
break.
    Mr. Tierney. That is what changed things.
    Mr. Waxman. I would urge you to think through whether 
members have been relying on the expectation of a break and I 
interceded to change that. Whatever you two decide.
    Mr. Tierney. We will take some time and then we will assess 
that. Thank you.
    Mr. Bulger, at the close of your opening remarks, you made 
the statement that you think the fair perspective will surface 
again for those other family members who have shown great 
strength in the face of the onslaught by the media and by 
overzealous government authority. What were you referring to by 
the ``overzealous government authority?''
    Mr. Bulger. There has been a deep inquiry from various 
people. I am not sure, for example, I am not thinking even of 
the government in Boston when it released my grand jury minutes 
to the press and refused to give them to me.
    Mr. Tierney. You believe the government did that?
    Mr. Bulger. The government had control of it. I think it 
bears responsibility in some way for it.
    Mr. Tierney. That was it?
    Mr. Bulger. No, there are other things. As recently as a 
week ago, we received a visit at my home from two people who 
identified themselves as FBI people and they met my daughter 
and I asked her to give me a quick synopsis of it. May I read 
it to you?
    Mr. Tierney. I think at the end of our time we will do that 
but if you want to enter your written synopsis on the record, 
we can ask the chairman to do that with unanimous consent. I 
have some other questions I want to ask.
    Mr. Bulger. May I just quote one of the paragraphs?
    Mr. Tierney. Go ahead, we will extend some time.
    Mr. Bulger. One of the gentlemen said, ``Look, I am from 
Boston, we want to talk to your mother, she doesn't have to say 
a word, we just want her to listen to us. We want to explain 
things to her. Do you see what is going on in North Carolina 
with Rudolph? They are tearing that town apart. That is what 
will happen here but if we can get someone in the family, just 
one person, to say something that will help us arrest the 
fugitive, it will be over just like that. We will even help to 
rebuild your father's reputation.''
    Mr. Tierney. Do you have the names of those two 
individuals?
    Mr. Bulger. Yes.
    Mr. Tierney. Will you share those with the committee?
    Mr. Bulger. Sure. State them right now?
    Mr. Tierney. Fine.
    Mr. Bulger. One's name is James Stover and the other is J. 
Michael Doyle.
    Mr. Tierney. Thank you. We ask that document be submitted 
on the record by unanimous consent.
    Chairman Tom Davis. Without objection, so ordered and we 
will resume the time.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T9004.023
    
    [GRAPHIC] [TIFF OMITTED] T9004.024
    
    Mr. Tierney. Mr. Bulger, you know this committee is 
investigating the conduct of the FBI and I want to get into one 
particular agent at the moment, Mr. Connolly. Did you encourage 
Mr. Connolly to attend Boston College?
    Mr. Bulger. I may have. I honestly don't recall. I was a 
little older and Connolly would be around and I could very well 
have.
    Mr. Tierney. Did you write a letter of recommendation for 
him to attend graduate school?
    Mr. Bulger. I don't believe so. The Kennedy School of 
Government I am reminded is--I think I did send a letter over 
to the Kennedy School.
    Mr. Tierney. Do you know whether or not he had a 
relationship with your brother, James?
    Mr. Bulger. At some point, I became aware of it.
    Mr. Tierney. When was that?
    Mr. Bulger. I am uncertain there too but sometime in the 
1980's.
    Mr. Tierney. Mr. Connolly worked on some of your campaigns 
you testified earlier?
    Mr. Bulger. I believe he probably did.
    Mr. Tierney. Do you recall meeting with him or being in his 
company at your own office once you were elected?
    Mr. Bulger. Yes.
    Mr. Tierney. Is it a fact he used to bring in new FBI 
agents and bring them over to your office?
    Mr. Bulger. He would bring people through.
    Mr. Tierney. In that vein, did he ever introduce you to 
John Morris?
    Mr. Bulger. I don't recall any meeting with John Morris, 
but I am told he is among those who came through.
    Mr. Tierney. After Mr. Connolly left the FBI, did you in 
any way assist in his procurement of employment in the private 
sector?
    Mr. Bulger. No, I did not. I could also tell you that I 
have an affidavit from the hiring authority of Boston Edison.
    Mr. Tierney. Could we ask that be submitted on the record 
also?
    Chairman Tom Davis. Without objection.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T9004.025
    
    Mr. Tierney. Did you write any recommendations for him?
    Mr. Bulger. To go to the Edison Co.?
    Mr. Tierney. Yes?
    Mr. Bulger. No, no.
    Mr. Tierney. And allow your name to be used as a reference?
    Mr. Bulger. No. I think it is against the law by the way in 
Massachusetts for us to intervene on the matter as legislators 
on the matter of employment at a utility.
    Mr. Tierney. After Mr. Connolly left the FBI, it is a fact, 
isn't it, that he used to attend some of your political events?
    Mr. Bulger. More than likely, yes.
    Mr. Tierney. At those events, isn't it also that you used 
to ask him as a courtesy to you to take certain individuals 
around the room and introduce them to various people who were 
there.
    Mr. Bulger. No, I don't remember that.
    Mr. Tierney. Special Agent James Ring of the FBI, whom I 
believe you know.
    Mr. Bulger. I think I know who he is.
    Mr. Tierney. He testified that in 1983, you walked into the 
home of Steven Flemmi's mother while James Bulger, James 
Connolly, Mr. Ring and Steven Flemmi were there. Do you recall 
that event?
    Mr. Bulger. I do not.
    Mr. Tierney. Do you recall ever seeing Mr. Connolly and 
your brother, James, in the same company?
    Mr. Bulger. I don't believe I ever saw them together ever.
    Mr. Tierney. Do you ever remember Mr. Connolly telling you 
that he had conversations with your brother, James, or was in 
his company from time to time?
    Mr. Bulger. I don't think he told me. I don't think he ever 
told me.
    Mr. Tierney. On September 20, 1988, the Boston Globe 
article suggested that your brother, James, had a relationship 
with the law enforcement. Was that the first awareness you had 
of that circumstance?
    Mr. Bulger. In 1988?
    Mr. Tierney. Right.
    Mr. Bulger. That was the first time I heard that term. By 
the way, the word informant had a different meaning then than 
it has for me now. I didn't know it meant that someone had on 
one occasion informed. Now I see it as some kind of special 
status or whatever but it was not the way I saw the meaning at 
that time.
    Mr. Tierney. How did you see the meaning at that time?
    Mr. Bulger. I didn't know what to make of it but I was very 
certain that at that time, and again it was my feeling, that 
the purpose of characterizing my brother as an informant was to 
put him in grave danger.
    Mr. Tierney. Mr. Bulger, what is it you thought your 
brother did for a living in those years?
    Mr. Bulger. I knew he was, for the most part, I had the 
feeling he was in the business of gaming and whatever. It was 
vague to me. For a long while, he did have some jobs but 
ultimately it was clear that he wasn't doing what I would like 
him to do.
    Mr. Tierney. In your book, ``While the Music Lasts,'' in 
chapter nine you write, ``In the well publicized case against 
my brother, all of the evidence has been purchased, inducements 
more precious than money, release from prison, the waiver of 
criminal charges have been offered time and time again. Some of 
those who insisted they had nothing to offer at the beginning 
of their incarceration have had second thoughts and suddenly 
remembered things they could barter for advantages. Without 
such purchased testimony, there would be no accusations.'' Do 
you still believe that to be the case?
    Mr. Bulger. No, I have a different understanding of it now. 
I wrote that I think in 1995 and it was published in 1996. So 
much has gone on since then, I have a different understanding. 
I think at that time it was a fair description of what it 
appeared to me to be.
    Mr. Tierney. Let me go back to 1985. We have all heard 
allegations that you accepted $240,000 from a trust fund and 
apparently your law associate, Mr. Finnerty, had deposited some 
$500,000 into that trust fund and that is the fund from which 
you withdrew $240,000?
    Mr. Bulger. Right.
    Mr. Tierney. What was the nature of that withdrawal? What 
was the payment for?
    Mr. Bulger. First of all, why did I say I don't want the 
money from that source?
    Mr. Tierney. No. I guess starting at the beginning, why did 
you take the $240,000?
    Mr. Bulger. Because Finnerty and I were law associates and 
Finnerty's office, while I had left my partnership with him, 
was the base for my practicing law and there was a fee that 
exceeded $250,000 that was due me, was coming, and it was late 
and Finnerty was being accommodating to me by providing some 
money in advance.
    Mr. Tierney. When did you disassociate from that law firm 
in terms of practicing regularly?
    Mr. Bulger. I became president in 1978 and I realize I was 
a burden because of the conflicts, so some time in the 1980's, 
I am uncertain about when.
    Mr. Tierney. What was the nature of the case for which the 
fee was owed?
    Mr. Bulger. That I was working on? It was called the Quirk 
case and it was about property. The Quirk brothers, Bruce and 
Robert, were people who had a dispute with National 
Semiconductor about property. I went to court for them on many 
occasions and ultimately it boiled down to a settlement and the 
Quirks publicly praised the work that I had done for them. They 
were pleased by the settlement. I think Hale and Dorr might be 
the other side. They had said for the record that I had handled 
the case and had been the heavy on the case.
    Mr. Tierney. What was the total recovery in that case?
    Mr. Bulger. I don't recall but it could have been something 
like $350,000 or something like that.
    Mr. Tierney. That is what your client recovered?
    Mr. Bulger. No, that was our fee, $350,000 was my fee.
    Mr. Tierney. And you were owed $240,000 of that?
    Mr. Bulger. Pardon me?
    Mr. Tierney. And you were owed $240,000 of that total fee?
    Mr. Bulger. I was owed?
    Mr. Tierney. You withdrew $240,000 on the basis of the fee?
    Mr. Bulger. Oh, no, the $240,000, I would call that some 
kind of a loan or an advance and I gave it back to Tom.
    Mr. Tierney. Do you remember when you took the $240,000?
    Mr. Bulger. No. He put it into my account and it was, I 
don't know what year any longer. By the way, Congressman, it 
turns out because of the case, Finnerty had brought an action 
against Harold Brown. I never worried too much about the fact 
that Finnerty provided me money, because it was his money to 
give, so there was nothing sinister about it, I assure you.
    Mr. Tierney. We are giving you an opportunity to delay 
that.
    Mr. Bulger. Our friend, Harold Brown.
    Mr. Tierney. We are going to get to that and get all that 
on the record but what I would like to know is when you had 
that $240,000 deposited in your account, did you spend any of 
that money?
    Mr. Bulger. I think I took some and invested it, yes, a 
little bit.
    Mr. Tierney. At some point in time, did you become aware 
that Mr. Brown alleged that Mr. Finnerty had extorted $500,000 
from him?
    Mr. Bulger. No. No, not during that period. Finnerty 
brought suit and that was part of some of his defense but Brown 
exonerates Finnerty now.
    Mr. Tierney. At some time you put the $240,000 back or gave 
it back?
    Mr. Bulger. I gave it back because I knew that Brown was 
the source of it.
    Mr. Tierney. Why did that bother you so much you gave it 
back?
    Mr. Bulger. I didn't know Harold Brown but he was in some 
kind of trouble and I am elected and that gave opportunity to 
anyone who would like to misconstrue it to claim there was some 
nefarious relationship between him and me.
    Mr. Tierney. Did you ever talk to John Connolly about that 
situation?
    Mr. Bulger. I don't believe I ever did.
    Mr. Tierney. Did you ever talk to John Morris about that 
situation?
    Mr. Bulger. I don't even remember John Morris.
    Mr. Tierney. Did you ever discuss it with your brother, 
James, or any of his associates?
    Mr. Bulger. I don't think so.
    Mr. Tierney. Did you ever discuss it with anyone associated 
with law enforcement before the investigation started?
    Mr. Bulger. I don't think so.
    Mr. Tierney. Mr. Jeremiah O'Sullivan indicated he reviewed 
the case and thought it was a question of power brokering. Do 
you know what he would have been referring to in that?
    Mr. Bulger. Yes, I do. O'Sullivan also said that there was 
no one who accused me of anything. He said it was not a close 
call. He gave me a very good result, the same result I received 
from the Attorney General in Massachusetts, but when he said 
that, that was at a press conference and it was in response to 
a Globe reporter. The Globe reporter was one of those who had a 
kind of a vested interest in this case. They had brought it, 
they had discovered it, and they had worked it to death for 
several months. I believe that Jeremiah O'Sullivan, who I 
didn't know, strayed from his mandate. When asked the question, 
he really should have stayed with what he found, but he was 
giving an opinion that it may be a power brokering situation. I 
don't think it was, myself, but nevertheless it gave the Globe 
people who have always insisted, despite what he said, that 
Bulger had no involvement. The simple fact is this did not stop 
the media snowball. That is what Harold Brown complains about.
    Mr. Tierney. My time has expired, Mr. Bulger. Thank you for 
your responses.
    Mr. Lynch.
    Chairman Tom Davis. We will make sure everybody gets 
questions. We will use as much time as you use and then we will 
go back and forth after the time is up. You are set for 5 but 
if you need more, we will take it.
    Mr. Lynch. Thank you, Mr. Chairman.
    Let us pick up right there with Jeremiah O'Sullivan. In his 
testimony before this committee not long ago, he described the 
relationship or the dynamic in dealing with the FBI who through 
various agents have been charged with a lot of wrongdoing in 
this matter. At one point, he said words to the effect that you 
don't mess with the FBI, you just cooperate. They can make life 
miserable for you.
    Mr. Bulger. Right.
    Mr. Lynch. What I would like to do is look at the action of 
the FBI with respect to your office, the Senate presidency and 
probably go back to before you were Senate president to when 
you were in the Senate. There are a number of individuals I 
would like to ask you about and about your relationships with 
them. They are all special agents of the FBI and/or 
supervisors.
    I would like to ask you about Dennis Condon. He is a 
special agent of the FBI and he had some role early on with 
handling your brother, James, in his relationship with the FBI. 
What was his relationship with you, sir?
    Mr. Bulger. Dennis Condon became very friendly with me. I 
don't think I knew him before he retired from the FBI. I don't 
think I did.
    Mr. Lynch. When do you think you may have first become an 
acquaintance of Dennis Condon?
    Mr. Bulger. I think it was when he became head of the 
Public Safety. He was appointed by Governor Dukakis and I came 
to know him there because both of our duties were related.
    Mr. Lynch. Let me ask you then, Dennis Condon, working for 
the FBI, comes out of the FBI after handling matters with your 
brother as an informant and then becomes I think Secretary for 
Public Safety for the Commonwealth?
    Mr. Bulger. I think that is what it is. I am not certain of 
that.
    Mr. Delahunt. For the record, Mr. Lynch, he was the 
commissioner of the State Police.
    Mr. Lynch. All right, I stand corrected. He was the 
commissioner of public safety?
    Mr. Delahunt. State Police.
    Mr. Lynch. Do you recall at all then, did Dennis Condon 
ever come to you at that point when he was coming out of the 
FBI after handling your brother's relationship and then trying 
to get this position with the State Police as commissioner, did 
he ever come to you and use the fact of his relationship to try 
to get you to refer him for that position?
    Mr. Bulger. I never was aware that he had any relationship 
at all with my brother.
    Mr. Lynch. And he never approached you for help in getting 
appointed as commissioner?
    Mr. Bulger. I don't recall but he could very well have. We 
had many people who were friends in common. He came from 
Charlestown I think.
    Mr. Lynch. You were Senate president at this time, correct?
    Mr. Bulger. There were 12 years of Michael Dukakis' and I 
think in the first term in the 1970's, I was not the president 
of the Senate but I think Dennis came along later while I was 
president. Is that true? I don't know the answer.
    Mr. Lynch. But you feel certain it was during the Dukakis 
administration?
    Mr. Bulger. I am pretty sure.
    Mr. Lynch. You don't recall him ever coming to you and 
asking you for your help for that appointment. Is that your 
recollection?
    Mr. Bulger. I don't recall it but if he asked, I would 
probably be favorably disposed to it, not based on any of the 
inferences that I draw from your question, I assure you.
    Mr. Lynch. Let me go on to another agent of the FBI, Nick 
Gianturco. Do you have any knowledge, acquaintance or 
relationship with Nick Gianturco?
    Mr. Bulger. I don't know him, I don't think.
    Mr. Lynch. Nick Gianturco left the FBI similar to Dennis 
Condon and went to work for the Edison. Do you recall ever 
getting a request from Mr. Gianturco for a reference?
    Mr. Bulger. I don't believe I ever did but I don't think 
so.
    Mr. Lynch. Let me go back then. Do you remember Mr. 
Gianturco?
    Mr. Bulger. I don't think I do. I know the name Gianturco 
but I don't know the person.
    Mr. Lynch. OK. We have already covered in this questioning 
Special Agent John Connolly and just so we are certain. I do 
have on the record an affidavit from Mr. Davis who was first at 
the MASSPORT and then went over as CEO for the Edison.
    He indicates in his affidavit that it is his knowledge and 
belief that it was others at the Edison who advocated on behalf 
of John Connolly.
    Mr. Bulger. Right. It was Carl Gustin, not David Davis. 
Gustin says, ``I am aware of the rumors repeated in the press 
that former Senate president William Bulger got Mr. Connolly 
his job at Edison. The rumors are false.''
    Mr. Lynch. And he points to a gentleman named John Keough, 
correct?
    Mr. Bulger. Yes, he does.
    Mr. Lynch. Let me ask you about John Keough. John Keough 
was also another FBI agent, a former agent that went to work 
for the Edison. Can I ask you about your relationship with John 
Keough? Do you have any knowledge of him?
    Mr. Bulger. I do know who John Keough was. He was a very 
quiet person. I don't think I ever had a conversation with John 
Keough other than in the 1970's, around 1974, there were 
helicopters flying over the community during the turmoil and I 
called him and complained about it. I thought angrily and 
somehow I remember him because I thought he was very fair with 
an elected official who was advocating for the community 
angrily that he never exploited it, never said how tough I was 
on him or any of that.
    Mr. Lynch. Do you recall if John Keough, he was also 
involved with this whole matter with the FBI and the Boston 
office?
    Mr. Bulger. Right.
    Mr. Lynch. Came out of there, went to work for the Edison. 
Do you recall John Keough quietly or otherwise lobbying you or 
asking for your support in getting his job at the Edison?
    Mr. Bulger. I don't think he ever did. I have no 
recollection, I don't think I ever knew that John Keough had 
gone to the Edison.
    Mr. Lynch. Let us go to Special Agent Robert Sheehan of the 
FBI. Left the FBI, I believe was involved with some of the 
informant operations at the FBI, actually I think preceding the 
relationship with your brother and Mr. Flemmi but also during 
that, he left the FBI and retired and went to work at the Hynes 
Convention Center. Do you have any knowledge of Mr. Sheehan?
    Mr. Bulger. I think I came to know Sheehan toward the end 
of his days. I would see him at certain restaurants and he was 
hooked up with a breathing apparatus.
    Mr. Lynch. What time period do you have a recollection of?
    Mr. Bulger. I don't remember exactly but he died shortly 
thereafter. Sheehan would have been friendly with the head of 
the Convention Center, Fran Joyce, so I don't know that I ever 
was asked.
    Mr. Lynch. Do you recall that Mr. Sheehan came to you or 
requested, given the backdrop here that your brother's and his 
relationship and at some point you were aware from your earlier 
testimony from things that were in the paper, I think Mr. H. 
Paul Rico had let slip the fact that your brother had an 
ongoing relationship with the FBI? Do you have any recollection 
that Mr. Sheehan might have capitalized on that fact to get you 
to help him in getting a job at the Hynes Convention Center?
    Mr. Bulger. I don't think he did. I don't think he did but 
if you don't mind my mentioning that the State House is in our 
senatorial district. People came through that office by the 
hundreds and I would use my vast intercessory power for folks 
if I thought it was all right. I would always say to the person 
on the other end, if this is not something you should not do, 
just don't. I was always careful of that.
    I just don't remember Sheehan coming through looking for 
help. I don't remember that. I have to say that. I knew him and 
used to see him and his wife at a little restaurant they 
frequented and I would go over and chat with him, but that was 
in the last year or so of his life.
    Mr. Lynch. What I am getting at is not the fact of your 
responsibility in trying to help constituents. That is quite 
normal in the course of your duties. What I am getting at is, 
Dennis Condon, Nick Gianturco, John Connolly, John Keough, 
Robert Sheehan and others who leave the FBI and then perhaps 
try to exercise the leverage of their relationship with your 
brother to get you to help them. So I am looking at the wrong 
doing, the misconduct of the FBI agents in this case and I am 
trying to find out whether or not there is a system.
    Mr. Bulger. Not to interrupt, but there was never a case 
that anybody came to me ever and said, I knew your brother, I 
befriended your brother, I therefore ask you to please befriend 
me. No one ever said that to me, ever. Those people would go to 
such jobs, I am sure they were finding similar berths before I 
ever arrived.
    Mr. Lynch. No doubt.
    I know I have exhausted my 5 minutes.
    Chairman Tom Davis. And then some.
    Mr. Meehan.
    Mr. Meehan. First, I guess I want to clear up the record. 
Mr. Bulger said few if anyone has condemned the leaking of 
grand jury minutes. When we had this hearing in Boston, I 
condemned the leaking of the grand jury minutes at that time, 
said that violations of the law relative to leaking of grand 
jury minutes was every bit as serious as the abuses in law 
enforcement that we are investigating and trying to correct 
today and I think they should be investigated. I think your 
rights in that instance were violated and I spoke out at the 
time.
    The other point I wanted to mention was the outside section 
of the budget. I just think there is a difference between 
hundreds of amendments being put in and the Senate Chairman of 
the Ways and Means presenting a budget that has its provision. 
I just view it differently. At the time, it was a major issue 
because the commissioner of public safety, Frank Traboco, 
called on Governor King to veto that provision saying that if 
the investigators lost their jobs through reduction in rank or 
retirement we would lose our entire intelligence gathering 
management team. It would dismantle the operation and all 
intelligence gathering in this area would stop.
    Obviously you have had a close relationship with John 
Connolly. Do you recall seeing John Connolly when he came back 
in 1975, when he returned to Boston as an FBI agent?
    Mr. Bulger. Do I recall seeing him?
    Mr. Meehan. Seeing him, talking to him when he came back in 
1975?
    Mr. Bulger. I am sure I must have but I don't have any 
specific recollection.
    Mr. Meehan. Would you have regular contact with him, for 
example on the phone?
    Mr. Bulger. No.
    Mr. Meehan. Or in person?
    Mr. Bulger. No.
    Mr. Meehan. You were aware he was an FBI agent?
    Mr. Bulger. Right.
    Mr. Meehan. And he would bring certain people from the FBI 
by to see you, correct?
    Mr. Bulger. Occasionally he did.
    Mr. Meehan. I am not clear. Did you ever discuss your 
brother, James, with Connolly?
    Mr. Bulger. I don't think I ever discussed my brother with 
John Connolly. I don't believe I ever did. During those times 
but later times, I did, in the 1990's, for example.
    Mr. Meehan. So when did you first learn that your brother, 
James, had an ongoing relationship with Connolly?
    Mr. Bulger. I am uncertain of that. It didn't come in a 
flash. It became known to me as time went on, in the late 
1980's, I would say, or the early 1990's.
    Mr. Meehan. When did you first learn he was an informant? 
Apparently when it was published in the Globe?
    Mr. Bulger. Right, and I wasn't sure then.
    Mr. Meehan. Did you ever discuss this relationship with 
your brother, James, with Connolly?
    Mr. Bulger. No.
    Mr. Meehan. Did you ever discuss this ongoing relationship 
with James with John Connolly?
    Mr. Bulger. I don't think so.
    Mr. Meehan. You have indicated you didn't help John 
Connolly get a job with Boston Edison. Were you on the board of 
New England Power in 1990?
    Mr. Bulger. No.
    Mr. Meehan. At any time, were you on the board?
    Mr. Bulger. I went onto the board of New England Power 
after I left the Senate and became president of the University.
    Mr. Meehan. That was after John Connolly had gotten a job?
    Mr. Bulger. Yes, long after.
    Mr. Meehan. Did you serve on the board of directors of 
south Boston Savings Bank?
    Mr. Bulger. No.
    Mr. Meehan. Did you ever assist John Connolly in ever 
securing a loan from south Boston Savings Bank?
    Mr. Bulger. Not that I know of.
    Mr. Meehan. Did John Connolly ever bring back Special Agent 
in Charge James Greenleaf?
    Mr. Bulger. The name doesn't ring a bell. I don't know.
    Mr. Meehan. The issue of 75 State Street, my recollection 
is it was actually investigated by two State Attorney Generals. 
You can understand why it would be an issue because and it is 
unfortunate but we are looking at the FBI and there is evidence 
now to suggest John Morris was Connolly's supervisor, he has 
admitted to taking bribes from Whitey Bulger. At the same time, 
he apparently was in charge of this investigation.
    I don't think past investigations should be brought up, 
however, it is just a little funny how John Morris is in charge 
of the FBI portion and now we find not only was he Connolly's 
supervisor, but he has admitted to taking bribes. That is sort 
of the reason why one would ask questions on it. Otherwise, I 
don't think any Members would bring it up.
    Mr. Bulger. May I just point out that John Morris clearly 
was no friend of mine.
    Mr. Meehan. You have made that clear but he has admitted to 
taking I think $5,000 from James Bulger.
    Mr. Bulger. I don't know what his function was but I don't 
think he was pivotal in this whole matter.
    Mr. Meehan. In the 1995 telephone call that you had with 
your brother, why did you go to the home of an employee to 
accept the call?
    Mr. Bulger. I have to reconstruct but I think that Kevin 
Weeks asked me where I would be and I think I told him that.
    Mr. Meehan. You knew Kevin Weeks pretty well?
    Mr. Bulger. Not very well, no, only through him.
    Mr. Meehan. Did he mention that you would have to use a 
different phone?
    Mr. Bulger. No. He just asked where.
    Mr. Meehan. So you didn't go to the home of an employee for 
any reason other than, you weren't trying to avoid having a 
phone call tapped?
    Mr. Bulger. I have been asked that question several times 
and I always said ``no.'' I was just doing what I was asked, 
where will you be, answering the question.
    Mr. Meehan. Do you know a Richard Schniederhan?
    Mr. Bulger. I don't recall him but I have been told I know 
him, yes.
    Mr. Meehan. But you don't know him?
    Mr. Bulger. I don't remember him. I think he came to my 
office, according to press reports, one time because he was 
interested in a particular edifice, a church, which might 
qualify and did ultimately qualify for some kind of protection 
under architectural laws.
    Mr. Meehan. In 1999, did anyone ever tell you that you 
should be careful using your phone because of law enforcement 
investigators?
    Mr. Bulger. Prior to that, I had been told by my counsel 
who had been told by the U.S. Attorneys Office that my phone, 
my brother Jack's phones both had pen registers on them.
    Mr. Meehan. After that, did anyone ever give you any reason 
to suspect any investigator was in any way monitoring your 
phone calls?
    Mr. Bulger. No, I don't think so, other than that 
monitoring. Again, the meaning of the word monitoring. I don't 
think they are listening in but they were hard at the task of 
calling people who might call me from strange places like 
Connecticut or places like California, Florida, Virginia, 
everywhere. They would be visited and David Wilson lives in 
Stonington, CT and he liked to call from time to time.
    Mr. Meehan. Did anyone tell or suggest to you that you 
should be careful using your phones other than your counsel 
after your brother fled, specifically did Kevin Weeks indicate 
that you should be careful of investigators?
    Mr. Bulger. I don't think he ever said a word to me. He 
never spoke to me about that.
    Mr. Meehan. When did you first meet Kevin Weeks?
    Mr. Bulger. I know his brother, Jack. Jack was active in 
the national campaign. He was a lead person or something in the 
Dukakis campaign, so I know the family. They did not live too 
far from me. I don't think I knew Kevin very well until later. 
I would see him around occasionally.
    Mr. Meehan. So the circumstance under which you might have 
a discussion with Kevin Weeks would be in person, on the phone 
or what was the nature of those communications?
    Mr. Bulger. I don't think Kevin Weeks ever called me. 
Occasionally he would come by I think because there was 
absolutely no place else to go and he would chat with me.
    Mr. Meehan. When did you become aware that Kevin Weeks was 
cooperating in the investigating regarding James?
    Mr. Bulger. I am uncertain of that. It was hugely 
publicized so there was no mystery to it.
    Mr. Meehan. When did you learn he had been arrested and 
charged? Is that the same time you learned he was cooperating? 
Did anyone tell you or do you remember becoming aware that 
Kevin Weeks was cooperating with the investigation?
    Mr. Bulger. No, but I think I saw it in the paper. I don't 
think anyone ever told me that.
    Mr. Meehan. So you learned of it through the newspaper?
    Mr. Bulger. I think so.
    Chairman Tom Davis. We have a vote pending and the time on 
this side has expired. Mr. Delahunt.
    Mr. Delahunt. Yes, I will try to do these 5 minutes.
    I was following Congressman Lynch's line of inquiry in 
terms of your relationship with a variety of Federal agents. I 
will give this to your counsel during the break. You can review 
it and we will inquire after we return.
    I just want to be really clear that the first time you 
realized that your brother was an informant for the FBI was in 
1997 when it appeared in the Boston Globe?
    Mr. Bulger. We were referring to a 1987 story.
    Mr. Delahunt. Right but let me ask you this question. When 
were you first aware or were you satisfied that in fact your 
brother was an informant?
    Mr. Bulger. I think one of the moments when I was confident 
it must be so was during the preliminary proceedings in the 
Federal Court with Judge Wolfe and someone, I think it was 
Flemmi, used it as a defense.
    Mr. Delahunt. So that would have been the late 1990's?
    Mr. Bulger. I think so.
    Mr. Delahunt. 1997 or 1998?
    Mr. Bulger. Yes.
    Mr. Delahunt. Were you aware or did you learn subsequently 
that in fact your brother had been an informant for the FBI 
since 1979?
    Mr. Bulger. Since 1979?
    Mr. Delahunt. Correct.
    Mr. Bulger. I think it is the first time I ever heard about 
that.
    Mr. Delahunt. Let me indicate to you that there has been 
evidence before this committee that John Connolly and John 
Morris cultivated James Bulger as an informant in a 1979 
approach to Jeremiah O'Sullivan to inform him that your 
brother, James, was an informant for the FBI and that he should 
be given consideration in a particular case and that was done. 
There has been evidence before this committee.
    I want to inquire as to the involvement of the Federal 
authorities as it relates to the so-called 75 State Street. I 
am not interested in the facts. I presume you were interviewed? 
I don't know whether you appeared before a grand jury but you 
were interviewed I understand by two Assistant U.S. Attorneys?
    Mr. Bulger. Right.
    Mr. Delahunt. As well as two FBI agents that were present?
    Mr. Bulger. I am sure there were other people besides the 
two counsel.
    Mr. Delahunt. The statements you made to them, you will 
testify here today, were to the best of your ability the truth?
    Mr. Bulger. Oh, sure.
    Mr. Delahunt. So that we can obviously refer to those if 
necessary?
    Mr. Bulger. Sure.
    Mr. Delahunt. Let me digress and go back. When you were 
called before the grand jury and you indicate your testimony 
was released. I share my colleagues' concern about that leak. 
The purpose of that grand jury, the purpose of those questions, 
was it to seek assistance in the whereabouts of your brother?
    Mr. Bulger. I think so.
    Mr. Delahunt. That was your understanding.
    Mr. Bulger. Harboring and obstruction of justice were the 
two matters that brought us there.
    Mr. Delahunt. Were you declared, was it indicated to you 
that you were either a subject or a target of that 
investigation?
    Mr. Bulger. No.
    Mr. Delahunt. Presuming that the purpose of the grand jury 
was to secure information as to the whereabouts of your 
brother, prior to your grand jury testimony, were you 
interviewed by the FBI?
    Mr. Bulger. The grand jury was in 2001.
    Mr. Delahunt. 2001?
    Mr. Bulger. That is correct, yes.
    Mr. Delahunt. If you have a memory, were you interviewed by 
the FBI prior to 2001 as to the whereabouts of your fugitive 
brother?
    Mr. Bulger. I don't believe I was.
    Mr. Delahunt. You were not?
    Mr. Bulger. I don't think I was.
    Mr. Delahunt. Are you aware that there is a task force that 
was created for the sole purpose of apprehending your fugitive 
brother?
    Mr. Bulger. Yes, I am.
    Mr. Delahunt. And you were never inquired of by that task 
force prior to your grand jury testimony?
    Mr. Bulger. I don't believe so, no.
    Mr. Delahunt. Was your brother, Jack, inquired of, if you 
know?
    Mr. Bulger. I don't know.
    Mr. Delahunt. You indicated that your wife was inquired of 
this week?
    Mr. Bulger. Last week. They were looking for her.
    Mr. Delahunt. For the purpose of determining the 
whereabouts of James Bulger?
    Mr. Bulger. Correct.
    Mr. Delahunt. What year did your brother flee the 
Commonwealth?
    Mr. Bulger. 1995.
    Mr. Delahunt. 1995. So 8 years later, the FBI gets around 
to inquiring of you and your wife, in your case some 6 years as 
to the whereabouts of your brother?
    Mr. Bulger. That is the first direct effort, yes.
    Mr. Delahunt. Do you have something prepared that you were 
about to read or submit to the committee regarding a 
conversation some Doyle had?
    Mr. Bulger. Those were two FBI agents who came to the door 
last Wednesday a week ago.
    Chairman Tom Davis. Can I just interrupt? We have to get 
over to a vote. This is a great time for us to take a break. 
Their time has expired and we have indulged them a little extra 
time so they could have some continuity. I would like to take a 
40 minute break. If you like, we can make sure you have lunch 
in the back and have some privacy and allow you to read 
anything you would like to supplement at that point when you 
come back and read anything into the record. Then we will 
resume questioning a half hour on our side and then a half hour 
over on the Democratic side.
    The hearing will be in recess.
    [Recess.]
    Chairman Tom Davis. The committee will return to order.
    Before I refer questions to Mr. LaTourette, I have one 
issue that I wanted to get to the bottom of. We had asked 
earlier about the special legislation that was put in the 
budget amendments in 1981 following the Lancaster Street garage 
bugging incident. This was legislation, as I read it, aimed at 
about five officers, two of whom were involved in the bugging 
of Whitey Bulger and the Lancaster Street garage that some in 
the press have dubbed retaliatory.
    I am trying to understand in my mind, other than singling 
out five officers who would have to retire early or lose other 
benefits, how this could have happened or what other public 
policy issue might have been at stake here. I just wonder, Mr. 
Bulger, if either you or your counsel, Mr. Kiley, could shed 
any light on that?
    Mr. Kiley, can I swear you in?
    [Witness sworn.]
    Chairman Tom Davis. I say this because I understand you 
were around the State House at the time and at least were 
acquainted with the issues.
    Mr. Kiley. I was in 1981, as I had been for the prior 6 
years, the first Assistant Attorney General for the 
Commonwealth. I served in that position for 10 years.
    We had a State Police contingent in the office at one point 
and I believe it included 1982, headed by Captain and later 
Lieutenant Colonel Agnes, one of the gentlemen who provided you 
an affidavit. In the affidavit and in the president's 
testimony, there is an allusion to, a reference to, a 
controversy that existed in Massachusetts following the U.S. 
Supreme Court's decision in United States v. Murgia. It related 
to the retirement ages in the uniformed branch and the 
detective lieutenants.
    The uniformed branch people were required to retire at a 
very early age. The detective lieutenants and these five 
individuals were among them were not. They had civil service 
status. They retired at 65. The controversy that existed for 
years was whether it was fair to the uniformed branch people to 
leave the senior staff on top of them so that there were not 
opportunities for promotion. There was the issue and if I may 
refer you again to the affidavit of Peter Agnes. He alludes to 
that problem.
    I also want to suggest and I think it is an important point 
to the committee, that we have provided you news clips 
contemporaneous from 1981. In addition to these clips and to 
Congressman Meehan's point, one of those articles suggested the 
outside section actually emanated from the House and was in the 
House budget. I have not been able to nail down that with 
historic research but this amendment, the outside section that 
you were talking to, has an unclear provenance. It may have 
originated in the House, not the Senate, and there were 
certainly other issues on the table at the time.
    One other quick point. The Lancaster Street garage 
surveillance by all accounts was conducted largely by uniformed 
branch personnel. The uniformed branch personnel would have 
benefited, not been harmed by the passage of the rider. That as 
I told your staff is argument, the last point, not fact.
    Chairman Tom Davis. I am just trying to put it all 
together. We are going to go back and check the legislative 
record to the extent that we can 20 years later but at least 
from my perspective, that clears up what might have happened.
    Mr. Kiley. Again, it is referenced in those Agnes and Nally 
affidavits that you have.
    Chairman Tom Davis. Thank you.
    Mr. Meehan. So we are clear on this issue, Mr. Kiley, you 
are saying this wasn't an outside section that was included in 
the Senate Ways and Means proposal?
    Mr. Kiley. Congressman, I have gone back and done research 
in the journal and so forth and I have not been able to nail it 
down. I can't tell you where it came from and I have been 
trying to do that with committee staff.
    Mr. Meehan. So you can't say it is or it isn't?
    Mr. Kiley. I can't.
    Mr. Meehan. OK.
    Chairman Tom Davis. Thank you.
    Under unanimous consent, each side will now be given 30 
minutes. We will proceed with Mr. LaTourette.
    Mr. LaTourette. Thank you. Mr. Bulger, it is nice to see 
you again.
    The affidavits that you sporadically have put in the record 
during the course of the day, I received them last night and it 
looks like they were faxed from Mr. Kiley's office yesterday 
morning maybe about 10 a.m. While I appreciate them, the 
difficulties I have with affidavits like this is you can't ask 
questions. They are what they are.
    I might ask the chairman since these folks have been kind 
enough to want to participate in our hearing, maybe we should 
chat with them a bit later if there are questions on the 
affidavits.
    I just want to ask, I assume they came into existence 
because you and/or your lawyer reached out to these people? 
They didn't know you were coming today and said, hey, I have 
something I want to say. You reached out to them?
    Mr. Bulger. Yes, my counsel has done so.
    Mr. LaTourette. I want to return to the 1995 phone 
conversation between you and your brother that took place at an 
employee's home. Again, it was set up by Kevin Weeks who wanted 
to know where you were and the phone call was made.
    In your opening remarks, you referred to it as a short 
conversation, I think three or four times, and in response to 
Mr. Waxman's question, you indicated it was about a 3 or 4 
minute conversation. When asked what the substance of the 
conversation was, to summarize what I heard you say, you said 
he said, don't believe everything you hear and tell everybody 
things are going to be OK and you expressed concern on behalf 
of your family that you all care about what happens to him.
    That only takes about 30 seconds. I have learned folks in 
the south of New England speak slower than we do in Ohio but 
that is only 30 seconds, so was it a 30 second phone call or 
was there more you are not remembering today or were there 
variations on that theme about expressions of concern back and 
forth that then consumed another 2\1/2\ to 3\1/2\ minutes?
    Mr. Bulger. I don't have a distinct recollection of the 
minute by minute conversation. I don't have that. That is the 
idea I came away with, that everything is not as it seems and I 
am OK, and in turn, I told him, you know, we care about you and 
I hope it is going to have a happy ending. I think what I 
probably provided you is not so much the words but the gist of 
the conversation.
    Mr. LaTourette. During the course of the conversation when 
we spoke a couple of weeks ago, you did not advise your brother 
to turn himself in during that phone conversation?
    Mr. Bulger. That is correct.
    Mr. LaTourette. Likewise, he did not reveal to you where he 
was?
    Mr. Bulger. That is true.
    Mr. LaTourette. There has been some discussion about the 
leaking of grand jury evidence. I find that as abhorrant as my 
colleagues from Massachusetts do, but one of the newspapers is 
quoted as saying, alleging it was in receipt of those documents 
that indicate in fact when you were before the grand jury you 
testified you told him not to turn himself in.
    Mr. Bulger. That is not true.
    Mr. LaTourette. That is not an accurate statement.
    Mr. Bulger. I believe the Globe may have reported that but 
it is absolutely not so. I never said such a thing to him.
    Mr. LaTourette. Prior to your appearance at the grand jury 
or maybe during the course of your appearance at the grand 
jury, did you request immunity from the Commonwealth of 
Massachusetts before making that appearance?
    Mr. Bulger. Did I request immunity from the Commonwealth?
    Mr. LaTourette. Before your grand jury testimony?
    Mr. Bulger. We never had occasion to do that, no, sir.
    Mr. LaTourette. As I asked a couple of weeks ago, I don't 
have the same strong feelings that maybe Mr. Shays expressed 
but I think when you invoked the fifth amendment privilege on 
December 6 in Boston, that caught some of us by surprise. I 
have heard you explain today and the other day you were afraid 
it was going to be some sort of memory test. I also understand 
the idea of immunity was one that was generated by the 
committee, not you and your counsel calling up and saying I am 
only going to come see you if you give us immunity.
    I guess my question is, between the date you invoked the 
fifth amendment when the committee was in Boston, I would 
assume there would come a time I would think when you would say 
I don't have anything to fear here and as I expressed to you a 
couple of weeks ago, as I listened to you and listened to you 
today, I am conversant with Massachusetts law and if you and 
your lawyer say there is a section where you can talk to your 
brother or sister and you don't get in trouble for that even if 
they happen to be killers, I will take that on face value.
    I am wondering, there is nothing you said today that you 
have done anything wrong, so I am trying to figure out why 
there didn't come a time after you took the fifth in December 
and finally the negotiations, are free to show up here, that 
you didn't reach that conclusion as well?
    Mr. Bulger. I became increasingly comfortable after the 
conversations. I do know that. I thought that the die I had 
been cast back in December by my invocation of my 
Constitutional right and at that time in December, I can tell 
you that I was very much concerned about the fact that just 
upon the arrival of the committee in Boston, the Government had 
released or leaked my grand jury minutes to the Boston Globe. I 
feared other people might have it and therefore, I would be at 
this huge disadvantage in my view where I would be required to 
remember exactly what I had said 2 years before and they would 
have all the advantage of being able to look at my notes. That 
was a matter of large concern to me.
    Mr. LaTourette. That is a commonly used trick that 
prosecutors do to take formal testimony and try to trip you up. 
I certainly understand that.
    When you received the subpoena in December to appear, did 
you hire a public relations firm to help you? Aside from legal 
counsel, did you hire a public relations firm to deal with the 
subpoena and your appearance before the committee?
    Mr. Bulger. I hired counsel and we had people who do public 
relations work who were being helpful to us, yes. I did pay 
them myself.
    Mr. LaTourette. Was the purpose to somehow get out your 
side, aside from the appearance, but was it also to help with 
the media in terms of spinning whatever it is you wanted the 
Boston area to believe about this?
    Mr. Bulger. That is exactly right. I was trying to get some 
part of my point of view into the public domain.
    Mr. LaTourette. Following that retention and around the 
time of your testimony, there were also some not so pleasant 
stories about our former chairman who I see now is in the chair 
today. Was there any strategy discussed that it is not an 
uncommon technique in politics to not only defend but to 
attack? Was there any suggestion of that?
    Mr. Bulger. I never heard of it.
    Mr. LaTourette. From that answer, that isn't a tactic you 
would approve of?
    Mr. Bulger. No. I have been careful myself.
    Mr. LaTourette. I want to now turn quickly to the pen 
registers for just a second. As I understand Kevin Weeks who 
recently testified in the Verizon case indicated that 
information was given to him by Mr. Schniederhan and he 
testified he gave that to your brother, Jack. Do you know that 
to be true, I just said it and Kevin Weeks testified to that 
fact under oath?
    Mr. Bulger. I don't know that it is so.
    Mr. LaTourette. Again, your story is that no one in law 
enforcement or no one outside of law enforcement ever indicated 
to you there were pen registers on your phone and that 
knowledge only came to you when pursuant to statute your lawyer 
was notified you had been the subject of electronic 
surveillance?
    Mr. Bulger. That is right. It was back in 1998. By the way, 
Jack would have heard the same thing, so the two of us were 
well aware of it.
    Mr. LaTourette. But I think that the allegation is the tip 
that came before the notification. You think it is after?
    Mr. Bulger. Subsequent.
    Mr. Kiley. If I may, our correspondence is dated October 9, 
1998. The allegation with respect to Trooper Schniederhan is 
that the tip came in 1999, a year later.
    Mr. LaTourette. Thank you for clearing that up.
    Last, I want to talk a bit about the safe deposit boxes. 
Apparently your brother had or may still have safe deposit 
boxes around the world. One of them was in the United Kingdom. 
Today you are aware of that fact, is that right?
    Mr. Bulger. Yes.
    Mr. LaTourette. You are also aware that you were a contact 
name on at least one box today?
    Mr. Bulger. Right.
    Mr. LaTourette. How did you come into possession of that 
information?
    Mr. Bulger. Through the newspaper. It was reported in the 
newspaper. That was the very first I ever heard of it.
    Mr. LaTourette. I thought when we talked a couple of weeks 
ago, that one of the banking institutions had called your home?
    Mr. Bulger. That is what I understand too. They claim to 
have done so.
    Mr. LaTourette. But in checking with your family members, 
no one remembers receiving a telephone call from the bank about 
a safe deposit box?
    Mr. Bulger. No one recalls such a call.
    Mr. LaTourette. I would yield. I don't have anything else.
    Mr. Burton [presiding]. Mr. Shays.
    Mr. Shays. Thank you, Mr. Bulger, for being here.
    I have a different view of the fifth amendment than yours 
and maybe they are not all that different, but I believe a 
public official has a duty to cooperate when you have an 
official body that wants the truth. It blew me away when you 
exercised your fifth amendment right which you are allowed to 
do but you are a public official.
    It bugs the heck out of me that we had to delay 6 months 
what you could have answered. I heard nothing you said today 
that you couldn't have said back then.
    My view is the fifth amendment gives you the right not to 
incriminate yourself and you have the right to use it. The 
courts have made it very clear that you can't convict someone 
on it but it doesn't say what public opinion has a right to 
think or what a congressional hearing has a right to think 
about the exercise of anyone using that right.
    So my natural instinct is to think what do you have to hide 
and I have listened to you and you have used as an excuse that 
your memory might not be good enough and that therefore, you 
don't want to do something where your memory isn't good enough. 
Whatever you say here has to be the truth and your immunity 
doesn't protect you from lying before us. You were sworn in. 
Everything you say here has to be the truth, correct?
    Mr. Bulger. Exactly.
    Mr. Shays. Or you can in fact be prosecuted, true?
    Mr. Bulger. That is exactly right.
    Mr. Shays. I am just mystified.
    I want you to tell me what you think about Joseph and Marie 
Salvati?
    Mr. Bulger. Joseph Salvati, the gentleman who spent time? I 
have the same sense of outrage, same sense of revulsion at the 
story of Mr. Salvati and the other two defendants who were 
wrongfully convicted and sent to jail for all those years. Mrs. 
Salvati, I have met her on occasion and she knows my feeling on 
that.
    Mr. Shays. Does it bother you that you helped provide an 
environment in which it seemed difficult for law enforcement 
agencies to get at the truth? Does it bother you that the FBI 
was involved with sending this man to jail when he was 
innocent? Does it bother you that your brother was involved 
with sending this man to jail when he was innocent?
    I want to know what you think about your brother's 
involvement in this outrageous, obscene, gross circumstance?
    Mr. Bulger. This is the very first I have ever heard of my 
brother's involvement in that, the very first.
    Mr. Shays. The very first?
    Mr. Bulger. Yes.
    Mr. Shays. So somehow he wasn't connected with this in any 
way?
    Mr. Bulger. Somehow he was not connected with it?
    Mr. Shays. Yes?
    Mr. Bulger. No.
    Mr. Shays. In any way with the Salvati case?
    Mr. Bulger. I don't believe so. It is the very first I have 
ever heard of it.
    Mr. Shays. You never heard anyone suggest that before?
    Mr. Bulger. No.
    Mr. Shays. Let me ask, when you received the phone call, 
your brother fled in December 1994 and you received the phone 
call in January 1995, correct?
    Mr. Bulger. Correct.
    Mr. Shays. OK, your brother broke the law and you are a 
public official. Did you go to the authorities to say that your 
brother had contacted you?
    Mr. Bulger. I informed my attorney just about immediately.
    Mr. Shays. Did you go to the officials?
    Mr. Bulger. No.
    Mr. Shays. Why not?
    Mr. Bulger. I told my attorney.
    Mr. Shays. Well, big deal.
    Mr. Bulger. And he, in turn, told the officials.
    Mr. Shays. OK. And who interviewed you after that? Just 
offhand, why did you have to tell the attorney? I think you are 
a senator, correct?
    Mr. Bulger. Pardon me?
    Mr. Shays. You were a State senator at the time.
    Mr. Bulger. Yes.
    Mr. Shays. Why wouldn't you have just gone to the 
officials? Why do you need to speak through your attorney to 
tell the authorities that you spoke to your brother?
    Mr. Bulger. I have a right to do so. I exercised my right.
    Mr. Shays. But why? You have a right to do it, but why 
would you do it? Why wouldn't you just pick up the phone and 
say, my brother, who has fled, contacted me? And by the way, I 
would like to know why you just didn't talk to the authorities 
directly. Why did you speak through an attorney?
    Mr. Bulger. That was my preference.
    Mr. Shays. OK. Let me ask you this. The individual who told 
you that you were to go to a house, his name was Kevin Weeks?
    Mr. Bulger. Right.
    Mr. Shays. Whose house did you go to?
    Mr. Bulger. He didn't tell me to go to a house. He asked me 
where I would be.
    Mr. Shays. And where were you?
    Mr. Bulger. And I was in the course of my duties that day, 
I was at a home in Quincy.
    Mr. Shays. What home? Whose home?
    Mr. Bulger. Edward Phillips.
    Mr. Shays. So you spoke to your brother at Edward Phillips' 
home.
    Mr. Bulger. Right.
    Mr. Shays. Did Mr. Phillips know you were going to receive 
that call?
    Mr. Bulger. I can't remember whether he knew.
    Mr. Shays. Why not?
    Mr. Bulger. I don't know whether I informed him that I was 
receiving.
    Mr. Shays. So you came to that home and you said, I'm going 
to receive a phone call from somebody, or I need to come to 
this home? Tell me how that is logical.
    Mr. Bulger. No. Very frequently I am receiving phone calls 
wherever I am, and it would not be unusual at all for me to 
receive a phone call while at his home.
    Mr. Shays. But you knew that when you went to that home you 
were going to receive a phone call from your brother.
    Mr. Bulger. I expected that I might.
    Mr. Shays. Right. Why did you think you would receive it 
there? Why was your brother calling that home?
    Mr. Bulger. That was his request. I am sure he would like a 
private conversation.
    Mr. Shays. Did the FBI ask you why you received the call 
there?
    Mr. Bulger. I am reminded by counsel that the U.S. Attorney 
asked me in the grand jury.
    Mr. Shays. When was the grand jury?
    Mr. Bulger. When?
    Mr. Shays. Yes.
    Mr. Bulger. In 2001.
    Mr. Shays. Isn't that amazing? You receive a call in 1995, 
and nobody wanted to have details of why you went there and 
whether or not that individual knew you were receiving the 
call, and so on? It didn't strike you as kind of interesting?
    Mr. Bulger. I think the U.S. Attorney's Office knew about 
it far in advance.
    Mr. Shays. Yes. The problem is that there is a suspicion, 
which you obviously don't agree with, that the FBI and others 
were intimidated in interacting with you because you were a 
powerful political person. And you know you were a powerful 
political person. Did the FBI ever try to question you, and did 
you refuse to talk to them or answer them? Did you ever shoo 
them away? Did you ever suggest that maybe they should go 
somewhere else? Did you ever do that, under oath? I am asking 
you under oath if you did that.
    Mr. Bulger. I think whenever they have come I told them, if 
I am going to talk to them, I want to do so with counsel.
    Mr. Shays. Did you ever suggest to them to get lost?
    Mr. Bulger. No.
    Mr. Shays. Did you ever suggest to them that you did not 
want to answer their questions?
    Mr. Bulger. I don't recall.
    Mr. Shays. So if we have someone from the FBI who comes up 
to us in a hearing and says we went to Mr. Bulger, we asked him 
and he told us to get lost?
    Mr. Bulger. I don't think I used that expression ever.
    Mr. Shays. Well, you get the gist. Maybe they don't say get 
lost up in Boston, but you get the idea of what I am 
suggesting. Not willing to cooperate. I am asking whether you 
gave a signal to the FBI that you did not want to answer their 
questions, and that they should not ask you and that they 
should leave.
    Mr. Bulger. I don't recall meeting the FBI. I really don't 
recall it.
    Mr. Shays. Did the FBI ever come to your home?
    Mr. Bulger. I am told that they did, but I do not recall 
it.
    Mr. Shays. Did the FBI ever come to your offices?
    Mr. Bulger. No, I don't think so.
    Mr. Shays. Did any other law enforcement people come to 
your home?
    Mr. Bulger. I don't think so.
    Mr. Shays. Did any law enforcement people come to your 
offices to ask you questions?
    Mr. Bulger. I don't believe so.
    Mr. Shays. Do you think the FBI felt that if they asked you 
questions about your brother, that you would cooperate?
    Mr. Bulger. I have no idea what the FBI is thinking. They 
are not too friendly to me, Congressman.
    Mr. Shays. I am not friendly, because I am outraged at this 
whole case.
    Mr. Bulger. No, I am saying the FBI is not very friendly to 
me.
    Mr. Shays. Yes. I don't blame them.
    Let me ask you this question.
    Mr. Bulger. Well, you can understand, then, if you don't 
mind, Congressman, why I would therefore be reluctant to be 
cooperative with them.
    Mr. Shays. No, I don't understand that. The fact that 
someone may not like you doesn't mean you can't tell the truth. 
That is an absurdity.
    Let me ask you, in the final area, did you have any 
knowledge of any organizations or people that were involved in 
gun-running to Northern Ireland?
    Mr. Bulger. No.
    Mr. Shays. Were you aware that your brother was involved in 
any way, in any way with providing some kind of munitions to 
Northern Ireland?
    Mr. Bulger. I read that in the paper.
    Mr. Shays. When did you read it in the paper?
    Mr. Bulger. The year? I have no idea.
    Mr. Shays. How did you react to that?
    Mr. Bulger. It was in the 1990's.
    Mr. Shays. When you read about it, were you proud of him?
    Mr. Bulger. I didn't even know whether it was true or 
false, Congressman. I don't know how I felt. Is this the 
question that I am here for, to answer how I feel about things? 
At any given time, I don't know.
    Mr. Shays. That is not an unusual question, because it 
gives me a sense of your attitude about a variety of things. I 
just want to know do you know anything relating to Valhalla?
    Mr. Bulger. No, I know nothing about it.
    Mr. Shays. Let me just conclude with these questions. You 
have a variety of children. Were any of your children 
interviewed by the FBI about anything to do with their uncle or 
anything to do with your brother or their uncle?
    Mr. Bulger. Oh, yes, they have been.
    Mr. Shays. OK, they have been interviewed but you haven't 
been?
    Mr. Bulger. Well, I am trying to think. They have been 
approached, and then once counsel called them, that was, I 
think, the end of it each time.
    Mr. Shays. So the bottom line is when anybody approaches 
you or your family, they are told to speak to counsel?
    Mr. Bulger. That would be a sensible attitude, yes.
    Mr. Shays. OK, thank you very much.
    Thank you, Mr. Chairman.
    Mr. Burton. Before I ask questions, Mr. LaTourette, did you 
have some followups real quickly?
    Mr. LaTourette. I just wanted to ask a couple questions.
    From chatting with you the other day, and also listening to 
you today, I get the sense that your family is close, you and 
your nine children; you have a pretty close-knit family. Did 
that exist in terms of your relationship with your brother? And 
by that I mean over the course of years, like most families, 
did you get together for Thanksgiving, Christmas, Easter? Did 
you have family get togethers like that where your brother 
would be present?
    Mr. Bulger. No, he would not be on hand for such.
    Mr. LaTourette. And then whether or not those events 
occurred, what was your understanding that your brother did for 
a living? I mean, he had a lot of money. What was your 
understanding of how he got it?
    Mr. Bulger. No, I answered, Congressman, earlier that I 
recognized that he was doing things that were extralegal, they 
were beyond the law, at some point.
    Mr. LaTourette. All right, thank you.
    Thanks, Mr. Chairman.
    Mr. Burton. Let me ask a few questions here. You indicated 
the first that you heard that your brother might have been 
aware of the killing of Deegan.
    Mr. Bulger. Deegan?
    Mr. Burton. Deegan was the gentleman that was killed that 
they accused Mr. Salvati of being involved with, as well as the 
others. You indicated you didn't think your brother knew 
anything about that, or at least this is the first you have 
heard about it, if that is the case, is that right?
    Mr. Bulger. That my brother did not know anything about it?
    Mr. Burton. Yes.
    Mr. Bulger. It was not my intention to say that.
    Mr. Burton. Well, I just wanted to clarify one thing. The 
Winter Hill mob or gang, or whatever you want to call it, he 
was pretty much the head of it, and Barboza and Flemmi and 
those guys, they answered to Patriarcha up there, who was north 
of them, I believe in Connecticut, and when they gave the 
approval to kill Deegan, I am sure that they had to know that. 
I am sure he had to know that Deegan was going to get hit.
    Mr. Bulger. Could I ask you what year that was, 
Congressman? 1965? I think it was the year my brother was 
released from prison, 1965.
    Mr. Burton. He, nevertheless, was very tightly involved 
with all these guys.
    Mr. Bulger. He was?
    Mr. Burton. Well, he was the head of the Winter Hill mob, 
as far as I know. Isn't that correct? I know he was in 
Alcatraz.
    Mr. Bulger. Right. And I don't think he could manage it 
from there. Excuse me for that. But, I mean, that is my problem 
with this.
    Mr. Burton. I understand.
    Mr. Bulger. You see my problem?
    Mr. Burton. Earlier you said that Linda Reardon, who left 
with your brother, he came back, and you said that she did not 
get a job.
    Mr. Bulger. I think it was Theresa Stanley, sir.
    Mr. Burton. Theresa Stanley. Excuse me, I have the wrong 
sheet here. Theresa Stanley, that she didn't get a job at the 
Convention Center from your friend.
    Mr. Bulger. I don't know that she did. I didn't think she 
had worked there.
    Mr. Burton. No, it was her daughter.
    Mr. Bulger. Her daughter.
    Mr. Burton. I just want to correct that for the record.
    Do you know whether John Connolly ever tipped your brother 
off to the fact that a criminal investigation was underway?
    Mr. Bulger. With respect to? No, I don't know of it, no.
    Mr. Burton. Did you consider writing a letter to Judge 
Tauro regarding Connolly's sentencing?
    Mr. Bulger. Did I consider writing a letter?
    Mr. Burton. To Judge Tauro regarding the sentencing of Mr. 
Connolly.
    Mr. Bulger. No.
    Mr. Burton. Did you encourage any others to write letters?
    Mr. Bulger. I don't believe so.
    Mr. Burton. When you say you don't believe so, could you be 
more specific?
    Mr. Bulger. Well, I know I never called anyone, Mr. 
Chairman, and said to him please write a letter. There was 
nothing of that nature.
    Mr. Burton. Did you ever talk to anybody on the street and 
say, you know, Connolly is a friend of mine, and I would 
appreciate it if you would write a letter to the judge?
    Mr. Bulger. No, I don't think so, ever.
    Mr. Burton. You don't think so.
    Mr. Bulger. No.
    Mr. Burton. So categorically you are saying you never did 
that.
    Mr. Bulger. I am categorically telling you that I have no 
recollection of such a thing.
    Mr. Burton. I know you have no recollection, but you can't 
say for sure that you didn't ask somebody to write a letter to 
the judge on his behalf.
    Mr. Bulger. I believe I never asked anyone to write a 
letter for Mr. Connolly, never.
    Mr. Burton. Did Connolly introduce you to John Morris and 
any other FBI agents?
    Mr. Bulger. Yes. Along the way he did introduce me to FBI 
people. I don't recall an introduction to John Morris, but I 
hear it frequently that Mr. Morris claims that there was such 
an introduction.
    Mr. Burton. Now, I don't know if you answered this 
question; I was out of the room for part of the time. Did you 
ever take any steps to help Connolly get the police 
commissioner of Boston position? Did you ever refer him to 
anyone for that job?
    Mr. Bulger. Can you give me an idea of the year of that?
    Mr. Burton. Well, I presume it was right after his 
retirement party, which would have been around 1990.
    Mr. Bulger. 1990? And that was when he went to work, I 
think, for the Edison Co.
    Mr. Burton. But did you recommend him for that position, as 
police commissioner of Boston?
    Mr. Bulger. Excuse me. Who was the mayor at that time? 
Well, maybe way back, many years before, there was a neighbor 
of ours that was mayor, and I heard that I may have suggested 
John to Raymond Flynn. He was the mayor some years back.
    Mr. Burton. Well, did you help Connolly get other jobs? 
Like at Edison I guess you did.
    Mr. Bulger. No.
    Mr. Burton. You did not? That is the only time that you can 
recall?
    Mr. Bulger. No, it was not even an effort, it wouldn't 
qualify as an effort to get the man a job. I may have suggested 
him as a possible candidate, somebody that might be looked at.
    Mr. Burton. When you got that phone call, did you know in 
advance how far in advance you were going to get that call?
    Mr. Bulger. I answered that question before. I am not 
positive. It seems as though it was very close to the time that 
I would be in Quincy.
    Mr. Burton. Well, I just wondered if maybe you felt it 
might be better to get a call someplace besides either your 
office or your residence because your phone or something might 
be tapped.
    Mr. Bulger. This request was one as to where I would be at 
a certain time of day, and I was quite certain I would be 
there, at that particular place.
    Mr. Burton. Well, if you knew you were getting a call from 
your brother, who was gone and fled, why would you go to 
somebody else's house, instead of your own, to get the call, or 
go to your office, because he was your brother, after all?
    Mr. Bulger. Right.
    Mr. Burton. I mean, why would you just say, well, you know, 
I will be someplace; you can give me a call if you get a 
chance? I mean, if he was on the lam, you would know that he 
might not be able to make three or four phone calls chasing you 
down, if you were going to different places.
    Mr. Bulger. No, I answered where I would be. I was pretty 
sure I would be down at Phillips' house that evening.
    Mr. Burton. And, of course, you knew that there wasn't any 
chance that anybody would be listening in on that phone 
conversation down there.
    Mr. Bulger. Well, it was my brother's request that he 
wanted to talk to me.
    Mr. Burton. Going back to the State Street episode, you 
gave the $240,000 back because it came from Brown.
    Mr. Bulger. Right.
    Mr. Burton. Did he get the $240,000 back when the money 
came? Did you get the money back when it came from other 
sources? You ended up getting a fee, right?
    Mr. Bulger. No, no. I got the money to which I was 
entitled. And I had done other work in that office, and because 
I now was in a more difficult position as president of the 
Senate, I had to step away from the formal practice of law as a 
partner of Mr. Finnerty.
    Mr. Burton. But you had nothing to do with the first issue, 
the first case, the $240,000.
    Mr. Bulger. No, but the money was something in the nature 
of an advance. Finnerty was working on a particular matter with 
Mr. Brown. Mr. Brown had a degree of notoriety which caused me 
to say to Finnerty, since the money is coming immediately from 
Mr. Brown, I should probably not receive it. It was more to do 
with appearances, I don't think there was anything 
substantively wrong. It turned out to be Tom Finnerty's money; 
he could do whatever he wanted with it.
    Mr. Burton. Nevertheless, the $240,000, you did receive 
$240,000 later.
    Mr. Bulger. Later? Oh, much more than that, I hope. No, 
much more, because I was entitled to a fee. I think we may have 
covered this when you were out of the room.
    Mr. Burton. You did.
    Mr. Bulger. What happened was I had a fee coming for about 
$350,000, and I was expecting that. Ultimately, that did come.
    Mr. Burton. But it had nothing to do with the $240,000 that 
you gave back.
    Mr. Bulger. No. That is a totally different matter.
    Mr. Burton. I see my time has expired.
    Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    Let me just try to round out on that subject. What was the 
name of the trust from which you took the $240,000?
    Mr. Bulger. The St. Botolph Trust.
    Mr. Tierney. OK. And for what purpose was that trust 
established?
    Mr. Bulger. Well, Finnerty established the trust. I think 
he did it just for the sake of separating some assets in his 
office. He ran the office.
    Mr. Tierney. Who were the trustees?
    Mr. Bulger. I think just himself.
    Mr. Tierney. And who were the beneficiaries?
    Mr. Bulger. I think just himself. I don't know. I think it 
doesn't stand the test of a real trust, ultimately.
    Mr. Tierney. Have you seen the documents?
    Mr. Bulger. Well, way back I think I did, and it was the 
fact that he is the beneficiary as well as the trustee.
    Mr. Tierney. He is the only beneficiary and the only 
trustee?
    Mr. Bulger. He was everything in that trust, yes.
    Mr. Tierney. And nobody else shared either of those 
positions, so in fact it wasn't a trust?
    Mr. Bulger. I think I am remembering that.
    Mr. Tierney. So when you took that money, you didn't take 
it as a beneficiary, it was some other form of transfer?
    Mr. Bulger. He was free to pay it as he wished.
    Mr. Tierney. And you didn't take it as a beneficiary?
    Mr. Bulger. Oh, no. It was really because the other money 
was coming and it was slowed up. And I think he had some sense 
at the time that the slow-up on the other fee, which I had 
earned, was something which was the fault of the office; they 
had not been receiving the money on time due to some inaction 
of their own.
    Mr. Tierney. But as you testified just a short while ago, 
when you received that money, you invested it.
    Mr. Bulger. Yes, I did, some of it, yes.
    Mr. Tierney. Were there immediate needs that you had to 
meet with that money? Were you putting pressure on Mr. Finnerty 
for it?
    Mr. Bulger. I don't think I did.
    Mr. Tierney. So I am trying to figure out why he felt 
compelled to have to give an advance, when everybody knew the 
fee was coming in eventually and you had no apparent need for 
it.
    Mr. Bulger. My sense of it is now, so many years later, 15 
years, maybe more, must be longer, my sense of it is he just 
wanted to do it. There were needs, nothing critical, I don't 
think, but it would be something he would be willing to do.
    Mr. Tierney. Can you tell me how much of that money went to 
needs that you had and how much of it got invested?
    Mr. Bulger. I didn't have it very long. I didn't put it 
toward needs, just a very little bit, about $10,000 or $15,000, 
I think, was invested.
    Mr. Tierney. When that money was paid back, did you make 
the check out to Mr. Finnerty or to the trust?
    Mr. Bulger. I assume it was to the trust. I assume.
    Mr. Tierney. And did any of the money which you used to 
reimburse the trust come from James Bulger?
    Mr. Bulger. Oh, no.
    Mr. Tierney. Or any of his associates?
    Mr. Bulger. No.
    Mr. Tierney. Now, you had testified earlier that Mr. 
Connolly, from time to time, brought by various FBI personnel 
to your Senate office to introduce them to you.
    Mr. Bulger. Sure.
    Mr. Tierney. Do you know what the frequency of those visits 
were?
    Mr. Bulger. It would be occasionally. I think if new people 
were coming to town he might come by and introduce them.
    Mr. Tierney. Did he visit your office on other occasions?
    Mr. Bulger. He may have. I have some sense that he was 
around a bit, but he knew nearly everyone who worked for me, 
and I think frequently that was the reason for his presence 
there.
    Mr. Tierney. Was that he had associations with other people 
in your office?
    Mr. Bulger. He was friendly with several people, yes.
    Mr. Tierney. Did you have periodic telephone conversations 
with Mr. Connolly while you were in the State Senate?
    Mr. Bulger. No.
    Mr. Tierney. Would he call your office?
    Mr. Bulger. Not very frequently, no.
    Mr. Tierney. And when he would call, what were the topics 
that he would discuss with you?
    Mr. Bulger. I don't know, he might ask me if I would be an 
emcee at something. That was always a request that I would 
receive. I think I visited every senatorial district in 
Massachusetts doing that, Democrat and Republican.
    Mr. Tierney. And Mr. Connolly would ask you to do that?
    Mr. Bulger. But he would do that too. If there were some 
event that he were interested in, if there were a charitable 
event or something. And I think I recall him asking me on some 
such event, would you come and be the emcee.
    Mr. Tierney. And is it your testimony that in none of those 
telephone conversations and in none of those personal visits 
between you and Mr. Connolly was the subject of James Bulger 
entertained?
    Mr. Bulger. No, he didn't. He just didn't. There is an 
awareness on the part of people that my brother is there, 
Congressman.
    Mr. Tierney. But this individual was somebody that you and 
your brother grew up in the same neighborhood with him, you had 
a long-standing relationship, he is in the FBI, he is running 
your brother as a confidential informant, and he never mentions 
anything of that to you?
    Mr. Bulger. He doesn't tell me about it. He does not. I 
think years later, as he is leaving, maybe around 1990 or 
thereabouts, it is becoming clearer and clearer that they all 
know each other, he knows my brother. But I don't think I ever 
was even aware of it until much later.
    Can I? An example. Governor Weld served for, I don't know, 
7 years as Governor of Massachusetts, and we were very close 
during the 5-years in which I was still the president of the 
Senate. He never mentioned my brother, never once. And we had 
traveled together and had worked together to resolve some of 
the problems that confronted both the House and the Senate and 
the Governor, and I can only say he never mentioned it. And 
that is not an unusual way that the fact of my brother's 
presence was handled. Everyone knew about my brother, but it 
frequently was just something that didn't get referred to.
    Mr. Kiley. Can I have one moment, Mr. Chairman?
    Mr. Tierney. Sure.
    Mr. Bulger. I am reminded by counsel that one time I did 
ask John Connolly about it was in the paper that my brother was 
involved in drugs, and I began, I think, asking people about 
that, because I didn't think it was something that could go on 
without a lot of people being aware of it, and I asked him, and 
I asked him, you know, if he could find out within his right to 
know, and he came back to me and gave me a negative on it, he 
said he didn't think that was so.
    Mr. Tierney. Well, earlier, when we talked about what it is 
that you thought your brother did, you indicated you thought 
that he was involved with numbers and things of that nature.
    Mr. Bulger. Yes.
    Mr. Tierney. How come you never asked John Connolly then if 
your brother was engaged in those things?
    Mr. Bulger. Well, because I thought there was validity to 
it. In the case of this drug business, I thought it was false, 
and it was a claim made against him that was false. I asked 
other people about it too.
    Mr. Tierney. But you never asked Connolly the extent that 
your brother might be involved in gaming or anything of that 
nature?
    Mr. Bulger. No, I didn't, no.
    Mr. Tierney. You never asked him if your brother was in 
trouble with the FBI or other law enforcement officials, or 
should you talk to your brother about it?
    Mr. Bulger. I don't believe I did. I don't believe I did. I 
didn't think it was within my right to inquire, or that it was 
within his right to tell me.
    Mr. Tierney. You wrote a while back that your wife, at one 
time, called you and informed you that your brother and a group 
of people purchased a lottery ticket together, and that the 
ticket had been bought jointly, apparently a $1 ticket we are 
talking about here, had been bought jointly by Mike Linsky and 
his brother Patty, Kevin Weeks, and Jim. Half of the purchase 
price, I guess 50 cents, was paid by Mike, was thus entitled to 
half the proceeds of the $14.3 million prize; the remaining 
half was divided equally among Patty, Jim, and Kevin; and my 
brother's share amounted to about $1.6 million.
    Do you have any idea what your brother, who had received 
$80,000 a year, I guess, over 20 years, do you have any idea 
where your brother may have invested or spent that money during 
the 5-years before his disappearance?
    Mr. Bulger. No, I don't know where he spent that money, no.
    Mr. Tierney. Do you know if he took it as a lump sum or if 
he did take it over the periodic payment period?
    Mr. Bulger. I don't think he took the lump sum, because 
there was a squabble about whether it was a valid win.
    Mr. Tierney. OK. You testified at one point there was 
information at one point that your brother had a safe deposit 
box in London with your name on it. What knowledge did you have 
about that box and when did you acquire knowledge about it?
    Mr. Bulger. Whenever it appeared in the newspapers, the 
first I knew of it. I understand I am not a joint but, rather, 
somebody to whom they would go if there were no one else.
    Mr. Tierney. In that phone conversation that you had with 
your brother, he never mentioned to you that this was the case 
in case something happened to him?
    Mr. Bulger. No, he never told me that. He would know that I 
would tell him I don't want to be on it.
    Mr. Tierney. Do you know of any other safe deposit box 
belonging to your brother James?
    Mr. Bulger. I have heard of one in Florida, which has been 
involved in the case.
    Mr. Tierney. And how did you hear about that?
    Mr. Bulger. Pardon me?
    Mr. Tierney. How did you hear about that?
    Mr. Bulger. Because my brother Jack was paying the bill for 
it, whatever, the annual bill.
    Mr. Tierney. OK. Was your name on that one also?
    Mr. Bulger. Oh, no.
    Mr. Tierney. OK. Do you have any financial interest in any 
money or property or business that is owned in part by your 
brother James?
    Mr. Bulger. No, not at all.
    Mr. Tierney. And do you have any awareness of any assets 
belonging to James and where they might be at this point in 
time?
    Mr. Bulger. No.
    Mr. Tierney. Have you ever received any large gifts, with 
the value of $1,000 or more, from your brother James?
    Mr. Bulger. No.
    Mr. Tierney. Thank you, Mr. Chairman.
    Mr. Lynch.
    Mr. Lynch. I just have a few questions, but let me just 
continue on that line of questioning.
    Based on earlier testimony by, I believe, Mr. Weeks, Mr. 
Martorano, and actually confirmed by Mr. Morris, for a certain 
period of time there was an awful lot of money flowing between 
the FBI agents themselves and other third parties, as well as 
your brother and Mr. Flemmi and their organization. Were you 
ever confronted with an offer of money either from the FBI or 
from any of your brother's associates like Kevin Weeks or any 
of those gentleman that are affiliated with your brother's 
organization?
    Mr. Bulger. No.
    Mr. Lynch. Never?
    Mr. Bulger. Never, no.
    Mr. Lynch. OK.
    Mr. Bulger. An offer of money to me?
    Mr. Lynch. Correct.
    Mr. Bulger. From?
    Mr. Lynch. From either an FBI agent.
    Mr. Bulger. No. No.
    Mr. Lynch. All right, even an unexpected offer of money 
from an unknown third party.
    Mr. Bulger. No.
    Mr. Lynch. OK.
    That is all I have, Mr. Chairman.
    Mr. Tierney. Mr. Meehan.
    Mr. Meehan. This will be my final question on the 75 State 
Street. Before you paid back the money, had anyone suggested to 
you that Harold Brown was going to be indicted?
    Mr. Bulger. No.
    Mr. Meehan. So you never had a discussion with anyone 
relative to Harold Brown.
    Mr. Bulger. No. I didn't know much about Harold Brown at 
all. But it became pretty clear that he was in some sort of 
difficulty. And I am not sure how I came to know it, but I 
thought it would be advisable that since the money source was 
from him, and Finnerty, by the way, was suing him, I think, by 
that time, that it would not be sensible for me to receive that 
money, since I already have the other money coming before long. 
I think Tom Finnerty was trying to be helpful to me; he had it 
and he thought that would be some help to me.
    Mr. Meehan. Going back to the telephone conversation in 
1995, when you went to your staff person's house, you knew that 
you were going to get a call? It is not clear to me. Did you 
know you were going to get a call from your brother?
    Mr. Bulger. Well, you know, I still don't have a specific 
recollection, as I have indicated, about the conversation with 
Kevin Weeks.
    Mr. Meehan. But you testified that the information came 
from Kevin Weeks.
    Mr. Bulger. Right, I have. But I have also said, I hope, 
each time I don't remember exactly the conversation. I settle 
on Weeks because I don't know anyone else. I didn't know anyone 
else then who ever seemed to be in touch with my brother.
    Mr. Meehan. And this is the same Kevin Weeks who was 
involved in the Logan Airport incident in 1987 where he 
escaped, apparently, with the money. And this is the same Kevin 
Weeks, the issue of the lottery ticket, apparently he was 
involved, and this may be still in dispute, of extorting a $14 
million winning ticket from the first person who won it. That 
was Kevin Weeks?
    Mr. Bulger. I didn't know that was a claim.
    Mr. Meehan. I think he has testified.
    Mr. Bulger. He did?
    Mr. Meehan. I think he testified to that.
    Mr. Bulger. I didn't know that.
    Mr. Meehan. And this is the same Kevin Weeks who, 
apparently, along with your brother and Steve Flemmi, at least 
according to his testimony, forced legitimate owners of a south 
Boston liquor store to sell him the business, apparently, 
according to Mr. Weeks, at gunpoint in 1984. And I think it is 
the same Kevin Weeks who, at least according to his testimony, 
has said that he participated in burying bodies apparently all 
over south Boston.
    Is it fair to say John Connolly was a close friend?
    Mr. Bulger. Of mine?
    Mr. Meehan. Yes.
    Mr. Bulger. Yes.
    Mr. Meehan. And John Connolly and John Morris apparently 
were friends?
    Mr. Bulger. I didn't think so.
    Mr. Meehan. You don't know that? John Morris apparently was 
the agent in charge of Connolly. Are you aware of that?
    Mr. Bulger. Pardon me?
    Mr. Meehan. Are you aware that Morris was the agent?
    Mr. Bulger. I think he was, yes. I think that I was aware 
of that, too.
    Mr. Meehan. On the issue of the safe deposit box in 1997, 
you never ever got notification that your name was on the box?
    Mr. Bulger. No.
    Mr. Meehan. Is that correct?
    Mr. Bulger. Never.
    Mr. Meehan. And was your phone conversation, or not, a 
telephone conversation relative to that box? It is unclear to 
me.
    Mr. Bulger. Well, I think there was some claim, I am 
remembering the newspaper reports, that at some place something 
was changed. I don't even know the name of the bank, but that 
was communicated, and my sense of it is that it was 
communicated by telephone. But no one seems to have heard that.
    Mr. Meehan. So you never knew that he had put your name on 
this box in London.
    Mr. Bulger. No.
    Mr. Meehan. And your name wasn't on the one in Florida, and 
apparently you heard of the one in Florida only through your 
brother Jack.
    Mr. Bulger. Right.
    Mr. Meehan. After the phone call from your brother, you 
have testified that you notified your attorney.
    Mr. Bulger. Well, I did tell my attorney that I received a 
phone call.
    Mr. Meehan. You have stated that was your last 
conversation, in 1995. Have you received any other information 
from any source relative to your brother?
    Mr. Bulger. Well, back in 1995 there were people who they 
all seem to claim to have received a phone call or were aware 
through someone else who had that he was doing fine, or 
something like that. I would hear it through third parties. And 
that seemed to be sort of a common bit of information.
    Mr. Meehan. So information would get to you generally 
through third parties relative to how he was doing?
    Mr. Bulger. Oh, I think so, yes.
    Mr. Meehan. Do you recall the names of any of those third 
parties?
    Mr. Bulger. Well, no. I remember the incidents, some of 
them, people. I mentioned that there was a young lady named 
Kathy McDonough. I did not know her at the time. I since have 
come to know her. And I understand that she had received such a 
call. And then there was someone named Heart. I don't know, it 
might be Caputo. And she was someone who was a friend of 
Theresa Stanley. She may have received a phone call. I am not 
sure of that. And then there were some folks who made large 
claims that were just the usual things you hear, you know, that 
were false.
    Mr. Meehan. On a separate subject, do you know a man named 
Roger Concannon?
    Mr. Bulger. Yes.
    Mr. Meehan. How do you know him? What is your relationship 
with him?
    Mr. Bulger. Well, Roger grew up in that community. I know 
his brother for the most part, James.
    Mr. Meehan. Have you ever been to his home?
    Mr. Bulger. Roger? No.
    Mr. Meehan. Has he been to your home? Are you close 
friends?
    Mr. Bulger. No. I don't think I have seen him in years and 
years.
    Mr. Meehan. Are you familiar with a musical group called 
the Irish Volunteers?
    Mr. Bulger. Musical group? Yes. It's very flattering.
    Mr. Meehan. And you know that they would perform with the 
group, is that right?
    Mr. Bulger. Roger did, yes.
    Mr. Meehan. Did you ever hire them to perform at events?
    Mr. Bulger. Oh, I am sure I did. Yes, I know who they are.
    Mr. Meehan. Were they any good?
    Mr. Bulger. No, I would not recommend them. Well, I used to 
try them. Do you want to hear that? I used to say it is a nice 
group. They hold themselves out as volunteers to troubles 3,000 
miles away and they are here.
    Mr. Meehan. Are you aware that Roger and Bill Driscoll own 
the Coconut Beach Inn?
    Mr. Bulger. No. I don't know that place. I have never heard 
of it. Coconut Beach?
    Mr. Meehan. Coconut Beach Inn. Have you been to St. 
Vincent?
    Mr. Bulger. Pardon me?
    Mr. Meehan. Have you ever been to St. Vincent in the 
Caribbean?
    Mr. Bulger. No. I know another St. Vincent's.
    Mr. Meehan. Thanks, Mr. Chairman. That is it for now.
    Mr. Tierney. Mr. Delahunt.
    Mr. Delahunt. Yes. Thank you, Mr. Chairman.
    You mentioned Theresa Stanley. I am sure you are curious 
about the whereabouts of your brother. Have you ever had a 
conversation with Theresa Stanley since she returned to Boston, 
after your brother dropped her off?
    Mr. Bulger. I saw her at a couple of events, and I have 
seen her a few times, but she becomes very silent, very quiet 
about things. I don't bring up those subjects, but even the 
chance meetings seem to be subdued. But she is very polite.
    Mr. Delahunt. But you have had no conversation with her 
about your brother.
    Mr. Bulger. No.
    Mr. Delahunt. I just want to name some FBI officials and 
determine whether you know them, and, if you do, how you know 
them. A James Ring, Jim Ring.
    Mr. Bulger. Jim Ring. I do know that name, and I think I 
have met him.
    Mr. Delahunt. Do you remember where you met him?
    Mr. Bulger. No. I don't remember meeting him at this 
alleged chance meeting at Mary Flemmi's home, but that is where 
I have seen his name. I don't remember that, I told you, but I 
think it is 20 years.
    Mr. Delahunt. You are familiar, though, with his testimony 
regarding your appearance at the Flemmi household while he was 
there with John Connolly and your brother and Steven Flemmi?
    Mr. Bulger. Yes.
    Mr. Delahunt. And you have no memory.
    Mr. Bulger. No. I could not have seen that. I never saw 
that.
    Mr. Delahunt. Have you ever met a Dennis O'Callaghan?
    Mr. Bulger. I don't know that I have. I know the name.
    Mr. Delahunt. He was a former assistant special agent in 
charge.
    Mr. Bulger. Yes. I know the name.
    Mr. Delahunt. But you don't remember meeting him.
    Mr. Bulger. I don't remember meeting him.
    Mr. Delahunt. Are you aware that there is testimony that 
was given in the Federal court that it was Dennis O'Callaghan 
that provided John Connolly information relative to the 
indictment of your brother?
    Mr. Bulger. I didn't know that, no.
    Mr. Delahunt. Do you know this name, a Richard Baker? Would 
be a special agent.
    Mr. Bulger. Richard Baker? No.
    Mr. Delahunt. There were reports that pursuant to a 
recommendation or instructions from John Connolly, he purchased 
liquor from the south Boston Liquor Mart that purportedly was 
owned by your brother after the incident that was just related 
by Mr. Meehan. But you don't know a Richard Baker?
    Mr. Bulger. No. And Richard Baker is an FBI agent?
    Mr. Delahunt. Special agent.
    Mr. Bulger. I don't know him, no.
    Mr. Delahunt. James Ahearn?
    Mr. Bulger. I know that name.
    Mr. Delahunt. He was a former special agent in charge in 
Boston.
    Mr. Bulger. Right. I am sure I must have met him at some 
point, but I don't recall him, or I don't recall ever having 
any conversation with him. But I think he was very much in the 
news.
    Mr. Delahunt. Yes, he was very much in the news. Do you 
remember a John Clorrity, Jack Clorrity?
    Mr. Bulger. Yes, I do. I think I know his sister.
    Mr. Delahunt. You know his sister?
    Mr. Bulger. Yes.
    Mr. Delahunt. But you know Jack Clorrity?
    Mr. Bulger. If he is from West Roxbury, then I think I know 
him.
    Mr. Delahunt. Do you remember being, again, a master of 
ceremonies at his retirement party?
    Mr. Bulger. Jack Clorrity's? No, I don't.
    Mr. Delahunt. You don't?
    Mr. Bulger. I could have done it, though. I did it all the 
time.
    Mr. Delahunt. But you don't have a memory.
    Mr. Bulger. I don't have a specific memory. If you told me 
when and where it took place, I might.
    Mr. Delahunt. If you give me a moment.
    Mr. Bulger. Sure.
    Mr. Delahunt. I think it was June 1989.
    Mr. Bulger. And the place?
    Mr. Delahunt. I don't know the name of the place.
    Mr. Bulger. I could very well have been. I know his sister, 
she worked at the State House.
    Mr. Delahunt. Her name was Hagerty, as I remember.
    Mr. Bulger. Yes. And she always mentioned her brother, as 
though we knew each other.
    Mr. Delahunt. Others have indicated that on multiple 
occasions John Connolly would introduce you, either at your 
office or elsewhere, to members of the FBI?
    Mr. Bulger. At his house?
    Mr. Delahunt. Not at his house, no. I'm sorry, either at 
your office.
    Mr. Bulger. That is how I remember him coming through; 
someone new was in town and would you like to say hello, and I 
saw them. But that is very common, lots of people did it; the 
place was open for traffic all of the time.
    Mr. Delahunt. I understand. But, you know, others have 
asked the frequency. I am not asking you.
    Mr. Bulger. It wasn't very frequent. I am sure there were a 
couple times a year. That would be the way I would think of it.
    Mr. Delahunt. But one inference could be drawn that Mr. 
Connolly enhanced his own status by bringing FBI officials in 
to meet the president of the Massachusetts Senate. That is an 
inference that could be drawn. Would you agree?
    Mr. Bulger. Sure. We assume that anyone who comes through 
is doing it either for a social purpose or a self-promotion 
purpose. But I think it happens to all of us in public office.
    Mr. Delahunt. Again, I am not interested in the facts of 
the 75 State Street, because you have testified here that the 
statements that you provided to the Federal prosecutors were 
the truth. So I don't think there is any need for us, but by 
incorporation, you know, those statements could be made part of 
our record, and I would recommend to the Chair that they be 
made part of our record.
    Mr. Bulger. I hope you will consider carefully, if I may, 
the affidavit that I submitted from Harold Brown. Harold Brown 
seeks to set the record straight, and he uses the word that I 
was totally innocent, that he doesn't ever intend to accuse me 
of anything.
    Mr. Delahunt. I understand that, Mr. Bulger, and I am 
confident that this committee will consider that. But if the 
Chair would honor my request, if we can secure the statements 
of Mr. Bulger.
    Mr. Tierney. Without objection.
    Mr. Delahunt. Thank you.
    Let me ask you this question, Mr. Bulger. Who represented 
you during the 75 State Street?
    Mr. Bulger. Bob Popeo.
    Mr. Delahunt. Bob Popeo represented you?
    Mr. Bulger. Yes.
    Mr. Delahunt. Did he ever raise with you an issue regarding 
a request or a suggestion by the Federal Government that would 
entail that investigation being conducted by another U.S. 
Attorney's Office or by a different office of the FBI?
    Mr. Bulger. I never heard of that. By the way, it had been 
already investigated.
    Mr. Delahunt. I understand that.
    Mr. Bulger. And then it went to a grand jury and they said 
no.
    Mr. Delahunt. I understand that all.
    Mr. Bulger. And you know there are no accusers.
    Mr. Delahunt. Well, let me explain the reason, again, why I 
am posing these questions, is that your brother was an 
informant for the FBI.
    Mr. Bulger. Right.
    Mr. Delahunt. The individuals that were either involved in 
the investigation of 75 State Street, or even were in the 
periphery, were fully aware of your brother's status as an 
informant.
    I was doing some reading last night, and in a story that 
was dated December 9, 1988, it appeared in the Globe, 
indicating that the FBI had called off an investigation of some 
2\1/2\ years into the matter involving 75 State Street. And I 
am quoting now: ``FBI Agent John Clorrity yesterday confirmed 
that there was a formal investigation, started in March 1986. 
This investigation failed to develop any evidence of a 
violation within the jurisdiction of the FBI.'' In December 
1988, as you have indicated, the investigation was closed.
    Let me just interpose a question here. At that point in 
time, it has been reported that you had never been interviewed 
by the FBI. Do you have a memory of being interviewed by the 
FBI as it related to 75 State Street?
    Mr. Bulger. No, of course not.
    Mr. Delahunt. Thank you. But they did go ahead and made an 
announcement closing the investigation.
    Mr. Bulger. I think that is exactly the same time as the 
grand jury spoke. I think it is the same time.
    Mr. Delahunt. Now, let me try to refresh your memory. The 
grand jury was subsequent to the announcement by the FBI, and 
obviously it was John Clorrity who made that particular 
announcement.
    Mr. Bulger. I never knew there was any kind of an 
investigation going on. I didn't.
    Mr. Delahunt. I am not in any way suggesting that you did. 
What I am saying, Mr. Bulger, is that the Federal Bureau of 
Investigation in Boston made an announcement that they were 
closing an investigation of some 2\1/2\ years that you were 
unaware of, and then made that announcement. That doesn't 
happen very often with the FBI. In fact, back in December I 
asked a question of the head of the Organized Crimes Strike 
Force and the U.S. Attorney, Mr. O'Sullivan, regarding his 
statement after the grand jury concluded its work, and he made 
the announcement that it was not even a close call. And I posed 
the question to Mr. O'Sullivan, in your 16 years as a Federal 
prosecutor, when did you ever make an announcement that it was 
not a close call or that someone was vindicated.
    Now, I am not suggesting that is a policy that should be 
rejected out of hand, but what I am saying, it is very 
exceptional policy. And his response to me was that it was very 
rare, and he could only think of, his words were, maybe one 
other time. And I requested that he, as he left, to go reflect 
and submit to the committee a letter outlining that other time, 
and I don't think we have ever received that.
    Have we, Mr. Chairman?
    Mr. Tierney. Not that I know of.
    Mr. Delahunt. No.
    Mr. Burton. Is the gentleman about to conclude his 
questions? Do you have more questions, sir?
    Mr. Delahunt. I do.
    Mr. Burton. No, go ahead. If there is continuity of 
questions we want to make sure we get completed. Go ahead.
    Mr. Delahunt. I will do whatever the Chair recommends.
    And, again, it was Mr. O'Sullivan that reopened that case, 
supervised that investigation, and presented evidence to the 
grand jury which, in a public statement, he exonerated you. And 
I think his words were no close call.
    But what I find interesting here is we have Morris, John 
Morris, whom you have made a serious allegation about here 
today, who is in charge of that investigation; Mr. Ahearn, who 
was the special agent in charge of the Boston office, who 
clearly was not only aware of the informant status of your 
brother, but would sign off on any statement that was made in 
the name of the FBI, and also would have supervised Mr. Morris; 
we have Mr. Clorrity, who was the former partner of John 
Connolly; and, in addition to that, we have Mr. O'Sullivan, who 
exonerated you. And then we have testimony from Morris that he 
was approached by Connolly, and Connolly sought his advice as 
to whether you should testify in front of the grand jury.
    Mr. Bulger. It was a meeting.
    Mr. Delahunt. There was a meeting.
    Mr. Bulger. That is what it was. It was my own request. I 
asked Popeo is there some way I could talk to these people. So 
it was not the grand jury, Congressman, it was a meeting with 
the prosecutors.
    Mr. Delahunt. No, this is prior to that, Mr. Bulger. There 
was an approach made by John Connolly to John Morris, and this 
has been testimony, you know, in the Federal court.
    Mr. Bulger. I wasn't aware of that, then.
    Mr. Delahunt. And what I am trying to do is clarify the 
record, because one could draw an inference that you requested 
John Connolly to make the approach to Morris.
    Mr. Bulger. Be absolutely certain. I never made such a 
request. Never.
    Mr. Delahunt. But what I am trying to relate to you is the 
testimony of John Morris that was never refuted by Mr. 
Connolly. Now, many things are said in all of our names that we 
are unaware of.
    Mr. Bulger. That is true.
    Mr. Delahunt. But again, I guess the bottom line for me is 
that the Federal authorities, having knowledge that your 
brother was an informant, and that you were either the subject 
of a target of an investigation, concluded that it was fine for 
those that I mentioned to proceed with the investigation into 
75 State Street, as opposed to referring the matter, like 
occurs frequently, to either another FBI office or to another 
U.S. Attorney's Office. What I am suggesting is that I have 
reservations as to whether that is a very good practice, 
particularly when, several months after you are cleared, that 
these same FBI officials invite you to be a master of 
ceremonies for a departing member of the FBI. And, again, I am 
not leveling criticism at you, Mr. Bulger. What I am suggesting 
is that in terms of appearances and the confidence of people in 
our justice system, that just doesn't, as the former Governor 
Weld I think once said, that doesn't pass the smell test.
    Mr. Bulger. May I just say a couple of things? First of 
all, as to the publicity, it was a Boston Globe, I would call 
it a concoction, and it ran from that time, about December 8, 
1988, and it ran right to March 31. I remember it well because 
it was a daily, daily drumbeat upon me. And ultimately Bob 
Popeo asked the people who were conducting this thing, please, 
there has never been so much publicity, if one were to go back 
and look at the publicity during that period, and he, 
therefore, asked if you would please just make a public 
announcement so that my own opportunity to be made whole would 
occur.
    Another thing about being a master of ceremonies, I have to 
tell you I bet I was a master of ceremonies for more State 
police than I have been for any FBI. I just did it all the 
time. It seemed to go OK. I am just telling you it was a 
constant problem for me because people would so frequently ask 
me to do it, and it becomes difficult not to do so. Elliott 
Richardson, would you please, he said, do it, and I did it with 
Art Buchwald, and we retired his debt, and he was ever 
grateful. But Elliott Richardson. I mean, it was everyone, and 
I didn't know how to turn it off, and I did it all of the time. 
It is one of the things in my opening statement I don't 
mention, but the fact is these offices, they keep you very, 
very busy. So there is nothing sinister about my having agreed 
to be.
    Mr. Delahunt. Mr. Bulger, let me be really clear. I am not 
even suggesting sinister. What I am suggesting is 
responsibility of the office.
    Mr. Bulger. My office.
    Mr. Delahunt. No, not your office. The office of the FBI.
    Mr. Bulger. Oh, OK.
    Mr. Delahunt. Because they were aware of the informant 
status of your brother.
    Mr. Bulger. Right.
    Mr. Delahunt. They knew that your brother was an informant 
for the Federal Bureau of Investigation, and they proceeded to 
conduct an investigation into the matter involving 75 State 
Street. And I just say the appropriate action by the Government 
should have been to refer that matter to another U.S. 
Attorney's Office, to another office of the FBI.
    And far be it from me, Mr. Bulger, to defend the Globe, but 
they were correct in the information they provided relative to 
the status of your brother as an informant. My understanding is 
it was Mr. Morris that was the source of that particular 
information. But that information did lead to, I dare say, the 
Wolfe hearings, the hearing of this particular committee that 
have really given us some insights into what was occurring with 
the Department of Justice, not just in Boston, but, by 
implication, elsewhere.
    Mr. Bulger. No, I appreciate that, Congressman. I can't 
even be in disagreement with you on it, not at all.
    Mr. Meehan. Mr Chairman, before we get off this round, can 
I ask one question on the subject? I want to get off this 
Coconut Grove Inn, and I didn't ask the last question, I got a 
little side-tracked with the evaluation of the Irish Volunteers 
and how they were. But I do want to ask this question.
    You indicated that you knew Roger and James Concannon. 
There is a story in the Herald today. I don't suppose you have 
had an opportunity to read the Herald yet.
    Mr. Bulger. I don't ever read it.
    Mr. Meehan. I just want to ask you this. You had indicated 
you knew Roger and James. Have you ever spoken to them about 
your brother?
    Mr. Bulger. To whom?
    Mr. Meehan. Roger Concannon, James Concannon, or Bill 
Driscoll.
    Mr. Bulger. I don't think I have ever spoken to Roger 
Concannon about my brother. I see Jim Concannon so frequently 
that I could very well have.
    Mr. Meehan. So you could have. Any idea what the content 
would have been with James?
    Mr. Bulger. Jim is a contemporary, and I see him once a 
week, and he is usually very supportive and that sort of thing, 
so I would probably be just giving him some assurance that we 
are doing OK. And I can't remember discussing my brother with 
him, though, Jim. Jim is the probation officer.
    Mr. Meehan. So you never had a conversation with them about 
your brother potentially being at the Coconut Grove Inn, or 
anything of that nature.
    Mr. Bulger. The Coconut Grove Inn? I don't know where that 
is. Where is that? Do you mind me asking that?
    Mr. Meehan. Well, yes. It is in St. Vincent, the Caribbean, 
apparently. But I just asked the question because there was a 
piece today, and I just thought I would finish that off.
    Thank you, Mr. Chairman.
    Chairman Tom Davis [presiding]. Thank you very much. Time 
on this side has expired.
    The gentleman from Indiana is recognized.
    Mr. Burton. I just have a few questions, Mr. Chairman, to 
kind of wrap up.
    Stevie Flemmi, were you aware that he had extensive real 
estate holdings?
    Mr. Bulger. I think only after he was in trouble, indicted. 
I read it in the paper. I was not aware of it before that.
    Mr. Burton. Did you ever talk to his mother about him and 
what he did for a living, or anything like that?
    Mr. Bulger. No. His mother was just exactly next door to 
me, just a few feet away. She is a very fine lady, Congressman, 
and she was seldom visited. She didn't have anybody after her 
husband died, and she would be, I think, kind of waiting when I 
came home or when I was going out.
    Mr. Burton. I understand. That is laudable. Was he like 
your brother? I mean, did you have any idea what he did for a 
living?
    Mr. Bulger. No. I thought he had a restaurant somewhere. 
And also I thought he had a club or something like that, some 
club.
    Mr. Burton. Did you ever hear any rumors or anything that 
would indicate your brother was involved in some murders?
    Mr. Bulger. Someplace I saw it in the paper. I didn't 
believe it, but I did see it someplace, and it was in the 
1980's.
    Mr. Burton. Now, you were called in January, I think, of 
1995 and he left around Christmas in 1994.
    Mr. Bulger. Right.
    Mr. Burton. Can you give us a list of all the people that 
passed along information to you about Whitey, and where he was 
and what he was doing?
    Mr. Bulger. Well, I have done it for other authorities.
    Mr. Burton. Well, we would like to have it here for the 
record, if you could give it to us.
    Mr. Bulger. OK.
    Mr. Burton. I think it is important to know how many times 
he contacted people.
    Mr. Bulger. I think Theresa Stanley was the source of some 
communications, because she had been with him and then was 
dropped off.
    Mr. Burton. That is the one whose daughter got the job at 
the convention center.
    Mr. Bulger. Right.
    Mr. Burton. Yes.
    Mr. Bulger. I think, by the way, that youngster had worked 
at the convention center long before that. She is a very good 
employee, and she was savaged by the local press about being 
there and she left, she went someplace else.
    Who else? I think Mrs. Caputo, who I haven't spoken to in 
years, but I think she may have received a call. There is a 
gentleman that I used to meet, and I told the police about 
this, he is a retired policeman and he told me that he had seen 
my brother in Maine and decided not to arrest him.
    Mr. Burton. Now, did they pass on to you anything 
specifically that Whitey said to them?
    Mr. Bulger. No.
    Mr. Burton. He didn't say tell Billy I am fine.
    Mr. Bulger. No.
    Mr. Burton. Or say Merry Christmas or anything?
    Mr. Bulger. When I was in public office, I listened to 
everyone, frequently knew better than to take them very 
seriously. He would fall into that category. Very nice fellow, 
but he could tell a wonderful story. And that happens. And 
because I just didn't go about saying to people you are fibbing 
and you are telling the truth, because they are all voting.
    Mr. Burton. Were there any other people in that list?
    Mr. Bulger. I don't know. Bear in mind, this ended some 8 
years ago. It happened then and then nobody has said anything 
in years and years.
    Mr. Burton. So you don't recall anybody else other than 
those you have mentioned?
    Mr. Bulger. No.
    Mr. Burton. OK. Now, I am going to be a little redundant, 
but I want to make sure we have got this for the record. When 
did the FBI first interview you after your brother fled Boston?
    Mr. Bulger. Well, I am informed now that they said they 
came to my house or something, and if they say that, then they 
probably came.
    Mr. Burton. Well, the information we have on that is that 
about 4 days after he left there was a knock on your door, you 
answered the door, they asked you a question, and you were 
supposed to have said, I don't have anything to say, and you 
just shut the door. You don't recall that?
    Mr. Bulger. I don't remember it, you know, but my sense is 
if I did speak to them, I would have handled it much more 
diplomatically and I would say I have a lawyer and I would give 
them his name.
    Mr. Burton. Well, what other interviews were there?
    Mr. Bulger. With me or with other members of the family?
    Mr. Burton. With you.
    Mr. Bulger. No, I don't think there were other interviews, 
no.
    Mr. Burton. OK. Were you concerned that your Senate office 
was bugged?
    Mr. Bulger. No, I wasn't.
    Mr. Burton. Did you ever ask anyone to conduct a sweep of 
your office to determine whether it was bugged?
    Mr. Bulger. I accepted the routine sweep of the office. 
There was someone from one of the police departments of the 
State.
    Mr. Burton. Suffolk County District Attorney's equipment 
was used?
    Mr. Bulger. Something like that. I think they would go 
through all of the Constitutional offices, and if you wanted to 
do it, fine. I think I said yes to it.
    Mr. Burton. That was a common practice, for them to sweep 
your office?
    Mr. Bulger. No. But it probably happened once or twice.
    Mr. Burton. Did you ask them to sweep your office?
    Mr. Bulger. No. I never went looking for anyone to do that, 
never.
    Mr. Burton. You didn't say, you know, I would like to have 
my office swept?
    Mr. Bulger. Oh, please, no. I didn't, no. I didn't say, oh, 
please come and do it, no. I didn't do that.
    Mr. Burton. Well, how did it happen?
    Mr. Bulger. I think that they called, the people who were 
doing it.
    Mr. Burton. But they initiated the call.
    Mr. Bulger. I believe so. I think so. Again, it is years 
and years.
    Mr. Burton. If you were concerned about your office being 
bugged, it would seem to me you would call and say, look, I 
would like for you to sweep my office.
    Mr. Bulger. Sure.
    Mr. Burton. Of if they just said, you know, we would like 
to come by and check your office for bugs. You would know the 
difference.
    Mr. Bulger. I don't think I ever felt that it was 
necessary.
    Mr. Burton. The only reason I ask that is you went to this 
other house to get that call from Whitey, and I just wondered 
if there was any correlation between that, having your office 
swept.
    Mr. Bulger. No.
    Mr. Burton. There wasn't?
    Mr. Bulger. No.
    Mr. Burton. And you did not ask them to sweep your office.
    Mr. Bulger. I don't think so.
    Mr. Burton. No, no, you did not ask them to sweep your 
office. You didn't think so. Just a yes or no. Did you ask them 
to sweep your office?
    Mr. Bulger. No.
    Mr. Burton. Thank you. OK, I just have a few more 
questions. In your book you showed a great deal of contempt for 
informants. And you have heard that your brother was an 
informant. Refresh my memory, how did you find out that he was 
an informant or alleged to be an informant?
    Mr. Bulger. The very first was in this piece in the Globe 
in the late 1980's. That is the first time I think that, you 
know, my curiosity was piqued about this.
    Mr. Burton. What steps did you take to find out if it was 
true?
    Mr. Bulger. I didn't take any steps.
    Mr. Burton. Did you talk to your brother about rumors that 
he was an informant?
    Mr. Bulger. No, I don't think so. I don't think so. My 
brother is an older brother, Congressman. He didn't come to me 
looking for advice.
    Mr. Burton. Yes, but it seems to me you would remember if 
you said are you an informant. I mean, that is a pretty 
significant thing; I mean, are you talking to the cops. You 
don't remember doing that?
    Mr. Bulger. I don't think so, no.
    Mr. Burton. But you can't say categorically you didn't.
    Mr. Bulger. I may have said it if I saw him, but, you know, 
I doubt it.
    Mr. Burton. But you were curious about the truth of the 
Globe article.
    Mr. Bulger. The truth of it was not as interesting to me as 
the other aspect that I have described.
    Mr. Burton. Did you talk to John Connolly about your 
brother and whether he was a Government informant?
    Mr. Bulger. No.
    Mr. Burton. Did you talk to any friends or aides about the 
possibility that he was an informant?
    Mr. Bulger. I don't think so.
    Mr. Burton. You didn't talk to anybody else that you 
recall.
    Mr. Bulger. No. I know what I said about it.
    Mr. Burton. I just have one more thing, Mr. Chairman, and 
that is I am very troubled by this Boston Herald article, not 
because of you, Mr. Bulger, but because how can a newspaper 
find out all this information and the FBI hasn't done anything 
about it. It just mystifies me. It says, according to one 
policeman, these two guys didn't have two nickels to rub 
together, and yet they paid $135,000 at the outset, plus 
another $27,000 for that hotel to buy up controlling interest 
in it, and that Whitey Bulger allegedly was down there and had 
the top two floors, and they have talked to people down there 
that said that was the case. And if that is the case and the 
Herald can find out about it, why in the world can't the FBI? 
So I don't know if we have any U.S. Attorneys around, but, 
guys, that kind of throws a little mud on your ability to get 1 
of the 10 most wanted criminals in the country, when a 
newspaper finds out about it and goes into great detail.
    With that, I yield back my time, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    Are you doing OK? I was going to recognize counsel. Do you 
need a break, Mr. Bulger, or are you OK?
    Mr. Bulger. I am doing fine.
    Chairman Tom Davis. All right.
    Let me recognize counsel for questions.
    Mr. Ausbrook. Thank you, Mr. Chairman.
    I just want to ask a few followup questions of some things 
that have been raised today. After your brother returned to 
Boston from Alcatraz, you tried to get him a job, isn't that 
right?
    Mr. Bulger. Yes.
    Mr. Ausbrook. And what job was that?
    Mr. Bulger. I got him a job in the Suffolk County 
Courthouse, janitorial.
    Mr. Ausbrook. And how long did he stay in that job?
    Mr. Bulger. Some months, but not very long.
    Mr. Ausbrook. And do you know what he started to do after 
that?
    Mr. Bulger. Do I know what?
    Mr. Ausbrook. After he left that job, do you know what he 
started to do?
    Mr. Bulger. I think he was with a company that was doing 
billboard advertising. I think that is where he went next.
    Mr. Ausbrook. And how long was he there?
    Mr. Bulger. Excuse me?
    Mr. Ausbrook. How long was he there?
    Mr. Bulger. I don't know, several years.
    Mr. Ausbrook. Was that a legitimate job or was that 
something that he didn't really have to show up for?
    Mr. Bulger. Well, I had assumed it was.
    Mr. Ausbrook. When did you come to realize that your 
brother was engaged in criminal activity?
    Mr. Bulger. I am uncertain of that. Very uncertain of that.
    Mr. Ausbrook. Can you make a rough estimate of when you 
might have figured out that he was engaged in criminal 
activity, loan-sharking, numbers, other activities?
    Mr. Bulger. Could I make a guess?
    Mr. Ausbrook. Yes.
    Mr. Bulger. It must be in the 1970's sometime.
    Mr. Ausbrook. So I think you said that you certainly could 
have asked John Connolly to look after him at some point, isn't 
that true? Is that what you testified to?
    Mr. Bulger. Excuse me. This comes from a newspaper story.
    Mr. Ausbrook. Well, it actually comes from John Martorano's 
testimony.
    Mr. Bulger. Yes.
    Mr. Ausbrook. And so he testified that you asked John 
Connolly to look after my brother.
    Mr. Bulger. He said that?
    Mr. Ausbrook. Yes. To keep an eye on him, keep him out of 
trouble, something like that.
    Mr. Bulger. Yes. That I said that to whom, to John 
Connolly?
    Mr. Ausbrook. To John Connolly about your brother Whitey.
    Mr. Bulger. And was Mr. Martorano there? Was he present?
    Mr. Ausbrook. No, I don't think he actually was there, but 
I think he understood that you had done that at some point.
    Mr. Bulger. Well, if I ever said something like influence 
him to stay on the straight and narrow, if that is what is 
meant by it, I could well have said it. But the other 
construction of my words is wrong. I don't know anything about 
what Mr. Martorano has heard, and I forget who it was that told 
him of it.
    Mr. Ausbrook. But do you think you would have said that at 
a time when knowing that John Connolly was an FBI agent and 
that your brother was engaged in criminal activity?
    Mr. Bulger. Oh, no. I mean, I didn't intend that at all. I 
think it is a pretty innocent comment, if in fact I made it. I 
have no recollection, but I don't want to quarrel with that 
source.
    Mr. Ausbrook. Maybe it is something you would say to a lot 
of people, you know, keep an eye on somebody, keep him out of 
trouble. It is not an unusual thing to say to somebody, is it?
    Mr. Bulger. You think it is unusual?
    Mr. Ausbrook. No, I am asking you if you think it is 
unusual.
    Mr. Bulger. I don't think it is so unusual.
    Mr. Ausbrook. But in the context of an FBI agent and a 
person involved in crime, that might be an unusual thing to 
say.
    Mr. Bulger. I suppose it could be, but it is not intended 
as it is purported.
    Mr. Ausbrook. Let me ask you a few questions about Kevin 
Weeks. What is your relationship with Kevin Weeks?
    Mr. Bulger. I just know him from seeing him around. His 
brother was a friend of mine, or at least I knew him from 
campaigning. He lives in Chicago.
    Mr. Ausbrook. Kevin Weeks seems to be a person who would 
come to you with information about your brother. Is that what 
he would do?
    Mr. Bulger. On several occasions he would stop by I think 
at the end of a day he felt like talking and not going home or 
something, I guess.
    Mr. Ausbrook. Did you have any sort of special relationship 
with Kevin Weeks whereby you asked him to provide you with 
information about your brother?
    Mr. Bulger. No.
    Mr. Ausbrook. Was there any special treatment that Kevin 
Weeks was afforded in getting access to you?
    Mr. Bulger. No. I think I was inflicting my advice upon 
him. He seems very young to me. His brother was in Chicago, and 
I know I told him that he should go to Chicago and that he 
should take his wife and family and go to Chicago. That is what 
I would tell him.
    Mr. Ausbrook. So if he made a phone call to your office, 
would it automatically be put through?
    Mr. Bulger. I don't think so. Somebody would talk to him. I 
don't think he ever made a phone call, ever, to my office.
    Mr. Ausbrook. What about visiting your office? If he 
visited your office, would he automatically see you?
    Mr. Bulger. I don't recall ever seeing him there.
    Mr. Ausbrook. Where would you see him?
    Mr. Bulger. He would stop by the house. And he would come 
through unannounced.
    Mr. Ausbrook. Let me ask you some questions about your 
relationship with John Connolly. Do you recall gatherings on 
Friday nights at something called the Bayside Club?
    Mr. Bulger. No. I know the Bayside Club, but there were no 
big gatherings that I attended.
    Mr. Ausbrook. Any kind of gatherings? Did you have a 
regular gathering of some sort on Friday nights anywhere?
    Mr. Bulger. No. What years is this?
    Mr. Ausbrook. In the early 1970's.
    Mr. Bulger. In the early 1970's? I don't think so.
    Mr. Ausbrook. OK. In your last conversation with your 
brother, did you discuss at all any means of further 
communication with him?
    Mr. Bulger. No.
    Mr. Ausbrook. Did he say he would call you again?
    Mr. Bulger. No. There was no discussion of it. It was the 
first few weeks. I thought the situation was temporary.
    Mr. Ausbrook. Let me ask you about your role as Senate 
president and this outside budget item that keeps coming up. 
Have you been involved in other outside budget items?
    Mr. Bulger. I don't know. I probably must have at different 
times.
    Mr. Ausbrook. Do you have any formal responsibility for 
outside budget items?
    Mr. Bulger. No.
    Mr. Ausbrook. Is there a practice in the State legislature 
that the leadership, as Mr. Meehan has suggested, that the 
leadership has to sign off on outside budget items?
    Mr. Bulger. No. The budget items come up as amendments 
outside section, and then there is an up or down vote on them 
by the body. But they come from all directions; they come from 
the committee on the judiciary, the committee on health, 
committee on insurance and taxation.
    Mr. Ausbrook. And can they be voted on without the approval 
of the leadership?
    Mr. Bulger. Oh, sure.
    Mr. Ausbrook. Let us go to the Billy Johnson incident. Did 
you ever receive a copy of the incident report?
    Mr. Bulger. No.
    Mr. Ausbrook. Now, you mentioned that you also had some 
contact with people who say they have heard from your brother, 
Kathy McDonough, Caputo maybe.
    Mr. Bulger. Yes. I don't think I spoke to those people, but 
I think they were the source of it.
    Mr. Ausbrook. Did you tell this information to the grand 
jury, that you had contact with those people?
    Mr. Bulger. I think I did. Well, I told them I was hearing 
it, and if it were attributed to someone, I think it might be 
such people as that.
    Mr. Ausbrook. And did you give them their names?
    Mr. Bulger. Yes, I think so.
    Mr. Ausbrook. Did you ever tell the FBI that you had heard 
that these people might have had contact with your brother?
    Mr. Bulger. No.
    Mr. Ausbrook. Do you have any information as to whether 
Federal investigators have contacted any of these people?
    Mr. Bulger. Oh, yes, there is evidence of that.
    Mr. Ausbrook. And how do you know that the FBI has 
contacted them?
    Mr. Bulger. Because the young lady, Kathy McDonough, ended 
up with a perjury charge against her, and, I don't know, 
Theresa, I have seen her picture in the paper and testifying at 
court. So they were all contacted.
    Mr. Ausbrook. And finally let me just ask you a little bit 
about whether you ever saw John Connolly in the company of your 
brother.
    Mr. Bulger. Never. I don't believe I ever saw that. I just 
never saw that.
    Mr. Ausbrook. Would that have surprised you to see that?
    Mr. Bulger. It would have.
    Mr. Ausbrook. Did you ever see your brother in the company 
of any other Federal law enforcement officials?
    Mr. Bulger. No, not at all.
    Mr. Ausbrook. James Ring, John Morris?
    Mr. Bulger. No.
    Mr. Ausbrook. How about did you ever see Federal law 
enforcement officials going to Stephen Flemmi's mother's house?
    Mr. Bulger. No.
    Mr. Ausbrook. Those dinners were apparently more than just 
one.
    Mr. Bulger. Right.
    Mr. Ausbrook. But you never saw anybody going in and out of 
that house?
    Mr. Bulger. Well, of course I have seen many people going 
in and out.
    Mr. Ausbrook. But I mean the FBI agents with whom you might 
be familiar.
    Mr. Bulger. No, never. I can recall her family coming, 
because she would be inviting everybody. They came from 
Lawrence, MA, and they would come. And she loved to cook for 
them, and that would be a big event.
    Mr. Ausbrook. So you have no knowledge of what was in that 
report.
    Mr. Bulger. Absolutely no knowledge of it. I never knew his 
name until years later; only because the press was writing 
about his problems.
    Mr. Ausbrook. Was it your earlier testimony that people did 
suggest to you that they had been threatened by your brother?
    Mr. Bulger. I have a sense that I would hear it not from 
the individual, but I would hear people say, you know, your 
brother frightened someone to death or something. Sometimes I 
wouldn't see him for 6, 7 months at a time, but if I did, I 
would say, please, I hope that is not true. That is all I could 
say, is I hope it is not true.
    Mr. Ausbrook. Were these people involved in politics, or 
were they also other people?
    Mr. Bulger. I don't know. I don't know anyone who has been 
a candidate or anything.
    Mr. Ausbrook. I am not sure I understood you. When you did 
see your brother and you heard about these threats, did you ask 
him to try to stop that?
    Mr. Bulger. I would say I hope that is not true. There is 
no sense in getting into an argument. He would say, I think, it 
is not true. But rather than argue about it, I would express my 
consternation with that kind of behavior.
    Mr. Ausbrook. So did he ever talk to you not just about the 
threats, but about any of his other activity that was illegal?
    Mr. Bulger. No, he didn't.
    Mr. Burton. Would counsel yield to me?
    Chairman Tom Davis. The gentleman from Indiana.
    Mr. Burton. These people who you had heard through the 
grapevine were threatened, do you know who any of them were?
    Mr. Bulger. I suddenly remember one.
    Mr. Burton. How many were there, that you know of?
    Mr. Bulger. I wouldn't hear it from them, but, as I say, 
indirectly.
    Mr. Burton. I understand. If somebody said a friend of mine 
was scared to death by Whitey, they obviously would tell you 
their names. So we would like to know the names of the people 
that were threatened.
    Mr. Bulger. Oh, but not necessarily. He would say he is 
arguing with someone about you, me, taking my part, he thinks. 
I do recall one.
    Mr. Burton. You only recall one?
    Mr. Bulger. This, by the way, happened many years ago; we 
are back to 25 years or something. And it was in 1970, and one 
of the people running against me, someone in his camp there 
called me and said, boy, you brother is angry and he is 
sounding off about things. And so I drove up the street and I 
found him, and I said, you know, this is madness, don't do 
that.
    Mr. Burton. Well, who was this person?
    Mr. Bulger. The candidate was a fellow named Patrick 
Loftus.
    Mr. Burton. Patrick Loftus?
    Mr. Bulger. Yes.
    Mr. Burton. OK, now, were there any others like that?
    Mr. Bulger. No. That is the only one I pin down like that. 
I had forgotten about it; it was 30 years.
    Mr. Burton. Well, I mean, it was a political opponent, and 
you had a very long and, according to what I have heard, a 
pretty distinguished career.
    Mr. Bulger. Right.
    Mr. Burton. You obviously had other political opponents. 
Did Whitey threaten any of the others that you know of?
    Mr. Bulger. No.
    Mr. Burton. You said that from time to time you would hear 
this.
    Mr. Bulger. I would hear of him arguing. I think he 
probably thought he was doing it for me. And I think ultimately 
I am sure around that time I made it very clear to him that I 
did not want that, and please don't do it.
    Mr. Burton. But you can't recall any other names of people 
that were threatened?
    Mr. Bulger. No. I don't think they were big incidents. It 
was just his displeasure, and they were concerned about it. I 
know that night I went and found him, and I think at that time 
he said, I assure you I will never be near any of this again. 
The political thing, I suppose that is what was intended. I had 
forgotten about that incident, but it comes to mind now, and it 
was in 1970.
    Mr. Burton. But you don't recall any after that time?
    Mr. Bulger. I don't think so. I am sure, you know, he would 
be willing to argue, but none ever comes to my mind at this 
moment.
    Mr. Burton. One last question. When the majority leader of 
the Senate, who was the heir apparent to becoming the pro tem, 
who was indicted and convicted, who you said was a friend of 
yours, and is a friend of yours, that happened just prior to 
you becoming president of the Senate, president pro tem, didn't 
it?
    Mr. Bulger. No.
    Mr. Burton. Can you give me the timeframe on that?
    Mr. Bulger. Well, it was in the 1970's that all of that 
occurred. And then I became the president in the middle of 
1978. The president of the Senate at that time was the one who 
would decide who would be the majority leader, and he appointed 
me.
    Mr. Burton. So you were then in the line of succession, so 
to speak.
    Mr. Bulger. Right.
    Mr. Burton. But you have no knowledge of anything that led 
up to that indictment or that investigation?
    Mr. Bulger. No. And I am absolutely certain that I never 
would ask anyone or even indicate any way that I would want 
some harm to befall someone to further my ambition.
    Mr. Burton. Was Connolly involved in that?
    Mr. Bulger. I don't know. I don't think so.
    Mr. Burton. So Connolly was not involved in that.
    Mr. Bulger. I don't think he was.
    Mr. Burton. OK.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Well, I think we are close to the end 
here.
    Let me just ask. You had weapons found next door. There 
were a lot of activities going on next door to you.
    Mr. Bulger. Right.
    Chairman Tom Davis. Were you aware of this?
    Mr. Bulger. Sure. I was aware when they were discovered and 
picked up.
    Chairman Tom Davis. I mean, what did you think?
    Mr. Bulger. I didn't know. I mean, whoever, when they put 
them there, didn't tell me, by the way.
    Chairman Tom Davis. Oh, no, I understand. But what did you 
think afterwards? I mean, were you concerned?
    Mr. Bulger. I don't know. They were hidden away, and I 
think that the time when they were discovered, I didn't even 
realize that people had come and done it, that is to say, come 
and take them way. I just didn't know that. For all of those 
years that the Flemmi family lived there, it was two very, very 
fine people, old people; and for a long, long time the widow 
and the mother of Stephen Flemmi, the house would become 
vacant, and they were looking for someplace and they came 
there.
    Chairman Tom Davis. These weren't big lots or anything, 
though, right?
    Mr. Bulger. Pardon me?
    Chairman Tom Davis. These were relatively small units and 
small lots?
    Mr. Bulger. Oh, yes, very small.
    Chairman Tom Davis. Very close to each other, right?
    Mr. Bulger. Very, yes.
    Chairman Tom Davis. OK.
    Any other questions? Mr. Meehan, Mr. Delahunt.
    Mr. Meehan. So the Flemmi house was right next door to your 
home.
    Mr. Bulger. Right.
    Mr. Meehan. How much distance is there between the two?
    Mr. Bulger. Perhaps from here to the desk, the first desk.
    Mr. Meehan. And you are aware that machine guns and the 
other ammunition was taken out of, I guess, the back shed.
    Mr. Bulger. Yes.
    Mr. Meehan. After the fact, I mean.
    Mr. Bulger. Yes.
    Mr. Meehan. And you never had any knowledge.
    Mr. Bulger. None.
    Mr. Meehan. Not of guns being there, but nothing ever 
looked suspicious over there?
    Mr. Bulger. No.
    Mr. Meehan. Did you know Debbie Davis?
    Mr. Bulger. I don't think I ever met Debbie Davis, no.
    Mr. Meehan. You are aware it is alleged that she was 
murdered next door?
    Mr. Bulger. Yes.
    Mr. Meehan. I realize the difficulty with this. I am 
curious, after all that has transpired, do you want your 
brother to give himself up now?
    Mr. Bulger. Do I want him to? I hope he does what is the 
right thing.
    Mr. Meehan. Do you want law enforcement, at this point, to 
effectively find him and bring him back to face charges?
    Mr. Bulger. Do I want them to?
    Mr. Meehan. Well, let me phrase it differently.
    Mr. Bulger. I worry about the thing I told you in the first 
place, Congressman. I can't get away from that, my belief that 
the effort was made to kill him, and that it was done by an FBI 
agent, Mr. Morris. And I am mindful of the finding of the 
judge, Judge Wolfe. He said I believe, and he uses the verb in 
order to murder Bulger, that Morris went and met with O'Neil of 
the Globe to have that printed. And when the question is asked 
each time, they say, well, what did you think? I tell you, one 
thing I knew was this, that whether it were true or false, the 
fact is identifying him as such might result in his murder. And 
that was the judge's conclusion. And it was a chilling thing 
for me, with all of the talk about killings and the rest. 
Believe me, I know it may seem as though I am expressing all my 
sensitivity to this particular situation. It is only that it is 
under color of authority that it really disturbs me, that 
people would violate their office by doing that. I think it is 
the same sense of indignation that, well, I am aware of because 
I am here at your committee as you try to deal with the 
perennial question of who will police the police. So I have no 
quarrel with whatever you are thinking. In fact, I think if I 
were here, I would be similarly outraged.
    But with respect to the original question, I don't know. I 
don't know exactly how to give the answer, just in view of my 
lack of confidence in these people.
    Mr. Meehan. Let me ask you a question. Was that part of 
your rationale in 1995, when you got the phone call, not to go 
immediately to law enforcement in an effort to try to put a 
trace on the call?
    Mr. Bulger. In 1995 I still hadn't seen the official kind 
of pronouncement by the judge. But I was always mindful of that 
fact, that some years before that had appeared. And the only 
people who would know it, you know, with any kind of degree of 
certitude would be the ones who were. To be an FBI informant is 
surely to be known for being that by the FBI.
    Mr. Meehan. So do you question the ability of law 
enforcement to, if in fact they were able to capture James 
Bulger, do you question whether or not they could keep him from 
being murdered?
    Mr. Bulger. I don't know. I am taken by the fact that I 
have to have the doubt. I do have a doubt.
    Mr. Delahunt. Would my friend yield?
    Mr. Meehan. Sure.
    Mr. Delahunt. Mr. Bulger, today, as we sit here, in the 
year 2003, and there have been changes, obviously, in the 
Boston office of the FBI, as well as in the leadership of the 
FBI down here in Washington, you expressed a concern, you made 
it in your opening statement, that you believed partially, it 
is my understanding, on the finding by Judge Wolfe. But did you 
have any other evidence, as opposed to a feeling, that some 
wanted your brother killed?
    Mr. Bulger. It was a strong feeling.
    Mr. Delahunt. But it was a feeling.
    Mr. Bulger. Based on reason.
    Mr. Delahunt. Let me interrupt.
    Mr. Bulger. Sure.
    Mr. Delahunt. Would you provide this committee with what 
you would discern as the motive for the FBI wanting to kill 
your brother?
    Mr. Bulger. I can tell you.
    Mr. Delahunt. Tell us.
    Mr. Bulger. It is the finding of Judge Wolfe, too, after 
extensive hearings. He said that Morris had been involved in 
this unsavory kind of relationship, and he had accepted 
something from my brother. He thought that my brother had 
outlived his usefulness and he, therefore, knew that some day 
my brother would be brought in.
    Mr. Delahunt. I understand. Let me interrupt you by saying 
Mr. Morris is no longer, obviously, with the Bureau.
    Mr. Bulger. Right.
    Mr. Delahunt. Do you have that same concern today?
    Mr. Bulger. I am sorry, that was your question. I 
apologize. I don't know, my confidence is shaken, but I don't 
know. Do you mind me just saying this? Most of those people 
that we have had the names about, Mr. Condon and Sheehan and 
those people, they seem to me to be men of integrity. You don't 
have to listen to this, but I cannot believe that they would 
have knowingly been parties to this terrible commitment of 
three men for their whole lifetimes. I don't know Rico. I don't 
know Rico. So if it is somebody I don't know, like Morris, I 
suppose that is easier for me. But when I have been around with 
them, they were in State government, it would be so base for 
them to have been a party to that and then to be, I don't know, 
so, in my view, upstanding.
    Mr. Delahunt. Let me just change the subject for one 
moment. Let me go back to the issue of Mr. Davis and Trooper 
Johnson.
    When you were preparing the affidavit, I don't know whether 
it was Mr. Kiley or yourself that prepared the Dave Davis 
affidavit, but I would suggest to you, Mr. Bulger, that was he 
inquired of as to whether he went to the State police office 
and sought the report?
    Mr. Kiley. May I answer, Mr. Chairman?
    Chairman Tom Davis. Yes, you may.
    Mr. Kiley. All of the affidavits were my work product. All 
of them are the result of contact following our June 3 
interview here. And I asked particular questions of all of 
them, drafted them; they edited them, every one of these 
individuals.
    Mr. Delahunt. Well, let me interrupt you, Tom. Let me 
interrupt you.
    Mr. Kiley. And, no, I did not ask him that question.
    Mr. Delahunt. You did not ask him that question. Because I 
would suggest the fact that Mr. Davis, who was the director of 
MASSPORT, should go and seek the report can be described as 
unusual.
    In terms of the outside section of the budget, who happened 
to be the chairman of the Senate Ways and Means Committee?
    Mr. Bulger. In 1981 it is Chester Atkins?
    Mr. Delahunt. Chester Atkins?
    Mr. Bulger. Right.
    Mr. Delahunt. And it is my understanding that this outside 
amendment was inserted in the House, as opposed to the Senate?
    Mr. Kiley. We don't know, Mr. Congressman. There are 
different accounts in the press.
    Mr. Delahunt. And do you know who would have been the 
chairman of the House Ways and Means Committee at that time? If 
you can remember.
    Mr. Bulger. I can't remember, no.
    Chairman Tom Davis. That is in the public record, and we 
can find that out.
    Mr. Delahunt. Yes. I would hope that the committee would 
review and have staff conduct its own interviews. And let me 
conclude by saying to you, Mr. Chairman, I sincerely hope that 
this effort, in terms of an examination of the FBI, and 
specifically the Boston office, continues. I think it is very 
important, and I believe that it is time for us to consider 
having Mr. Connolly in front of this committee, Mr. Morris in 
front of this committee, Mr. Weeks, and Mr. Martorano. And I 
would hope that, under your direction, that the staff would be 
instructed to initiate whatever has to be done in terms of 
interviewing them.
    Chairman Tom Davis. Well, let me just say, obviously, this 
is probably not our last hearing on this issue, but we 
coordinate with the Justice Department on this. Mr. Connolly 
has an appeal pending, but that is something that we are 
certainly looking at, I want to assure the gentleman.
    Mr. Delahunt. Thank you.
    Mr. Meehan. Mr. Chairman, should I assume that Mr. Delahunt 
used all my time?
    Chairman Tom Davis. If you have another question. I think 
we are ready to wrap this up.
    Mr. Meehan. No, that is fine.
    Chairman Tom Davis. It has been a long day, I think, for 
all of us.
    Mr. Meehan. No further questions.
    Chairman Tom Davis. Let me just ask, Mr. Bulger, is there 
anything you want to add at the end of this that you would like 
to say to straighten anything out, something you didn't get in 
the record?
    Mr. Bulger. No. It is over now. But I wanted you to know 
that I understand your purpose and I am serious about 
respecting it.
    Chairman Tom Davis. Well, thank you.
    Mr. Bulger. I mean, it is the terrible questions, but it is 
the perennial question about who will watch the watchers.
    Chairman Tom Davis. It is going to continue here.
    Mr. Bulger. And other people will be doing it many years 
hence; it is an ongoing.
    Chairman Tom Davis. Well, unfortunately, I don't think it 
is confined to Massachusetts. We have had other issues we will 
continue to look at. But this has been very helpful. Obviously, 
we are going to come back. This has raised some other issues, 
as you have testified. We want to go back and look. But we 
appreciate your being here today.
    All the affidavits will be entered into the record.
    [Information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T9004.032
    
    Mr. Kiley. How about also the statement that we alluded to 
and said we would read in, instead, concerning the visit last 
week?
    Chairman Tom Davis. Mr. LaTourette, do you have some 
questions remaining?
    Mr. LaTourette. One, if you could bear with me.
    Chairman Tom Davis. Sure.
    Mr. LaTourette. I know you want to move along.
    Mr. Bulger, earlier today I asked you if you asked for a 
grant of immunity when you testified, and I think I said a 
State grand jury. My understanding is you never went to a State 
grand jury, it was a Federal grand jury. So I hope that my bad 
asking didn't get me the wrong answer.
    Mr. Bulger. No, sir.
    Mr. LaTourette. When you appeared before the Federal grand 
jury, did you seek a grant of immunity?
    Mr. Bulger. Yes, I did.
    Mr. LaTourette. And can you explain to us why? If that 
section of the law is correct, the sibling exception that you 
talked about, why?
    Mr. Bulger. Because it was a Federal grand jury originally, 
and there was a question in my mind as to how much protection 
the Massachusetts statute afforded me. There were questions 
like that.
    Mr. LaTourette. Thank you.
    That is all I have. Thank you very much.
    Chairman Tom Davis. OK. Thank you very much.
    Thank you very much.
    Mr. Bulger. Thank you very much, Mr. Chairman.
    Chairman Tom Davis. The hearing will be adjourned.
    [Whereupon, at 4:03 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]

                                   - 

</pre></body></html>
